<html>
<title> - IRAQ: STATUS AND PROSPECTS FOR RECONSTRUCTION--RESOURCES</title>
<body><pre>[Senate Hearing 108-255]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-255

        IRAQ: STATUS AND PROSPECTS FOR RECONSTRUCTION--RESOURCES

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 29, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



91-037              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

American Association of Engineering Societies, prepared statement 
  submitted for the record.......................................    96
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................    10
Bolten, Hon. Joshua B., Director, Office of Management and 
  Budget, Washington, DC.........................................    11
    Prepared statement...........................................    14
    ``Ninety Day Update Report on United States Strategy for 
      Relief and Reconstruction of Iraq,'' submitted by OMB, 
      dated July 14, 2003........................................    76
Boxer, Hon. Barbara, U.S. Senator from California, submissions 
    for the record:
    ``Countries Where al Qaeda Has Operated''....................    57
    Excerpts of Deputy Secretary Wolfowitz's testimony before the 
      House Budget Committee on February 27, 2003................    58
Chafee, Hon. Lincoln D., submission for the record:
    New American Century, letter to President William J. Clinton, 
      dated January 26, 1998.....................................    50
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    54
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4
Wolfowitz, Hon. Paul D., Deputy Secretary of Defense; accompanied 
  by: General John M. Keane, Acting Chief of Staff, U.S. Army, 
  Department of Defense, Washington, DC..........................    17
    Prepared statement...........................................    29
    Articles and op ed on Deputy Secretary Wolfowitz's trip to 
    Iraq:
      ``Roots Of Hope In A Realm Of Fear,'' op ed by Paul 
        Wolfowitz, The Washington Times, July 28, 2003...........    88
      ``Getting to Know the Iraqis,'' article by Jim Hoagland, 
        The Washington Post, July 20, 2003.......................    89
      ``Wolfowitz Visits Mass Graveyard of Hussein's Victims and 
        Promises Help in Hunting Killers,'' article by Eric 
        Schmitt, The New York Times, July 20, 2003...............    90
      ``This Was a Good Thing to Do,'' article by Paul A. Gigot, 
        The Wall Street Journal, July 28, 2003...................    91
      ``Of Prisons and Palaces--Notes from Liberated Iraq,'' 
        article by Stephen F. Hayes, The Weekly Standard, August 
        4-11, 2003...............................................    93

                                 (iii)

  

 
        IRAQ: STATUS AND PROSPECTS FOR RECONSTRUCTION--RESOURCES

                              ----------                              


                         TUESDAY, JULY 29, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Hagel, Chafee, Allen, Brownback, 
Voinovich, Coleman, Biden, Dodd, Feingold, Boxer, Bill Nelson, 
Rockefeller and Corzine.
    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order. We are awaiting the completion of 
our witness panel. In the interest of time, I will give my 
opening statement. We will then call upon the distinguished 
ranking member to give his.
    We know that our hearing may be interrupted by rollcall 
votes on the energy bill that will be proceeding on the Senate 
floor. We want to utilize each moment for our witnesses and for 
Senators who will have questions of the witnesses.
    It is our pleasure today to welcome back Deputy Secretary 
of Defense Paul Wolfowitz, accompanied by General John Keane, 
Acting U.S. Army Chief of Staff, and to welcome for the first 
time before the Senate Foreign Relations Committee Joshua 
Bolten, the new Director of the Office of Management Budget.
    Today the committee will continue its examination of Iraq 
reconstruction and how sufficient resources can be provided to 
ensure that we achieve our goals. Secretary Wolfowitz is now 
approaching the podium. I give this greeting personally to you.
    Secretary Wolfowitz, we are particularly pleased to have 
the opportunity to discuss your assessment of our 
reconstruction efforts based on your recent visit to Iraq. When 
you were here with us in May, your testimony added greatly to 
this committee's understanding of the resource requirements in 
Iraq at that time. In subsequent hearings on Iraq, we have 
heard of many successes on the ground. Yet overall, the United 
States mission in Iraq continues to hang in the balance. If we 
succeed in rebuilding Iraq, it may set off a positive chain of 
events that could usher in a new era of stability and progress 
in the Middle East.
    By contrast, failure could set back American interests for 
a generation, increasing anti-Americanism and multiplying the 
threats from tyrants and terrorists and reducing our 
credibility.
    Having visited Iraq 4 weeks ago with my colleagues, Senator 
Biden and Senator Hagel, who are with me on both sides this 
morning, I can attest that the troops and officials in Iraq 
understand this urgency. I believe that most high-ranking 
officials and Members of Congress understand the stakes as 
well.
    Yet because of some combination of bureaucratic inertia, 
political caution, and unrealistic expectations left over from 
before the war, we do not appear to be confident about our 
course in Iraq. Our national sense of commitment and confidence 
must approximate what we demonstrated during the Berlin 
Airlift, a sense that we could achieve the impossible despite 
short-time constraints and severe conditions of risk and 
consequence.
    We know, for example, that coalition efforts in Iraq must 
undergo further internationalization to be successful and 
affordable. We know that the key to most problems in Iraq is 
establishing security. We know that we must have far more 
effective means of delivering honest information to the Iraqi 
people. We know that our credibility with the international 
community and the Iraqi people will be enhanced by a multi-year 
budgetary commitment.
    Yet we have taken inadequate policy steps toward realizing 
these objectives. We still lack a comprehensive plan for how to 
acquire sufficient resources for the operations in Iraq and how 
to use them to maximum effect.
    Last week, similar concerns were outlined clearly by Dr. 
John Hamre and his team of experts commissioned by the 
Department of Defense to assess reconstruction efforts in Iraq. 
Their excellent report offers 32 recommendations to help solve 
many problems. We understand the Department of Defense has 
praised this report and is beginning to implement some of these 
recommendations.
    A major untapped resource with the potential for changing 
the dynamics on the ground is the international community. The 
United States needs to build a new coalition to win the peace. 
Involving other nations in Iraq will help reassure the Iraqi 
people that the results of our nation-building efforts are 
legitimate.
    At the same time, international involvement will reduce the 
burden on the United States taxpayer and help maintain the 
American people's political support. Just as we called upon our 
military strength to win the war, we need to call on the 
strength of our diplomacy to overcome pre-war disagreements 
with allies and reach a new consensus on how to ensure that 
Iraq emerges as a peaceful and stable nation. We may need a new 
United Nations Security Council resolution or some other form 
of international commitment to increase assistance to Iraq.
    We look forward to the pledging conference in October as an 
opportunity for all nations to commit to rebuilding Iraq, but 
the United States diplomatic offensive must be in full force 
now.
    Another idea that the administration should explore is the 
prospect of opening a ``backstopping'' coordinating office in 
Washington that mirrors the effort in Baghdad. Such an office 
must be structured to help cut through micro-management and 
bureaucratic delays in the decisionmaking process. The Hamre 
report states, and I quote, ``The Coalition Provisional 
Authority is badly handicapped by a business-as-usual approach 
to the mechanics of government, such as getting permission to 
spend money or enter into contracts.''
    Dr. Bolten, we will look to you today to explain how 
resources for Iraq are being managed, and how they can be 
better managed. Our committee wants to be helpful to you in 
ensuring the most effective use of resources possible.
    Finally, I will reiterate my observation from last week's 
hearing that Congress, as an institution, is failing to live up 
to its own responsibilities in foreign affairs even as we have 
cited shortcomings of administration policy in responding to 
the extraordinarily difficult circumstances in Iraq, the Senate 
has allowed unrelated domestic legislative objectives to delay 
the far simpler task of passing the Foreign Relations 
Authorization bill, for example.
    This bill includes new initiatives and funding authority 
related to the security and productivity of our diplomats, our 
outreach to the Muslim world, our nonproliferation efforts, our 
foreign assistance, and innumerable other national security 
priorities. Yet politically motivated obstacles have been 
thrown in the path of the bill almost cavalierly, as if 
Congress's duty to pass foreign affairs legislation has little 
connection to our success in Iraq or in our war against 
terrorism.
    Congress has also been a co-conspirator with the 
administration in failing to advance a predictable multi-year 
budget for operations in Iraq that would demonstrate American 
vision and commitment, attract allied support, and clarify the 
scope of our mission to the American people.
    Many Members of Congress have called for short-term cost 
estimates from the administration, but few seem willing to 
offer the White House a true partnership in constructing a 4- 
or 5-year budget plan that would provide a sober accounting of 
the needs in Iraq and the means to fund them. Congress must 
focus on how we can help the administration, or we will bear a 
large share of the responsibility for whatever failures occur.
    Even in this political season, the President and Members of 
Congress of both parties must set aside at least some of the 
political opportunities that are inherent in this war and its 
aftermath. The Founders structured Congress to be a political 
body, but they also expected that Congress would be able to 
rise above excess partisanship to work with the President on 
national security issues.
    We can start by making it clear that Congress will join 
with the administration in doing our duty and accepting the 
political risks in constructing a 4-year budget for Iraq.
    We are grateful for the participation of our witnesses 
today. We look forward to an enlightening discussion. We urge 
you to suggest ways in which we can help you achieve American 
objectives in Iraq.
    Now let me say at the outset, before I yield to my 
colleague from Delaware, that I have indicated to Secretary 
Wolfowitz that his statement and the statements of Mr. Bolten 
and General Keane, if they have them, will be made a part of 
the record in full. Nonetheless, less, I have also urged 
Secretary Wolfowitz that he should be complete in the statement 
he makes to the committee today. That is, he should take the 
time that is required to comprehensively give the experiences 
that have formed his views and that move at least along the 
lines of some suggestions that I have made, as well as those 
that I am sure the distinguished ranking member will make.
    The purpose of this hearing is not to cutoff our witnesses 
at 5 minutes, 10 minutes, or with the time gone. It really is 
to hear from them, to hear fully, and to have an opportunity 
for the American people to hear this message from all of you, 
which is very important.
    [The opening statement of Senator Lugar follows:]

             Opening Statement of Senator Richard G. Lugar

    It is our pleasure to welcome back Deputy Secretary of Defense Paul 
Wolfowitz, accompanied by General John Keane, Acting U.S. Army Chief of 
Staff, and to welcome for the first time before the Senate Foreign 
Relations Committee, Joshua Bolten, the new Director of the Office of 
Management and Budget. Today the committee will continue its 
examination of Iraq reconstruction and how sufficient resources can be 
provided to ensure that we achieve our goals.
    Secretary Wolfowitz, we are particularly pleased to have the 
opportunity to discuss your assessment of our reconstruction efforts 
based on your recent visit to Iraq. When you were here in May, your 
testimony added greatly to this committee's understanding of resource 
requirements in Iraq at the time.
    In subsequent hearings on Iraq, we have heard of many successes on 
the ground. But overall, the U.S. mission in Iraq continues to hang in 
the balance. If we succeed in rebuilding Iraq, it may set off a 
positive chain of events that could usher in a new era of stability and 
progress in the Middle East. By contrast, failure could set back 
American interests for a generation, increasing anti-Americanism, 
multiplying the threats from tyrants and terrorists, and reducing our 
credibility.
    Having visited Iraq four weeks ago with Senator Biden and Senator 
Hagel, I can attest that the troops and officials in Iraq understand 
this urgency. I believe that most high-ranking officials and Members of 
Congress understand the stakes, as well. Yet because of some 
combination of bureaucratic inertia, political caution, and unrealistic 
expectations left over from before the war, we do not appear to be 
confident about our course in Iraq. Our national sense of commitment 
and confidence must approximate what we demonstrated during the Berlin 
Airlift--a sense that we could achieve the impossible, despite short 
time constraints and severe conditions of risk and consequence.
    We know, for example, that Coalition efforts in Iraq must undergo 
further internationalization to be successful and affordable. We know 
that the key to most problems in Iraq is establishing security. We know 
that we must have far more effective means of delivering honest 
information to the Iraqi people. We know that our credibility with the 
international community and the Iraqi people will be enhanced by a 
multi-year budgetary commitment. Yet we have taken inadequate policy 
steps toward realizing these objectives. We still lack a comprehensive 
plan for how to acquire sufficient resources for the operations in Iraq 
and how to use them to maximum effect.
    Last week, similar concerns were outlined clearly by Dr. John Hamre 
and his team of experts commissioned by the Department of Defense to 
assess reconstruction efforts in Iraq. Their excellent report offers 32 
recommendations to help solve many problems. We understand that the 
Department of Defense has praised this report and is beginning to 
implement some of these recommendations.
    A major untapped resource with the potential for changing the 
dynamics on the ground in Iraq is the international community. The 
United States needs to build a new coalition to win the peace. 
Involving other nations in Iraq will help reassure the Iraqi people 
that the results of our nation-building efforts are legitimate. At the 
same time, international involvement will reduce the burdens on the 
U.S. taxpayer and help maintain the American people's political 
support.
    Just as we called upon our military strength to win the war, we 
need to call on the strength of our diplomacy to overcome pre-war 
disagreements with allies and reach a new consensus on how to ensure 
that Iraq emerges as a peaceful and stable nation. We may need a new 
U.N. Security Council Resolution, or some other form of international 
commitment to increase assistance to Iraq. We look forward to the 
pledging conference in October as an opportunity for all nations to 
commit to rebuilding Iraq, but the U.S. diplomatic offensive must be in 
full force now.
    Another idea that the administration should explore is the prospect 
of opening a ``backstopping'' coordinating office in Washington that 
mirrors the effort in Baghdad. Such an office must be structured to 
help cut through micromanagement and bureaucratic delays in the 
decisionmaking process. The Hamre report states: ``The Coalition 
Provisional Authority (CPA) is badly handicapped by a `business as 
usual' approach to the mechanics of government, such as getting 
permission to spend money or enter into contracts.'' Dr. Bolten, we 
will look to you today to explain how resources for Iraq are being 
managed. Our committee wants to be helpful to you in ensuring the most 
effective use of resources possible.
    Finally, I would reiterate my observation from last week's hearing 
that Congress, as an institution, is failing to live up to its own 
responsibilities in foreign affairs. Even as we have cited shortcomings 
of administration policy in responding to the extraordinarily difficult 
circumstances in Iraq, the Senate has allowed unrelated domestic 
legislative objectives to delay the far simpler task of passing the 
Foreign Relations Authorization bill. This bill includes new 
initiatives and funding authority related to the security and 
productivity of our diplomats, our outreach to the Muslim world, our 
non-proliferation efforts, our foreign assistance, and innumerable 
other national security priorities. Yet politically motivated obstacles 
have been thrown in the path of the bill almost cavalierly, as if 
Congress's duty to pass foreign affairs legislation has little 
connection to our success in Iraq or in our war against terrorism.
    Congress also has been a co-conspirator with the administration in 
failing to advance a predictable multi-year budget for operations in 
Iraq that would demonstrate American vision and commitment, attract 
allied support, and clarify the scope of our mission to the American 
public. Many Members of Congress have called for short-term cost 
estimates from the administration, but few seem willing to offer the 
White House a true partnership in constructing a four- or five-year 
budget plan that would provide a sober accounting of the needs in Iraq 
and the means to fund them.
    Congress must focus on how we can help the administration, or we 
will bear a large share of the responsibility for whatever failures 
occur. Even in this political season, the President and Members of 
Congress of both parties must set aside at least some of the political 
opportunities that are inherent in this war and its aftermath. The 
Founders structured Congress to be a political body. But they also 
expected that Congress would be able to rise above excessive 
partisanship to work with the President on national security issues. We 
can start by making it clear that Congress will join with the 
administration in doing our duty and accepting the political risks in 
constructing a four-year budget for Iraq.
    We are grateful for the participation of our witnesses today. We 
look forward to an enlightening discussion, and we urge you to suggest 
ways that we can help you achieve American objectives in Iraq.

    The Chairman. I call now upon Senator Biden for his 
statement.
    Senator Biden. Thank you very much, Mr. Chairman. And I, 
too, welcome our three distinguished witnesses. We are anxious 
to hear from them. And I am glad to hear you say that, as 
usual, we want to hear from you. So do not truncate your 
statements. We are in need of information. We are in need, I 
am, at least, in need of information and plans of the 
administration.
    I will try not to repeat some of what the chairman said. 
But we heard from Dr. Hamre and his colleagues last week. Both 
the committee, as well as the Defense Department, I am told, 
thought it was a solid report. But in my view, the most 
critical finding, and I quote, is ``the Iraq population has 
exceedingly high expectations and the window for cooperation 
may close rapidly if they do not see progress on delivering 
security, basic services, opportunities for political 
development and economic opportunity.''
    The report went on to say, and I quote, ``The next 3 months 
are crucial to turning around the security situation.''
    Now I personally think this job is doable or I would not 
have voted for us going into Iraq in the first place. I think 
it is doable. But I think it is going to require a much more 
intensified and urgent commitment of resources. And beyond 
that, I think it is going to take a lot of time, a lot of 
troops, and a lot of money.
    Now when we ask you guys about how many troops and how much 
time and how much money, we are not naive. We are not looking 
for 1 year, 7 days, and 3 hours. We are not looking for 
somewhere over x billion dollars. We are looking for an honest 
assessment. And you all know, you all know, that we are talking 
tens of billions of dollars, tens of thousands, if not 
initially well over 100,000 troops, and more than that the next 
year.
    So we would like to get some honest assessment from you as 
to what you are thinking. Because if you are not thinking in 
those terms, then none of you should have your job, with all 
due respect. If you are not thinking ahead as to what it is 
going to look like in a year, a year and a half from now, and 
what contingency plans are going to be required when you come 
to ask us for more money, more support, and more time, then we 
are going to be put in a very difficult position.
    We know everything changes. I love hearing you guys in the 
administration always say things change rapidly. We got that. 
We know that. We understand that. But what do you think? What 
do you think? What are you planning?
    Unfortunately, right now we are the only game in town. I 
know we have a coalition of 19 countries. But that coalition is 
a coalition of the hopeful, because 90 percent of the forces on 
the ground are ours. Ninety percent of the casualties are ours. 
And we are paying a vast majority of the costs of 
reconstruction after you discount the Iraqi funds that exist 
and existed before and what may come from oil revenues.
    And I might add, I misspoke the other day in a hearing when 
I indicated that it would cost $5 billion to get to a million 
barrels a day. The number was $5 billion to get to 3.5 million 
barrels a day. But the point is that there is not enough money 
at the front end from Iraqi oil to pay for this reconstruction.
    By contrast, in Desert Storm, under Bush one, there was a 
real coalition. There were several hundred thousand boots on 
the ground that were not wearing American uniforms. And the 
cost in today's dollars is about $75 billion. And roughly four-
fifths of that cost was paid by other people. That is what I 
call a coalition. That is what I call a coalition.
    Now I am not suggesting we are going to be able to do that. 
But I am suggesting that what we have now is something vastly 
different than what the American people, I think, anticipated.
    I would like to hear from the Secretary about what the 
administration is going to do to address the situation on the 
ground before, as the Hamre report says, the window closes or 
whether or not anyone in the administration thinks the Hamre 
report is right about the sense of urgency, whether or not the 
window is closing. I guess that is going to be my fundamental 
question.
    We all acknowledge the No. 1 job is security. And 
ultimately, only the Iraqis are going to be able to provide for 
their own security through a new Iraqi police force and a new 
Iraqi army. But it is going to take time to stand up to those 
forces. In fact, it is going to take a lot longer time, in my 
view, than most Americans think it is going to and clearly 
longer than you all predicted it would at the front end.
    And that is OK. We all make predictions wrong. I have made 
plenty that are wrong. But the question is: What are we going 
to do about it?
    I saw and op ed piece yesterday, Mr. Secretary, that you 
had visited the Baghdad police academy. I hope they told you 
the same thing they told me. I have known all those guys since 
Bosnia. They are the best team we could put together. You put 
together a first-class team. These are serious people with vast 
experience, vast experience. And I hope they told you what they 
told Senator Lugar and told Senator Hagel and told me. And that 
was that they need about 5,000 additional international police 
forces now, not next year, now. And they need those forces to 
train and to patrol with new Iraqi police forces.
    I hope you saw the same display that we saw of well-
intended Iraqis, who are signed up to come back, that almost 
look like the Katzenjammer Kids, as they tried to parade for 
us. They are well-meaning. They are trying hard. But, boy, do 
they need a lot of work, a lot of work.
    You probably heard that it is going to take over a year to 
recruit and train a minimal force of 40,000. And while 
Ambassador Bremer hopes to recruit another 35,000 within 
another year, we were told in Baghdad that fully training a 
force to professional standards is going to take several years.
    And similarly, we are talking about 3 years to build an 
Iraqi army of 40,000 strong. That should not surprise us, based 
on our past experience. I am not being critical. But there are 
parameters in which at least I am dealing, when I look at what 
the costs are going to be, what kind of help we need, what kind 
of timeframe we are talking about.
    When can Iraqis expect to have law order? When can women 
leave their homes? When can people drop their daughters off at 
school and not sit outside the school for the entire 7 hours 
that they are in school in an automobile waiting for school to 
be released for fear of their daughters being kidnaped or 
raped?
    Now these are rhetorical questions. You cannot have answers 
for them. But what conditions do we have to have existing to be 
able to meet and give reasonable answers to those questions?
    And when will Iraqi essential services be restored? Those 
are the questions we got asked constantly when we were there on 
the ground. When will we hear a message effectively 
communicating to the Iraqis?
    When I was in Baghdad, we were on the air just 4 hours a 
day. I am told now we are doing a lot better than that. But the 
programming still makes public access broadcasts seem exciting. 
Meanwhile, al Jazeera and the Iranians are on 24-7 with very 
sophisticated programming, very sophisticated programming.
    We heard from the Hamre report that we have a very, very 
under-funded and under managed operation as to how to get up in 
the air and actually communicate with the Iraqi people. And how 
can the greatest communication power in the world be on the 
short end of this stick here?
    I ask these questions because of the yardsticks by which 
Iraqis are measuring us, in my opinion. The longer it takes, 
the more Iraqis begin to question our ability to improve their 
lives, the more frustration will grow toward the United States, 
and more difficult it is going to be for us to stand up an 
Iraqi government that has legitimacy.
    Like it or not, we are now perceived as the government of 
Iraq by ordinary Iraqis. And we are going to be judged by our 
ability to deliver on basic things that people all over the 
world expect their governments to do: Security, services, and 
an economy that begins to create jobs.
    I thought it was an interesting poll I saw about 10 days 
ago, where the Iraqi people in the poll indicated that they are 
prepared to have American forces there from 6 months to 2 years 
by numbers well in excess of 50 percent in order to restore 
order. But there is a direct correlation between the lack of 
order, the lack of control, the lack of services, and their 
sufferance of having us around.
    The vast majority of the Iraqi people expect us to stay, 
and want us to stay. And they want us to get them up on their 
feet. But the Iraqis have a hugely unrealistic expectation 
about the United States.
    General, your guys did so well. They did so well so quickly 
that the Iraqis cannot fathom how we could take away this vast 
evil that existed there, that they viewed as all powerful and 
omniscient and not get the lights on.
    Now that is unrealistic. We pay a price for being so good 
at some things and for having inherited an infrastructure that 
is so bad and so damaged and with actions of sabotage that 
every time we get something up and running, it gets whacked.
    And so the fact of the matter is, though, that these are 
the expectations. It all goes back to this issue of whether or 
not that window is wide open or it is closing, because the 
moment the Iraqi people conclude we are not in their interest, 
our whole circumstance changes even more drastically than it 
does today, in my view.
    So I hope that you guys will lay out a specific plan about 
how we plan on making progress in the coming weeks and coming 
months. I also hope that you will tell us specifically what 
requests you have made for international assistance and what 
expectations are of contributions that might be forthcoming, 
how many forces, what type, how many dollars.
    I note that General Myers in testimony last week said that 
the 30,000 troops promised by other countries, ``It needs to be 
higher than that.'' What are we doing to make that number 
higher?
    I thought it was really important, quite frankly, the 
Japanese decided that they were going to vote to send forces. I 
thought that was--they are only talking about 1,000 forces. But 
the symbolism of that, I thought, was consequential. And I 
congratulate the administration.
    But what else are we going to do? Who have we made requests 
to? Are we considering a second U.N. Security Council 
resolution? Are we considering asking NATO formally to take 
over a U.S. command?
    I understand, from my discussions with NATO, that the 
likelihood of them being able to free up even 20,000 troops is 
highly unlikely. I am not looking for large numbers of troops. 
I am looking for what you are asking for. What are you asking 
for? Are we trying to change the profile of the forces on the 
ground.
    And Mr. Bolten, I am pleased you have joined us today. For 
almost a year the committee has tried to get a reasonable 
estimate as to what the operation is going to cost or what, at 
least, the administration thinks it is going to cost in Iraq, 
in terms of securing the country, administering it and 
rebuilding it. I know the World Bank is coming in shortly with 
their estimates. But I know you have to be making your own 
estimates here. And we want to know what is it, what are you 
planning for.
    I hope that you can offer some answers today. And again, 
please do not waste our time and yours by saying the future is 
simply unknowable. We know the future is unknowable. But you 
cannot plan a great nation's steps based on everything ``being 
unknowable.'' Pick a number. Pick an idea. Pick a notion. Give 
us an idea what you are thinking.
    We do not expect you to give us specific figures. But as 
the Government's chief budget officer, you have to have some 
numbers that you are using for your planning. And we would like 
you to share them with us.
    I am glad to see that the interim Iraqi budget for the 
remainder of the calendar year has been issued. And in my 
judgment, it does not make the scale of investments that are 
urgently needed to turn things around before that window of 
opportunity closes. Yet it has a $2.2 billion deficit that we 
financed from vested and seized Iraqi assets.
    Ambassador Bremer announced last week that next year's 
budget will have a projected $4 billion deficit. That means you 
must have an idea of revenues and expenditures. I hope you will 
share that information with us. And I hope that you can lay out 
a plan for making the massive investment that Ambassador Bremer 
says will have to be made.
    He says that it is going to cost us over 5 or 6 years $13 
billion to keep electric production with pace of demand. 
International groups have said it is going to cost $21 billion. 
I do not know who is right. He indicated $16 billion over that 
same period of time to provide potable water and investments to 
improve healthcare and use expenses in building a reliable 
social safety net. Again, I do not know whether that is 
accurate. But I want to know are they figures you all are 
thinking about?
    Mr. Chairman, it strikes me that we have three options in 
Iraq. First, we continue as we are, paying the lion's share of 
the costs, providing the lion's share of the troops, and taking 
nearly all of the casualties and all of the blame. And the 
second is to leave and quickly let the U.N. deal with the 
ensuing chaos and let Iran and other neighbors intervene. That, 
in my view, would not only undermine our credibility but would 
leave us far less secure than we were prior to the war.
    And the third option seems to me to be the only reasonable 
one, and that is to bring in more countries, if necessary, by 
giving them more say. It strikes me that this is the most 
sensible option. I realize the devil is always in the details. 
But it seems to me we should go to NATO, go to the NAC and make 
this a NATO operation, even if it is a very few NATO forces.
    We should go to the U.N. We should go to our Arab allies. 
And we should go to the EU and say that we genuinely want their 
help and that they have just as much, if not more, at stake in 
how this turns out. The New York Times today has an article 
about Chirac and the French acknowledging how much they have at 
stake here.
    Are we willing to give them--not just the French, all these 
folks we are talking about--more than a ceremonial role? And do 
we want them to genuinely share the burden? I think we do. But 
I look forward to the testimony. We all have a lot of 
questions. You have a full panel here. And it is because we 
know you folks are the ones we should be talking to. And we are 
anxious to hear what your plans are and to give us some 
insight.
    I thank you, Mr. Chairman.
    [The opening statement of Senator Biden follows:]

           Opening Statement of Senator Joseph R. Biden, Jr.

    Last week the committee heard from several distinguished witnesses 
from the Center for Strategic and International Studies, the Council on 
Foreign Relations and other esteemed institutions, who recently 
assessed the situation in Iraq at the request of Secretary Rumsfeld.
    In my view, their most critical finding was that ``Iraqis uniformly 
expressed the view that the window of opportunity for the CPA to turn 
things around in Iraq is closing rapidly.'' Their report went on to say 
``the next three months are crucial to turning around the security 
situation.''
    I personally think the job is doable, but it is going to require an 
intensified and urgent commitment of resources. Beyond that, it is 
going to take a lot of time, a lot of troops, and a lot of money. We 
all know it will require tens of billions of dollars, tens of billions 
of troops and well over thousands now are probably there for over five 
years. We're not asking you for precise numbers, but, we need to know 
your best analysis.
    Unfortunately, we are left holding the bag because of the failure 
to make Iraq the world's problem. Please spare me the rhetoric that we 
have a true coalition because 19 countries are with us on the ground. 
We all know that we have roughly 90% of the forces on the ground, that 
we are taking more than 90% of the casualties, and that we are paying 
the vast majority of the costs of reconstruction. If this is a true 
coalition, I'm afraid to ask what a largely unilateral effort looks 
like.
    By contrast, in Desert Storm, then President Bush built a coalition 
of nations that contributed almost 300,000--troops, and paid about $75 
billion in today's money, or roughly four-fifths of the cost.
    I'd like to hear from Secretary Wolfowitz about what the 
administration is doing to address the situation on the ground before 
the window closes.
    Job number one is security. Ultimately, only the Iraqis themselves 
can provide for their own security, through a new Iraqi police force 
and a new Iraqi army. But it will take time to stand up these forces--
in fact a lot longer time than most Americans have been led to believe.
    I saw in your op-ed yesterday that you visited the Baghdad police 
academy. I hope that while you were there that you received the same 
briefing that Senators Lugar, Hagel, and I did from the first rate 
police assessment team we have on the ground.
    If so, you probably heard the pleas to recruit over 5,000 
international police forces to train and patrol with a new Iraqi police 
force. Where does that effort stand? You probably also heard that it 
will take over a year to recruit and train a minimal force of 40,000. 
And while Ambassador Bremer hopes to recruit another 35,000 within 
another year, we were told in Baghdad that fully training the force to 
professional standards could take several years. Similarly, it will 
take about three years to build an Iraqi army 40,000 strong. Meanwhile, 
we're filling the vacuum.
    When can Iraqis expect to have law and order improve? When can 
women leave their homes without fear of rape?
    When will Iraqis have essential public services restored?
    When will they hear a message effectively communicated to them? 
When I was in Baghdad, we were on the air just 4 hours a day. I'm told 
we're doing better, but that the programming still makes public access 
broadcasts seem exciting. Meanwhile, Al Jazeera and the Iranians are on 
the air 24/7, with sophisticated programming. How can the greatest 
communications power in the world be on the short end of the stick 
here?
    I ask these questions because they are the yardsticks by which 
lraqis are measuring our efforts.
    The longer it takes, the more Iraqis begin to question our ability 
to improve their lives and the more their frustration will grow toward 
the United States. And the more difficult it will be for us to create 
an Iraqi government that has legitimacy.
    Like it or not, we are now perceived as the government of Iraq by 
ordinary Iraqis and we will be judged by our ability to deliver the 
basic things that people all over the world expect of a government--
security, services, and an economy that creates jobs. And in the case 
of Iraq, there is a huge expectations gap--Iraqis had unrealistic 
expectations about what the United States would deliver, but that is a 
reality we have to live with.
    So I hope Secretary Wolfowitz, that you can lay out a specific plan 
about how we will make progress in the coming weeks and months.
    I also hope you will tell us specifically what requests you have 
made for international assistance and what your expectations are of the 
contributions will be forthcoming--how many forces, what type, and how 
many dollars?
    I note that General Myers in testimony last week said of the 30,000 
troops promised by other countries--``it needs to be higher than 
that.'' What are we doing to make that number higher? Who have we made 
a request to? Are we considering a second UN Security Council 
resolution? Are we considering asking NATO to formally take over under 
U.S. command?
    Mr. Bolten, I am pleased you have joined us today. For almost a 
year, the committee has tried to get reasonable estimates on what the 
operation is going to cost in Iraq--in terms of securing the country, 
administering it and rebuilding it. I hope that you can offer some 
answers today. And again, please don't waste our time and yours by 
saying the future is simply ``unknowable.'' We do not expect you to 
give us a precise figure, but as the government's chief budget officer, 
you must have some numbers that you are using for planning. Please 
share them with us. The American people have a right to know. And so 
does Congress.
    I am glad to see that an interim Iraqi budget for the remainder of 
this calendar year has been issued. In my judgment, it does not make 
the scale of investments that are urgently needed to turn things around 
before the ``window of opportunity'' closes. Yet, it has a $2.2 billion 
deficit that will be financed from vested and seized Iraqi assets.
    Ambassador Bremer announced last week that next year's budget will 
have a projected $4 billion deficit. That means that you must have an 
idea of revenues and expenditures. I hope that you will share that 
information with us. And I hope that you can lay out a plan for making 
the massive investments that Ambassador Bremer said will have to be 
made--over five years $13 billion to keep electricity production apace 
with demand, $16 billion to provide potable water, investments to 
improve health care, and huge expenses in building a reliable social 
safety net.
    Mr. Chairman, it strikes me that we have three options in Iraq. The 
first is to continue as we are now--paying the lion's share of the 
cost, providing the lion's share of the troops, and taking nearly all 
the casualties and the blame.
    The second is to leave quickly and let the UN deal with the ensuing 
chaos and let lran and other neighbors intervene. That, in my view, 
would not only undermine our credibility but it would leave us far less 
secure than we were prior to the war.
    The third option is to bring in more countries, if necessary by 
giving them more of a say. This strikes me as the most sensible option. 
We should go to NATO, we should go to the UN, we should go to our Arab 
allies, and we should go to the EU and say that we genuinely want their 
help, that they have just as, if not more, at stake as we do. And that 
we are willing to give them more than a ceremonial role and that we 
genuinely want them to share the burden.
    I look forward to your testimony.

    The Chairman. Thank you very much, Senator Biden.
    In consultation with the witnesses, we understand the order 
that all of us have determined is that Mr. Bolten would testify 
first, then Deputy Secretary Wolfowitz, that General Keane 
would not testify but is available to respond to questions. So 
we are grateful for that.
    Mr. Bolten, would you please proceed.

    STATEMENT OF HON. JOSHUA B. BOLTEN, DIRECTOR, OFFICE OF 
          MANAGEMENT AND BUDGET [OMB], WASHINGTON, DC

    Mr. Bolten. Mr. Chairman, thank you. And thank you for the 
warm welcome, Senator Biden, members of the committee. I 
appreciate the opportunity to appear here today, along with 
Deputy Secretary Wolfowitz and General Keane, to testify on the 
status of and prospects for reconstruction in Iraq.
    Two weeks ago, I submitted to Congress on behalf of the 
administration the second in a series of reports required under 
section 1506 of the Emergency Wartime Supplemental 
Appropriations Act 2003. That report provides an update through 
June 30 on U.S. activities and our strategy related to 
reconstruction in Iraq.
    Before I discuss highlights of that report, I would like to 
review briefly some of the planning done prior to combat 
operations in Iraq, which prepared the way for our current 
relief and reconstruction operations.
    Beginning last October, a senior interagency team was 
convene to develop a baseline assessment of conditions in Iraq 
and to define sector-by-sector relief and reconstruction plans 
in the event of regime change in Baghdad. The group included 
representatives from the Departments of Defense, State, and 
Treasury; USAID; CIA; and, from the White House, staff of the 
National Security Council and the Office of Management and 
Budget. Additional agencies were called upon as expertise was 
needed.
    The teams developed plans for immediate relief operations 
and longer term reconstruction in ten sectors: Health, 
education, water and sanitation, electricity, shelter, 
transportation, governance and rule of law, agriculture and 
rural development, telecommunications, and economic and 
financial policy.
    Each sector was assigned a lead agency that produced an 
action plan with benchmarks to be achieved within 1 month, 6 
months, and 1 year. The President's guidance was clear: He 
expected defined milestones by which we could measure progress 
in improving the lives of the Iraqi people. As these plans 
evolved, administration officials briefed your staffs on this 
committee, who I understand made valuable contributions. As 
finally developed, these plans laid the foundation for the work 
underway today.
    Consistent with our early planning, the U.S. and our 
coalition partners in Iraq have moved now from an emphasis on 
immediate relief operations to a wide variety of reconstruction 
activities. These activities are detailed in the section 1506 
report submitted to Congress 2 weeks ago and amplified and 
updated in excellent remarks last week by Ambassador Bremer in 
briefings here in the Congress. Ambassador Bremer being the 
Presidential Envoy to Iraq and Administrator of the Coalition 
Provisional Authority, the CPA.
    The section 1506 report and Ambassador Bremer's remarks 
reflect, first, a situation in Iraq in which, although security 
problems persist, widespread humanitarian disaster has thus far 
been averted. There is no food crisis, no refugee crisis, and 
no public health crisis.
    While disaster has been averted, enormous challenges 
remain, as both the chairman and Senator Biden have alluded to. 
Most of those challenges are the product of three decades of 
devastation inflicted by Saddam's regime on Iraq's physical, 
social, and economic infrastructure. To address these 
challenges and restore sovereignty to the Iraqi people, the 
section 1506 report and Ambassador Bremer's remarks lay out a 
plan with four core missions.
    First, security, establishing a safe and secure 
environment. Second, essential services, restoring basic 
services to an acceptable standard. Third, economy, creating 
the conditions for economic growth. And fourth, governance, 
enabling the transition to transparent and inclusive democratic 
governance.
    Let me highlight just a few specific areas of important 
progress. In public safety, the CPA is vetting, hiring, and 
deploying an Iraqi police force to restore order and safety. 
Thirty thousand policemen have been recalled to duty. And 
police stations and training academies are being restored. 
Former New York City Police Commissioner Bernard Kerik leads a 
team whose mission is to promote well-trained and responsible 
public safety forces in Iraq's police, fire, border, customs, 
and immigration organizations.
    In the health area, consistent with plans developed before 
the conflict, the health sector is being systematically 
evaluated. And a national data base is being built to monitor 
and manage ongoing needs. Medical facilities are under repair. 
More than 1,500 tons of supplies are restocking medical 
shelves. And basic services have been restored. Today, nearly 
all of Iraq's 240 hospitals, 10 specialty centers, and more 
than 1,200 clinics are open and receiving patients.
    Power. Pre-war planning limited damage to the electrical 
system during the conflict. But restoring electricity has been 
a major challenge because the pre-war infrastructure was so 
dilapidated and because of continuing targeted sabotage. 
Nevertheless, much of Iraq, with the exception of Baghdad, is 
now at or above pre-war power availability. Ambassador Bremer 
expects to restore power fully to pre-war levels within the 
next 60 days, though that will still leave a substantial 
shortfall in Iraq's projected power needs.
    In the oil area, in addition to rebuilding critical 
infrastructure, rapid restoration of Iraqi oil production is a 
high and crucial priority. Crude oil production already exceeds 
one million barrels per day. Future production levels will 
depend on many variables, including the availability of 
adequate power and security of the oil infrastructure, though 
Ambassador Bremer now expects by the end of summer to have oil 
production at a level of around one-and-a-half million barrels 
per day.
    In the economy, Ambassador Bremer identified the CPA's 
broader task in the current economic field as twofold. First, 
to stabilize the current economic situation, which they are 
doing in part by continuing payment of public sector salaries 
and pensions and by funding a range of infrastructure 
construction projections. Second, to promote long-term growth, 
which they are doing through measures designed, for example, to 
establish a sound currency, to create an independent central 
bank, and to build a modern banking system.
    To pursue these and other important ongoing efforts in 
Iraq, we began with approximately $7.7 billion from a number of 
sources. Approximately $600 million was provided from DOD 
accounts to support CPA operations. Approximately $3 billion 
was appropriated by Congress in the war supplemental, of which 
about $500 million was provided to the Department of Defense 
for oil field repair. Roughly $500 million was drawn early from 
appropriated 2003 foreign assistance accounts.
    Added to these appropriated funds are the following: About 
$1.7 billion in Iraqi state frozen assets in the U.S., referred 
to as vested assets; about $800 million in cash and other 
assets found in Iraq. Those are referred to as seized assets. 
And finally over $1 billion in oil receipts were transferred by 
the United Nations into a new Development Fund for Iraq, the 
DFI. We expect additional resources frozen in other countries 
eventually to be transferred to the DFI.
    The recent section 1506 report provides Congress a status 
of these funds as of June 30. I will highlight some of the key 
numbers, what we have spent so far and on what, the details of 
which are available in the full report. Through the end of 
June, the U.S. Government has allocated slightly more than $2.7 
billion. Of that $2.7 billion, approximately $750 million came 
from seized and vested Iraqi state assets, the remainder from 
funds appropriated by Congress.
    The $2.5 billion allocated so far includes funding for the 
following activities: $730 million for relief efforts to 
reestablish food distribution, provide medical supplies, 
purchase fuels, and provide other humanitarian efforts; $400 
million for emergency payments and salaries for civil servants 
and other workers in various sectors and for pensioners; $1.37 
billion for reconstruction activities, including reestablishing 
critical services, ministries, oil production, and security 
forces; and $200 million for activities that support the 
operations of the CPA in Baghdad.
    Mr. Chairman, as a result of these allocations, roughly $5 
billion in funds remain. The picture as of June 30 looks like 
this: Of the original $4.1 billion in funds appropriated by 
Congress, approximately $2.2 billion remained as of June 30. Of 
the original $2.5 billion in seized and vested Iraqi state 
assets, approximately $1.8 billion remained. And just over $1 
billion remains in the DFI.
    Mr. Chairman, thanks to the dedication, courage, and 
sacrifice of our men and women in uniform, so ably represented 
here by Secretary Wolfowitz and General Keane, we have 
liberated Iraq. Now our mission, in your words, Mr. Chairman, 
is to win the peace. The President agrees.
    After meeting with Ambassador Bremer last week, he 
reaffirmed the coalition's determination to help establish a 
free, sovereign, and democratic Iraq. He understands that 
rebuilding Iraq will take a sustained commitment if we are to 
improve security, restore essential services, generate economic 
development, and secure democracy for all Iraqis. Building on 
plans that were developed even before combat operations began 
in Iraq, the Coalition Provisional Authority is implementing a 
comprehensive strategy to move Iraq toward a future that is 
secure and prosperous. We look forward to working with this 
committee and the rest of Congress to ensure fulfillment of 
that vision.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Bolten follows:]

   Prepared Statement of Hon. Joshua B. Bolten, Director, Office of 
                         Management and Budget

    Chairman Lugar, Senator Biden, Members of the Committee: I 
appreciate the opportunity to appear here today, along with Deputy 
Secretary Wolfowitz and General Keane, to testify on the status of and 
prospects for reconstruction in Iraq.
    Two weeks ago, I submitted to Congress, on behalf of the 
Administration, the second in a series of reports required under 
Section 1506 of the Emergency Wartime Supplemental Appropriations Act, 
2003. That report provides an update through June 30 on United States 
activities and our strategy related to reconstruction in Iraq. Before I 
discuss highlights of that report, I would like to review briefly some 
of the planning done prior to combat operations in Iraq, which prepared 
the way for our current relief and reconstruction operations.

                            PRE-WAR PLANNING

    Beginning last October, a senior interagency team was convened to 
develop a baseline assessment of conditions in Iraq and to define 
sector-by-sector relief and reconstruction plans in the event of regime 
change in Baghdad. The group included representatives from the 
Departments of Defense, State, and Treasury; USAID; CIA; and, from the 
White House, staff of the National Security Council and the Office of 
Management and Budget. Additional agencies were called upon as 
expertise was needed.
    The team developed plans for immediate relief operations and longer 
term reconstruction in ten sectors: health; education; water and 
sanitation; electricity; shelter; transportation; governance and rule 
of law; agriculture and rural development; telecommunications; and 
economic and financial policy.
    Each sector was assigned a lead agency that produced an action plan 
with benchmarks to be achieved within one month, six months, and one 
year. The President's guidance was clear: He expected defined 
milestones by which we could measure progress in improving the lives of 
the Iraqi people. As these plans evolved, Administration officials 
briefed your staffs, who I understand made valuable contributions. As 
finally developed, these plans laid the foundation for the work 
underway today.

                      PROGRESS AND CURRENT MISSION

    Consistent with our early planning, the United States and our 
Coalition partners in Iraq have moved from an emphasis on immediate 
relief operations to a wide variety of reconstruction activities. These 
activities are detailed in the Section 1506 Report submitted to 
Congress two weeks ago and amplified and updated in excellent remarks 
last week by Ambassador Bremer, the Presidential Envoy to Iraq and 
Administrator of the Coalition Provisional Authority (CPA).
    The Section 1506 Report and Ambassador Bremer's remarks reflect, 
first, a situation in Iraq in which, although security problems 
persist, widespread humanitarian disaster has thus far been averted. 
There is no food crisis, no refugee crisis, and no public health 
crisis.
    While disaster has been averted, enormous challenges remain--most 
of them the product of three decades of devastation inflicted by 
Saddam's regime on Iraq's physical, social, and economic 
infrastructure. To address these challenges and restore sovereignty to 
the Iraqi people, the Section 1506 Report and Ambassador Bremer's 
remarks lay out a plan with four core missions:

  <bullet> Security: establishing a secure and safe environment;

  <bullet> Essential services: restoring basic services to an 
        acceptable standard;

  <bullet> Economy: creating the conditions for economic growth; and

  <bullet> Governance: enabling the transition to transparent and 
        inclusive democratic governance.

    Let me highlight just a few specific areas of important progress:
    Public safety. The CPA is vetting, hiring, and deploying an Iraqi 
police force to restore order and safety. 30,000 policemen have been 
recalled to duty, and police stations and training academies are being 
restored. Former New York City Police Commissioner Bernard Kerik leads 
a team whose mission is to promote well-trained and responsible public 
safety forces in Iraq's police, fire, border, customs, and immigration 
organizations.
    Health. Consistent with plans developed before the conflict, the 
health sector is being systematically evaluated and a national data 
base is being built to monitor and manage ongoing needs. Medical 
facilities are under repair, more than 1,500 tons of supplies are 
restocking medical shelves, and basic services have been restored. 
Today, nearly all of Iraq's 240 hospitals, 10 specialty centers, and 
more than 1,200 clinics are open and receiving patients.
    Power. Pre-war planning limited damage to the electrical system 
during the conflict, but restoring electricity has been a major 
challenge because the pre-war power infrastructure was so dilapidated 
and because of continuing targeted sabotage. Nevertheless, much of 
Iraq, with the exception of Baghdad, is now at or above pre-war power 
availability. Ambassador Bremer expects to restore power fully to pre-
war levels within the next 60 days, though that will still leave a 
substantial shortfall in Iraq's projected power needs.
    Oil. In addition to rebuilding critical infrastructure, rapid 
restoration of Iraqi oil production is a high priority. Crude oil 
production already exceeds one million barrels per day. Future 
production levels will depend on many variables, including the 
availability of adequate power and security of the oil infrastructure.
    Economy. Ambassador Bremer identified the CPA's broader task in the 
economic field as twofold: First, to stabilize the current economic 
situation--which they are doing in part by continuing payment of 
public-sector salaries and pensions and by funding a range of 
infrastructure construction projects. Second, to promote long-term 
growth--which they are doing through measures designed, for example, to 
establish a sound currency, to create an independent central bank, and 
to build a modern banking system.

               FUNDING FOR IRAQ RELIEF AND RECONSTRUCTION

    To pursue these and other important ongoing efforts in Iraq, we 
began with approximately $7.7 billion from a number of sources: 
approximately $600 million was provided from DoD accounts to support 
CPA operations; approximately $3 billion was appropriated by Congress 
in the War Supplemental, of which about $500 million was provided to 
the Department of Defense for oil field repair; roughly $500 million 
was drawn from appropriated 2003 foreign assistance accounts. Added to 
these appropriated funds are: about $1.7 billion in Iraqi state assets 
frozen in the US (``vested'' assets); about $800 million in cash and 
other assets found in Iraq (``seized'' assets); and finally over $1 
billion in oil receipts were transferred by the United Nations into a 
new Development Fund for Iraq (DFI). We expect additional resources 
frozen in other countries eventually to be transferred to the DFI.
    The recent Section 1506 Report provided Congress a status of these 
funds as of June 30. I will briefly highlight some of the key numbers--
what we've spent so far and on what--the details of which are available 
in the report. Through the end of June, the US Government has allocated 
slightly more than $2.7 billion. Of that $2.7 billion, approximately 
$750 million came from seized and vested Iraqi state assets; the 
remainder from funds appropriated by Congress.
    The $2.7 billion allocated so far includes funding for the 
following activities:

  <bullet> $730 million for relief efforts to reestablish food 
        distribution, provide medical supplies, purchase fuels, and 
        provide other humanitarian efforts.

  <bullet> $400 million for emergency payments and salaries for civil 
        servants and other workers in various sectors and for 
        pensioners.

  <bullet> $1.37 billion for reconstruction activities including 
        reestablishing critical services (such as water, sanitation, 
        and electricity), ministries, oil production, and security 
        forces.

  <bullet> $200 million for activities that support the operations of 
        the CPA in Baghdad.

    As a result of these allocations, roughly $5 billion in funds 
remain available. The picture as of June 30 looks like this:

  <bullet> Of the original $4.1 billion in funds appropriated by 
        Congress, approximately $2.2 billion remained.

  <bullet> Of the original $2.5 billion in seized and vested Iraqi 
        state assets, approximately $1.8 billion remained.

  <bullet> Approximately $1 billion remained in the DFI.

                               CONCLUSION

    Thanks to the dedication, courage and sacrifice of our men and 
women in uniform, we have liberated Iraq. Now, our mission in your 
words, Mr. Chairman, is ``to win the peace.''
    The President agrees. After meeting with Ambassador Bremer last 
week, he reaffirmed the Coalition's determination to help establish a 
free, sovereign, and democratic Iraq. He understands that rebuilding 
Iraq will take a sustained commitment if we are to improve security, 
restore essential services, generate economic development and secure 
democracy for all Iraqis. Building on plans that were developed even 
before combat operations began in Iraq, the Coalition Provisional 
Authority is implementing a comprehensive strategy to move Iraq toward 
a future that is secure and prosperous. We look forward to working with 
this Committee and the rest of Congress to ensure fulfillment of that 
vision.

    The Chairman. Well, thank you very much, Director Bolten, 
for these specifics, as well as the outline of the planning. We 
appreciate your testimony.
    I would like to call now upon a good friend of the 
committee. I welcome you again, Secretary Wolfowitz. You were 
most generous with your time and important testimony last 
month. We thank you again for your willingness to reappear 
today.
    Please proceed.

   STATEMENT OF HON. PAUL D. WOLFOWITZ, DEPUTY SECRETARY OF 
DEFENSE; ACCOMPANIED BY: GENERAL JOHN M. KEANE, ACTING CHIEF OF 
    STAFF, U.S. ARMY, DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Mr. Wolfowitz. Mr. Chairman, I appreciate the opportunity. 
I think we should also thank Chairman Warner and the members of 
the Senate Armed Services Committee for setting a good example 
for all of us in not arguing about whether defense witnesses 
should appear before your committee or vice versa.
    The Chairman. Thank the chairman.
    Mr. Wolfowitz. I think there is unanimous agreement that 
these issues are of such importance that we need to put those 
kinds of differences behind us. And in sitting here and talking 
to you, I recall, I think we really first got to know each 
other very well 20 years ago, in fact almost literally 20 years 
ago, when we began the process of a political transition in the 
Philippines that led that country from a dictatorship to a 
democracy. The conditions were very different. We did not need 
American troops.
    You, Mr. Chairman, played an extraordinary role in making 
that happen. I think it is the kind of thing we have seen 
unfold in Asia over the last 20 years since then gives me a 
certain cautious hope that maybe we can begin a process like 
that in the Middle East.
    Mr. Chairman and members of the committee, on behalf of the 
men and women who proudly wear the uniform of our country and 
who serve our country so faithfully and so well, I want to say 
that we are grateful to you and your colleagues in the Senate 
and in the House for your continuing and unfailing support.
    I just came back from a four-and-a-half day visit to 
northern, central, and southern Iraq. We had incredible support 
from the U.S. military. And as a result, I think in that four-
and-a-half days we were able to cover what would probably 
normally take about 2 weeks. We did it in 120 degree 
temperature, which I do not expect any sympathy for. But it 
certainly gave me an understanding of what our troops are 
living with day after day after day. And they did not get to 
sleep in the places we slept in at night. Actually, I think I 
would have preferred to be out in a tent than to be in one of 
Saddam's palaces, but that is the way the cookie crumbles, as 
they say.
    We had some remarkable members of the fourth estate with 
us. And they have written some interesting pieces, including, I 
think, quite a few that sort of summarize our trip certainly 
more eloquently than I can and perhaps more objectively. So if 
I might, I would like to submit those for the record, an 
article by Jim Hoagland, an article by Eric Schmitt, an article 
by Paul Gigot, and an article by Stephen Hayes. And just to try 
to compete a little, I will add my op ed piece from yesterday's 
Post,\1\ if I may do so, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The articles and op ed piece submitted by Deputy Secretary 
Wolfowitz for the record can be found beginning on page 88.
---------------------------------------------------------------------------
    The Chairman. It will all be included in the record in 
full.
    Mr. Wolfowitz Thank you.
    Mr. Chairman, I appreciate your offering me the opportunity 
to speak at some length here, because I think we learned a lot. 
And I think it is important to share it, not only with the 
committee but with the American people. So I will summarize 
parts of my written statement, but I will be delivering quite a 
bit of it.
    I would like to start with the police academy, which 
Senator Biden mentioned you visited when you were there. I 
visited--between the time that you visited and the time we 
arrived, a rather appalling discovery had been made. Behind 
that police academy stands the forked trunk of a dead tree. It 
is unusual for the fact that on each fork of that trunk the 
bark is permanently marked by two sets of ropes, one high 
enough to tie a man and the other a woman.
    Near the tree is a row of small cells where special 
prisoners were held. Our guide on the tour of the academy was 
the newly appointed superintendent. I guess he is called the 
dean. I think you met him, also. He himself had spent a year in 
jail for having denounced Saddam Hussein. I expressed some 
surprise that he seemed like a sensible man, how could he have 
been so foolish as to denounce Saddam Hussein. He said, ``Well, 
I just said it to my best friend.'' That was enough to get him 
in jail for a year.
    He told us of unspeakable things that once happened to men 
and women tied to that tree and held in those cells right 
behind the police academy, unknown to visitors, unknown to the 
police who were training there.
    Beyond that torture tree and the cells, a small gate leads 
to the Olympic Committee Headquarters run by Uday Hussein, who 
apparently would often slip through the back gate at night to 
torture and abuse prisoners personally.
    That is the same tree behind the police academy that was 
described in such gruesome detail in the Washington Post on 
July 23. That article focused on the sad story of one Assyrian 
Christian woman who was tied to that tree and made to endure 
unspeakable torture. Her husband was executed at the academy. 
And his body was passed through the steel gate to her, as the 
article described it, like a piece of butcher's meat, all 
because the couple had not received state approval for their 
marriage.
    There is a positive aspect in the distressing story of 
Juman Michael Hanna. That is her courage in coming forward to 
offer U.S. officials what is very likely credible information, 
information that is helping us to root out Baathist policemen 
who routinely tortured and killed prisoners.
    Mr. Chairman, as I said, that is the same police academy 
that you and Senator Biden and Senator Hagel visited. But as I 
said, our understanding of the academy's role in the regime has 
evolved since your trip. That is due to Mrs. Hanna's brave 
testimony about crimes committed against her. And that one step 
in the evolution of our understanding of what went on in the 
old regime points to one of the most formidable challenges 
facing us today.
    The people of Iraq have much valuable information that can 
help us root out Baathists and help them find justice. But 
their willingness to tell us what they know will continue to 
take significant investments on our part, investments of time, 
of resources, of efforts to build trust among the Iraqi people.
    Mr. Chairman, like Ambassador Bremer, who I believe briefed 
you in closed session, like John Hamre, who we sent over to do 
a survey for us and came back with an excellent report, I, too, 
observed that there is an enormous need in Iraq for basic 
services to be restored, for jobs to be restored. I think 
everywhere I went I heard the plea for more electricity.
    I also heard everywhere I went expressions of gratitude for 
being liberated from one of the worst tyrants in modern 
history. But what I also heard were continued expressions of 
fear, fear that has not yet left the Iraqi people, fear that 
verges on paranoia.
    In speaking with the city council in the holy city of 
Najaf, one of the two most important for Shi'a Islam, one of 
the members of the city council, an educated professional--I 
think he was either an engineer or a lawyer--asked me what to 
Americans might seem an incredible question. He said, ``Are you 
Americans hold Saddam Hussein as a trump card over our heads?'' 
It is paranoid. And I was categorical in saying to him that no 
one would like to get Saddam Hussein more than we would. But 
after what they have been through, after the way he has 
terrorized them, and after the experiences of 1991, they are 
paranoid.
    And so I came away with two very important conclusions that 
I would like to share with this committee about the linkages 
that confront us in dealing with the problems of Iraq. We 
cannot take these problems on piecemeal. We have to take them 
on simultaneously.
    The first linkage is the connection between the past and 
the present. You cannot separate what seems to be history in 
Iraq from what goes on today. The people who suffered those 
tortures, the people whose relatives are buried in those mass 
graves are not going to come forward willingly with information 
until they are absolutely convinced that Saddam and his clique 
are gone and that we are staying until the place is secure.
    And it is connected also, I might add, to the issue of 
looking for information about weapons of mass destruction. We 
have only just recently learned that there are leaflets 
circulating in Baghdad warning Iraqis that anyone who provides 
information about weapons of mass destruction programs to the 
coalition will suffer the penalty of death. I take it whoever 
circulated those leaflets believe there were such programs, by 
the way.
    The second connection is the crucial connection between 
security and reconstruction. In fact, let me qualify the word. 
What Iraq needs is not reconstruction, which implies repairing 
wartime damage--that has largely been done with the important 
still remaining work to do on the telecommunications system--
what Iraq needs is rehabilitation from 35 years of deliberate 
misuse of Iraqi resources. You see palace after palace. We were 
in the mere guest house of a mere palace. The luxury is 
appalling. The marble layers are appalling. It is palaces and 
tanks and artillery pieces and weapons of mass destruction and 
prisons and torture chambers that Saddam invested the resources 
of his people in.
    And to the extent he paid any attention to the basic 
infrastructure, there was a kind of punitive policy, at least 
since 1991, that particularly affected those areas of the south 
and north that he regarded as particularly disloyal.
    That rehabilitation effort cannot take place without 
security. And security cannot progress without rehabilitation. 
Let me illustrate it in simple terms. Part of our security 
problems is getting those young men back at work, or at work 
for the first time in many cases. That means getting the 
economy going. That means getting electricity up and working.
    To get electricity up and working, however, we have to do 
something about the deliberate sabotage that is bringing down 
long distance power lines. We can tell the difference between 
random theft, where the thieves are very careful to take all 
the copper away from them, and the increasing incidence of 
clear and deliberate sabotage where all that is done is 
destruction. Indeed, the more we succeed, the more the 
Baathists and the terrorists who are working with them will 
target our success. But they will not win.
    Mr. Chairman, for many years, the classic study of Saddam's 
tyranny is a book called ``Republic of Fear,'' originally 
published under a pseudonym because he feared for his life by a 
very brave Iraqi named Kanan Makiya. And in that book he quotes 
a letter from an former agent in the Iraqi secret police, 
``Confronting an experienced criminal regime,'' that former 
member of the regime said, ``such as the present one in Baghdad 
can be done only with truths that strip off its many masks, 
bringing its demise closer.''
    Traveling through Iraq last week, we heard many accounts of 
unspeakable brutality on a scale Americans cannot imagine. We 
saw truths that are stripping away masks of legitimacy that 
dead-enders may yet cling to. And while these truths may be 
unpleasant to face, doing so will help hasten the demise, once 
and for all, of a truly criminal regime.
    We visited a small village in southern Iraq near the 
Iranian border called Al Turabah, where we met remnants of one 
of the regime's most horrific brutalities, the Marsh Arabs. 
These are people for whom liberation came just barely in time 
to save a fragment of a civilization that goes back several 
millennia. But for the Marsh Arabs, the marches are no more.
    For 10 years, Saddam drained their ancestral lands. Where 
there was once a lush landscape of productive freshwater 
marshes the size of the State of New Jersey, there is now a 
vast, nearly lifeless void, which one reporter with us likened 
to the surface of the moon. According to one estimate, the 
population of the Marsh Arabs in 1991 stood at half a million. 
But after Saddam's humanitarian and environmental crimes, it is 
believed that there are at most 200,000 left and less than 
40,000 of those still in Iraq.
    But at least there is still a Marsh Arab civilization 
capable of being preserved and hopefully restored. It is not 
likely that it would have lasted another 2 or 3 years, much 
less another twelve. The children in Al Turabah mobbed us, 
greeted us with loud applause and cheers of ``Salaam Bush'' and 
``Down with Saddam.'' But their first request was not for candy 
or for toys. It was just a single word, ``Water.''
    In the case of the many tens of thousands who were killed 
at the mass graves in Al Hilla or the prison of Abu Gharib, 
liberation did not come in time. We heard stories about buses 
full of people that villagers would watch pass by headed for a 
once public field that had been closed by the government. They 
reported hearing gunshots, assuming that the people were 
celebrating, as is sometimes customary. When the buses would 
pass by the villagers on the return trip with the buses 
completely empty, people began to suspect that something was 
terribly wrong.
    Of course we know now that thousands of women and children 
were brought to places like the killing fields in Hilla, gunned 
down, and buried dead or alive. Today, some of their bodies 
have been retrieved from the earth. They now lay wrapped in 
plastic bags in neat rows on the dirt. They wait for someone to 
claim them. The graveyard in Hilla is just one of dozens that 
have been discovered to date in Iraq.
    Indeed, while we were in the north with the 101st Air 
Assault Division, General Petraeus told us that they had 
temporarily stopped the excavation of a newly discovered mass 
grave site after unearthing 80 remains, mostly women and 
children, some still with little dresses and toys.
    At the prison at Abu Gharib, we saw the torture chamber and 
industrial-style gallows that conducted group executions 
regularly twice a week. We were told that 30,000 people, and 
perhaps as many as 100,000 were killed there over the years.
    Mr. Chairman, I do not recite these in order to go over 
history. I recite them because one of my strongest impressions 
is that the fear of the old regime is still pervasive 
throughout Iraq. A smothering blanket of apprehension and 
dread, woven by 35 years of repression, where even the smallest 
mistake, the smallest whisper to a friend, could bring 
imprisonment or torture or death. That will not be cast off in 
a week's time.
    Iraqis are understandably cautious. And until they are 
convinced that every remnant of Saddam's old regime is being 
removed and until a long and ghastly part of their history is 
put to rest, that fear will remain. So the history of 
atrocities and the punishment of those responsible are directly 
linked to our success in helping the Iraqi people build a free, 
secure, and democratic future. And, I might add, to our search 
for the weapons of mass destruction programs.
    In that light, what happened to the miserable Hussein 
brothers last week is an important step in making Iraqis feel 
more secure that the Baathist tyranny will not return, an 
important step in our efforts to restore order, to give freedom 
a chance, and to make our own troops more secure.
    Even in Baghdad, far from the Shi'a and Kurdish areas that 
we commonly associate with Saddam's genocidal murders, 
enthusiastic and prolonged celebrations over the news of their 
deaths erupted almost at once, suggesting something else that 
we observed, Mr. Chairman, Saddam and his sons were equal 
opportunity oppressors. His victims included Sunni as well as 
Shi'a, Arabs as well as Kurds, Muslims as well as Christians. 
And in fact, the Turkish Foreign Minister, who was here last 
week, asked us to please stop referring to it as the Sunni 
triangle. The Sunnis were victims as well.
    The same day Uday and Qusay were killed, we also captured 
number 11 on the list, the commander of the Special Republic 
Guard. That is the unit whose job it was to spy on the 
Republican Guard. The purpose of the Republic Guard was to 
ensure the loyalty of the regular army. And, of course, there 
was something call the Special Security Organization that kept 
an eye on the Special Republican Guard. That was the system of 
checks and balances in Saddam's Iraq.
    So the roots of that regime go deep, burrowing into 
precincts and neighbors like a huge gang of organized 
criminals. And it is the coalition's intensified efforts on 
finding capturing mid-level Baathists that we believe will 
yield increasing results in apprehending the contract killers 
and dead-enders who are now targeting our soldiers and 
targeting our success.
    Major General Ray Odierno, the commander of the 4th 
Infantry Division, told us that tips are on the rise. And that 
was even before the deaths of Uday and Qusay. The number of 
Iraqis providing information to our troops have been increasing 
over the last couple of weeks. Those tips have led to 
significant seizures of weapons, including a week ago, over the 
course of a week, some 660 surface to air missiles. It is 
important to remember that the people who want the return of 
the old regime are just a tiny fraction of the Iraqi people. 
But even if it is only 1 in 1,000, that is still 20,000. And it 
is not a small number.
    I think it is also important to note that this low 
intensity conflict may be the first in history where contract 
killing has been the principal tactic of the so-called 
guerrillas. In Nasiriyah, for example, Iraqis have told us 
about offers of $200 to attack a power line and $500 to attack 
an American. Of course, that makes the point, too, that dealing 
with unemployment is part of dealing with security.
    Let me say a little bit about what we learned region by 
region. And I will try to summarize what is in the written 
testimony. I think, Mr. Chairman, that you and Senator Hagel 
and Senator Biden can attest to the fact that there is more 
good news in Iraq than is routinely reported. We saw quite a 
bit of that.
    Significantly, the military commanders that I have talked 
to, who have had experience in the Balkans, all said that in 
Iraqi we are far ahead of where we were in Bosnia or Kosovo at 
comparable times and, in some cases, even ahead of where we are 
today. Lieutenant General Rick Sanchez, the outstanding new 
commander of Joint Task Force 7 responsible for all of Iraq, is 
a Kosovo veteran. He was there during the first year. And 
during one of our briefings, he commented that things are 
happening in Iraq after 3 months that did not happen after 12 
months in Kosovo.
    I asked him to elaborate. And just off the top of his head, 
he jotted down a list of 10 things, which I have provided in my 
written testimony, including the fact that the judicial system 
is functioning, the fact that 90 percent of major cities have 
city councils. I believe, unless I misread his handwriting, he 
said the police force is at about 80 percent of the 
requirement. I think that is a little high, but it is 
definitely moving in that direction.
    That schools were immediately back up, that media are 
available across the country. I would note that not the media 
that we would most like to see, but there is a free press in 
Iraq for the first time in decades. Public services are nearly 
up to pre-war levels. I am again quoting from his note. And 
again let me emphasize that pre-war levels are nowhere near 
adequate. And we have to do a lot better. And in Baghdad, we 
are still not at pre-war levels on electricity. But that is 
real progress.
    And number 10 on his list, and in my view most important, 
and I want to come back to this later, recruiting for the new 
Iraqi army has started with training to begin in a couple of 
weeks. In fact, the entire north and south are impressively 
stable. And the center is improving daily.
    The public food distributions is up and running. We planned 
for a food crisis, but there is not one. Hospitals nationwide 
are open. Doctors and nurses are at work. Medical supply 
convoys are escorted to and from the warehouses. We planned for 
a health crisis, but there is not one. Oil production has 
continued to increase and for about the last week has averaged 
1.1 million barrels per day. And as Senator Biden noted, it did 
not cost $5 billion to get there.
    We planned for the possibility of massive destruction of 
this resource of the Iraqi people. But our military plan, I 
believe, helped to preserve the oil fields for the Iraqis. The 
school year has been salvaged. There are local town councils in 
most major cities and most major districts of Baghdad.
    There is no humanitarian crisis. There is no refugee 
crisis. There is no health crisis. There has been minimal 
damage, wartime damage, infrastructure. And there has been no--
there has not been the anticipated and much-feared 
environmental catastrophe either from oil well fires or from 
dam breaks.
    However, as I related in May and as I related earlier, 
Saddam's legacy of destruction and decay is another story 
entirely. And that gives us major work to do.
    We were particularly impressed in the south by the work of 
our coalition partners led by the British in the Basr area and 
in the Shi'a heartland with the two Shi'a holy cities of Najaf 
and Karbala by U.S. Marines. Our Army civil affairs teams are 
equally impressive in that effort. They have created 
functioning local government and councils free from Baathist 
influence. I would note we have one Harvard-trained lawyer, an 
enlisted woman in the Army Reserves, who is now trying the 
previous government of Karbala, whom we mistakenly appointed 
and is now in jail on corruption charges.
    The present Governor--excuse me. That is in Najaf. The 
Governor of Karbala captured the development best when he told 
us, and I am quoting from him now, ``We Shi'a have theological 
ties to Iran, but we refuse to be followers of any country 
outside of Iraq. I want to stress,'' this Governor said, ``we 
aspire to independence and democracy. We want to heal the 
wounds from the past regime's atrocities. We want to build 
factories, bring in the Internet, practice our religious rights 
and freedom, have good relations with our neighbors and the 
world. The marines in Karbala,'' he said, ``commanded by 
Lieutenant Colonel Lopez''--that is Lieutenant Colonel Matt 
Lopez for his parents--``work day and night with our governing 
council to provide security and services.''
    I asked him if he would like to visit the United States. 
And he beamed. He said, ``I have not been allowed to leave Iraq 
for 35 years. I would love to visit your country.''
    Mr. Chairman, in the north we saw another success story led 
by General David Petraeus and his troops of the 101st Air 
Assault Division, who arrived in Mosul on the 22nd of April, I 
would note, after liberating Najaf and Karbala in the south. 
Over the next 30 days, they put together an impressive list of 
accomplishments. In my written testimony, I have some 20 of 
them. I will not take your time. You can read them.
    What I would like to mention, though, is just one example 
of the kind of imagination and ingenuity that his troops are 
doing. We took a walking tour of the center of Mosul with an 
army company responsible for security in that area. And 
security is a serious business. They, a few weeks ago, captured 
seven terrorists, I believe mostly foreigners holed up in an 
apartment in the town square. Since getting rid of those 
people, it has been stable. But they go around in full body 
armor and guns at the ready.
    But as we were passing a line of butcher shops, the company 
commander, Captain Paul Stanton, told me a fascinating story 
about how they had dealt with a problem involving the town's 
meat cutters. It seems that the butchers were slaughtering 
their animals on the streets and dumping the carcasses in front 
of their shops. To get this rather unsanitary problem under 
control, our soldiers organized a civic association of 
butchers, so that they would have an authoritative institution 
with which they could deal.
    This was something unheard of in pre-war Iraq. In the old 
regime, organized associations were not allowed. For this 
purpose, they were not necessary. If there was a problem 
dumping carcasses in the street, you simply shot a few 
butchers, and the rest got the point.
    We deal differently. And when I heard this imaginative 
solution, I jokingly asked Captain Stanton if they had taught 
him that at West Point. And of course he said no. He said they 
had had to figure that out as they went along. But, of course, 
that is something that Americans, including our wonderful 
soldiers, have in their fingertips, something that they bring 
from the civic culture in this country to help build a civic 
culture in Iraq.
    Mr. Chairman, the 4th Infantry Division in what I will now 
stop calling the Sunni triangle, but is the Baathist triangle, 
the Saddamist triangle, the 4th Infantry Division has a tougher 
task, because the security problem is much more severe. General 
Ray Odierno and his troops have done an impressive job in 
confronting that challenge.
    He briefed us on Operation Peninsula Strike, Operation 
Sidewinder, Operation Soda Mountain. Each in succession had 
been effectively rooting out mid-level Baathists, some senior 
Baathists, capturing surface to air missiles, rocket propelled 
grenades, and other horrendous devices. He said that as we 
continue to capture and kill the foot soldiers, it is becoming 
increasingly more difficult for the mid-level Baathist 
financiers to organize, recruit, and maintain their force of 
hired killers. And they are also very good, after any 
operation, going into the villages where they have been and 
handing out chickens and soccer balls and making amends for any 
damage they may have done.
    General Odierno's troops are also responsible for the city 
of Kirkuk, which is a much more stable area, in fact, one of 
the most stable in the country, I think. There, an interim 
governing counsel has been established, whose members are 
working together. It is a very multi-ethnic group, including 
Arabs, Sunni Arabs, Shi'a Arabs, Sunni Turks, Sunni Kurds, 
Christians, including three women.
    My meeting with that council was one of the most heartening 
of all in our trip. Many of the 18 members spoke of their 
gratitude to President Bush and to Prime Minister Blair and to 
the coalition troops for their liberation. The word liberation 
was used repeatedly.
    Most stunningly, an old Arab member of the council spoke 
eloquently about the need to return Kurdish property to its 
rightful owners. ``All Iraqis were victims of the last 
regime,'' he said. One member of the council said, ``Please 
tell President Bush thank you for his courageous decision to 
liberate Iraq. Many American soldiers have volunteered their 
lives for our liberation.''
    Another member commended the tireless efforts of General 
Odierno and his army. And finally, one, speaking in English, 
asked me when the U.S. Government was going to ``confront Arab 
television for their incitement to kill Americans.'' Obviously, 
he pointed to another challenge that we face.
    Mr. Chairman, you recently said that our victory in Iraq 
will be based on the kind of country we leave behind. Just 89 
days after the end of major combat operations, our forces and 
their coalition partners are making significant progress in 
helping Iraqis build the kind of country that will reflect 
their enormous talents and resources and that they can be proud 
of one day.
    Getting rid of the Hussein regime for good is not only in 
the interest of the Iraqi people, it enhances the security of 
Americans and of people throughout the Middle East. To those 
who question American resolve and determination, I would remind 
them that we are still playing our crucial role in Bosnia 8 
years after the Dayton Accord, long after some predicted we 
would be gone. And we continue to be the key to stability in 
Kosovo and in Macedonia. But the stakes in Iraq for us are even 
greater than they are in the Balkans.
    Mr. Chairman, the military and rehabilitation efforts now 
underway in Iraq are an essential part of the war on terror. In 
fact, the battle to secure the peace in Iraq is now the central 
battle in the war on terror.
    General Abizaid met with some reporters over lunch with us 
while we were on our visit. And he said something that I 
believe is quite profound. I would like to quote it. And I 
would like to note that General Abizaid is not only an 
outstanding commander and a great soldier, he is a real expert 
on the Middle East. He is fluent in Arabic. He served in 
Lebanon. He commanded a battalion in northern Iraq in Operation 
Provide Comfort. He speaks from deep experience. And this is 
what he said.
    He said, ``We all make mistakes by wanting to only examine 
Iraq or only examine Afghanistan or examine the Palestinian-
Israeli theater. We look at things through a soda straw. And we 
seem to think, well if we just focus our particular energies 
and efforts on dealing with problems in Iraq, you know, we will 
solve the Iraq problem. But the truth of the matter is,'' he 
said, ``that this whole difficulty in the global war on 
terrorism is that it is a phenomenon that is without borders. 
And the heart of the problem is in this particular region; 
i.e., the Middle East. And the heart of the region happens to 
be Iraq.
    ``And so,'' he said, ``it is not just a matter of somehow 
or other fighting a global war on terrorism with special 
operations forces, it is a matter of having a policy that aims 
to bring a certain liberalization in the way that people look 
at the world. And if we are successful here in Iraq, I believe 
it is a unique opportunity for the whole region. I think I am 
pretty inarticulate on it,'' he said. I would disagree with 
that one part of his statement. He is very articulate, and I 
agree with him strongly. ``But I guess it is to say you cannot 
separate the global war on terrorism from what is happening 
here in Iraq. And you cannot separate the struggle against 
Baathists from the global war on terrorism. And if we cannot be 
successful here,'' he said, ``we will not be successful in the 
global war on terrorism. And that means,'' and this is 
important, ``and that means,'' he said, ``it is going to be 
long and it is going to be hard and it is going to be sometimes 
bloody. But it is a chance, when you combine it with 
initiatives in the Arab-Israeli theater and initiatives 
elsewhere, it is a chance to make life better, to bring peace 
to an area where people are very, very talented and resources 
are abundant, especially here in Iraq.
    ``So I think the opportunity that is before us is quite, I 
think, ``he said, ``incredible.''
    Mr. Chairman, what that statement says, and it says it 
quite eloquently, is that the war on terrorism is a global war, 
and it is a two-front war. One front is killing and capturing 
terrorists. The other front is building a better future, 
particularly for the people of the Middle East. So the stakes 
in Iraq are huge. And there is no question that our commitment 
must be equal to the stakes.
    Last, President Bush said that our nation will give those 
who wear its uniform all the tools and support they need to 
complete their mission. Mr. Chairman, I applaud the determined 
dedication of this committee, of you personally, in helping the 
American people understand the stakes that we have in securing 
success in Iraq.
    Mr. Chairman, in my written statement I go on at some 
length about the question of how many troops we need. We can 
get into that in questions. But I would like to say something 
that is very important here. Because the most--we do not need 
more American troops. At least our commanders do not think we 
do. What we need most of all, we need international troops, 
yes. We need actionable intelligence, yes. But what we need 
most of all are Iraqis fighting with us. The Iraqi people are 
part of this coalition. And they need to be armed and trained 
to participate.
    We have begun recruiting and training Iraqis for a national 
army and are about to begin recruiting for a civilian defense 
force. That force could take over some important tasks from our 
troops, such as guarding fixed sites and power lines. There is 
no reason that Iraqis could not be guarding the hospital from 
which someone threw a grenade last week that killed three of 
our marines.
    Mr. Chairman, your colleagues in the Senate and the House 
can help. To accelerate this process, we urgently request that 
you support the Armed Services Committee in restoring, in 
conference, the $200 million in authority that we requested 
from the Congress in our budget this year, authority to equip 
and train indigenous forces fighting with Americans in Iraq or 
Afghanistan or elsewhere.
    It was dropped apparently because the Congress did not 
believe it was necessary. I hope it is clear now that it is 
necessary. It is much better to have Iraqis fighting and dying 
for their country than to have Americans doing the job all by 
themselves. And there is no shortage of Iraqis who are willing 
to help us. If there are 20,000 committed Baathists targeting 
our success, there are 19 million or more Iraqis who hate those 
people and would like to help us. We should not find that we 
are held back by a shortage of authority or money to give them 
the proper training and equipment to do the job.
    One reason our commanders do not want more troops, Mr. 
Chairman, is that the function of American troops is to go 
after enemy that have been identified through actionable 
intelligence. When it comes to patrolling the streets of Iraqi 
cities, it is a disadvantage to have Americans. It means that 
our people are colliding with ordinary Iraqis trying to go 
about their day-to-day business. We want to get out of that 
posture as quickly as possible.
    In fact, in Kirkuk the 4th Infantry Division has already 
managed to turn the entire policing job of a multi-ethnic city, 
in which many predicted there would be widespread ethnic 
conflict, and there has not been, to an Iraqi police force.
    As we place our investments in a larger context, we must 
realize that greater stability in this critical region will 
save U.S. resources in the long run. And I agree strongly with 
what I heard Senator Biden saying and others have said, 
investments now that can deal with problems on an urgent basis 
while the window of opportunity is open, however long that may 
be. And I cannot predict how long it may be, but we have a time 
now when investments that might seem inefficient to someone 
trying to design the perfect scheme for standing up power, the 
perfect scheme for training an army, doing things rapidly, will 
have big payoffs.
    But let us put it in some context. According to some 
estimates, it costs us slightly over $30 billion to maintain 
the so-called containment of Saddam Hussein for the last 12 
years. And it cost us far more than money. The containment 
policy cost us American lives, lives lost in Khobar Towers, on 
the USS Cole. It routinely put Americans in danger in enforcing 
the no-fly zones. And it cost us in even larger ways as well.
    The American presence in the holy land of Saudi Arabia and 
the sustained American bombing of Iraq, which were part of that 
containment policy, were principal grievances, the principal 
grievances, cited in Osama bin Laden's notorious 1998 fatwa 
that called for the killing of Americans.
    So we should consider what we might spend in reconstruction 
in Iraq against the billions that we have already spent 
elsewhere or against the consequences, if we fail to win this 
global war on terror. We cannot fail.
    But Iraq can contribute to its reconstruction and its 
rehabilitation. It is already doing so. And its share will 
increase as oil production increases and the Iraqi economy 
recovers. At this stage, it is impossible to estimate what 
recovery actually will cost. What we do know is that resources 
will come from a variety of resources. And the costs of 
recovery in Iraq need to be shared widely.
    The international community has a vital interest in 
successful recovery in Iraq and should share responsibility for 
it. The international community has recognized its 
responsibility to assist us in peacekeeping efforts. Nineteen 
nations are now providing more than 13,000 troops on the ground 
and more on the way. And we are in active discussions with a 
number of very important countries, including Turkey and 
Pakistan, about further possibilities.
    Mr. Chairman, when President Bush spoke in the Rose Garden 
with Ambassador Bremer at his side, he said, ``Our military 
forces are on the offensive.'' Indeed they are. And they are 
doing an incredible job. Everywhere I went, I found troops with 
heartwarming stories about the reception they have received for 
Iraqis. They express some bewilderment about the news coverage 
they see.
    One soldier asked, ``Don't the folks back home get it?'' 
They understand that helping Iraqis build a free and democratic 
society will make our children and grandchildren safer. Our 
troops are brave when they have to fight, and they still have 
to fight. And they are caring and clever, extraordinarily 
ingenious, when they deal with humanitarian and political and 
civil military challenges.
    Their relations with non-governmental organizations, form 
one meeting I held with those groups, are going extremely well. 
And I believe the Iraqi people understand that we are there to 
help.
    Mr. Chairman, the mayor of Karbala said, ``We want to 
establish a national government and maintain relations with 
America.'' The people of northern Iraq, free from Saddam's 
tyranny for the last 10 years, 12 years, have demonstrated to a 
remarkable degree what Iraqis can do with freedom. And my 
meetings with newly freed Iraqis tell me they are looking to do 
the same thing.
    The mayor of Mosul, who is a Sunni Arab and a former army 
commander who spent a year in prison because his brother, who 
was executed, had been suspected of coup planning, said that 
life under the old regime--this is a Sunni, I remind you, Sunni 
Arab--``was like living in a prison.'' He described that regime 
as ``a ruthless gang that mistreated all Iraqis.''
    His top priorities are investment and jobs. But he said to 
do that we need security. He credited the wisdom of General 
Petraeus in improving the security situation. And he added that 
jobs and investment will follow.
    I asked the mayor if ethnic differences will prevent people 
from working together. And the Turcoman assistant mayor 
immediately said, ``What caused this great ethnic gap here was 
Saddam. Throughout our history, we have had no problems.'' 
Slight exaggeration, but not too far. ``This happened only in 
our recent history. We consider ourselves,'' this Turk said, 
``one garden with many flowers of different colors.''
    So even though the enemy targets our success, we will win 
the peace. But we will not win it alone. We do not need 
American troops to guard every mile of electrical cable. The 
real center of gravity will come from the Iraqi people 
themselves. They know who and where the criminals are. And they 
have the most at stake, namely their future.
    We have shown them that we mean to stay until the old 
regime is crushed and its criminals punished and that we are 
equally determined then to give their country back to them. 
They will know they can truly begin to build a society and a 
government that is of, by, and for the Iraqi people.
    In many ways, they are like people who have been prisoners 
who have endured many years of solitary confinement, without 
light, without peace, without much knowledge of the outside 
world. They have just emerged into the bright light of hope and 
the fresh air of freedom. It may take awhile for them to adjust 
to this new landscape free of torture trees. But they are.
    Last week, the President told us why it is so crucial that 
we succeed in Iraq. He said, and I quote, ``A free, democratic, 
peaceful Iraq will not threaten America or friends with illegal 
weapons. A free Iraq will not be a training ground for 
terrorists or a funnel of money to terrorists or provide 
weapons to terrorists who would be willing to use them to 
strike our country or our allies. A free Iraq will not 
destabilize the Middle East. A free Iraq can set a hopeful 
example to the entire region and lead other nations to choose 
freedom. And as the pursuits of freedom replace hatred and 
resentment and terror in the Middle East,'' the President said, 
``the American people will be more secure.''
    Make no mistake, our efforts to help build a peaceful Iraq 
will be equal to the stakes. We look forward to doing our part 
to work with you, Mr. Chairman, members of your committee, and 
the other Members of the Congress to help make America and her 
people more secure. Thank you for giving me so much time.
    [The prepared statement of Mr. Wolfowitz follows:]

   Prepared Statement of Hon. Paul D. Wolfowitz, Deputy Secretary of 
                                Defense

    Mr. Chairman and Members of the Committee: On behalf of the men and 
women who serve our country so faithfully and so well, I would first 
say that we are indeed grateful for your continued and unfailing 
support.
    I returned last week from a four-and-a-half-day visit to northern, 
central and southern Iraq. With incredible support from the U.S. 
military, my staff and I were able to cover a great deal of territory 
in a relatively short time. In fact, I think we saw what would normally 
have taken a typical visitor two weeks to see--and in temperatures that 
hovered near or above 120 degrees. In light of this, my gratitude to 
our military men and women only deepened--not only for the support they 
gave us, but in recognition of the fact that they do so much more--in 
grueling heat and in conditions far less agreeable than those they 
provided for us--day after day, without stopping. They are doing an 
absolutely stunning job, and I appreciate the opportunity to discuss 
with you today their vital work, and offer you my firsthand testimony 
on the current situation in Iraq.
    Behind the police academy in Baghdad stands the forked trunk of a 
dead tree. It is unusual for the fact that, on each branch, the bark is 
permanently marked by two sets of ropes--one high enough to tie up a 
man, the other, a woman. Near the tree is a row of small cells where 
special prisoners were held.
    Our guide on our tour of the academy was the newly-appointed 
superintendent; he himself had spent a year in jail for having made a 
disparaging comment about Saddam--to his best friend. He told us of 
unspeakable things that once happened to men and women tied to that 
tree and held in those cells. Beyond the torture tree, a small gate 
leads to the Olympic Committee Headquarters, run by Uday Hussein, who 
would often slip through the back gate at night to torture and abuse 
prisoners.
    That is the same tree behind the police academy that was reported 
in such gruesome detail in the July 23th ``Washington Post.'' The 
article focused on the sad plight of one Assyrian Christian woman who 
was tied to that tree and made to endure unspeakable torture. Her 
husband was executed at the academy and passed through the steel gate, 
as the article described it, ``like a piece of butcher's meat''--all 
because they had not received state approval for their marriage.
    There is a positive aspect in the distressing story of Juman 
Michael Hanna--that is her courage in coming forward to offer U.S. 
officials what is very likely credible information, information that 
will help root out Baathist policemen who routinely tortured and killed 
prisoners. Bernard Kerik, senior policy advisor to the Iraqi ministry 
of the interior, is quoted as saying that that woman's information ``is 
an event that will lead to closure for a lot of people''--and, he 
added--``justice.''
    Mr. Chairman, I believe that is the same police academy that you 
and Senators Biden and Hagel visited during your trip to Iraq just a 
few weeks ago. But, I believe that our understanding of the academy's 
former role in the regime continued to evolve after your trip to 
Baghdad. This, of course, is due to Mrs. Hanna's brave testimony about 
crimes committed against her and countless others and who was 
responsible. This evolution in our understanding of but one aspect of 
the regime points to one of the most formidable challenges facing us 
right now. The people of Iraq have much valuable information that can 
help us root out Baathists and help them find justice. But their 
willingness to tell us what they know will continue to take significant 
investments on our part--investments in our time, of our resources, and 
in our efforts to build trust among the Iraqi people. The military and 
rehabilitation efforts now under way in Iraq are an essential part of 
the War on Tenor. In fact, the battle to secure the peace in Iraq is 
now the central battle in the global war on tenor.
     history of atrocities and punishment linked to future success
    In Republic of Fear, Kanan Makiya writes about receiving a letter 
from an Iraqi refugee in Europe who claims to have been an agent in the 
Iraqi secret police for seven years. In the letter, the former agent 
draws this conclusion: ``Confronting an experienced criminal regime 
such as the present one in Baghdad can be done only with truths that 
strip off its many masks, bringing its demise closer.''
    Traveling throughout Iraq last week, I heard many accounts of 
unspeakable brutality--on a scale unimaginable for Americans. I saw 
truths that strip away masks of legitimacy that regime dead-enders may 
yet cling to. And while these truths may be unpleasant to face, doing 
so will help hasten the demise, once and for all, of a truly criminal 
regime.
    While we were in the North, one of our commanders in the field told 
us they had temporarily stopped the excavation of a newly discovered 
mass gravesite, after unearthing the remains of 80 women and children--
some still with little dresses and toys.
    In the South, in the village of Al Turabah, we met other remnants 
of the regime's horrific brutality, the Marsh Arabs, for whom 
liberation came only barely in time to save a fragment of this ancient 
civilization. But, for the Marsh Arabs, the marshes are no more. For 
more than 10 years, Saddam drained their ancestral lands--in one 
instance, diverting water to create artificial lakes around the lavish 
palaces he built for himself near Babylon. Where there was once a lush 
landscape of productive, fresh-water marshes the size of New Jersey, 
there is now a vast, nearly lifeless void, which one observer with us 
likened to the surface of the moon.
    According to one estimate, the population of the Marsh Arabs once 
stood at half a million; but after Saddam's humanitarian and 
environmental crimes, it is believed there are at most 200,000 left--
and less than 40,000 of those were not driven from their ancestral 
home. At least there is still a Marsh Arab civilization capable of 
being preserved. But, it is likely it would not have lasted another two 
or three, much less another 12 years. Children in Al Turabah greeted us 
with loud applause and cheers of ``Salaam Bush'' and ``Down with 
Saddam.'' Their first request was not for candy or toys. It was, 
instead, a single word: ``Water?''
    In the case of many tens of thousands who were killed at Al Hilla 
and Abu Gharib, however, liberation did not come in time. I've heard 
stories about buses full of people that villagers would watch pass by, 
headed for a once-public field that had been closed by the government. 
They reported hearing gunshots, assuming that the people were 
celebrating, as is sometimes customary. When the buses would pass by 
the villagers on the return trip--completely empty--people began to 
suspect that something was wrong. When this happened over and over, the 
villagers began to fear the worst.
    Of course, we know now that tens of thousands of men, women and 
children were brought to places like the killing fields in Hilla, 
gunned down, and buried, dead or alive. Today, some of their bodies 
have been retrieved from the earth--they now lay, wrapped in plastic 
bags, in neat rows on the dirt. They wait for someone to claim them. 
The graveyard in Hilla is only one of dozens that have been discovered 
to date throughout Iraq.
    At the prison at Abu Gharib, we saw the torture chamber and an 
industrial-style gallows that conducted group executions regularly, 
twice a week. We were told that 30,000 people--and perhaps as many as 
100,000--were killed there over the years. (According to a variety of 
witnesses, in the spring of 1998, Qusay Hussein ordered officials to 
kill thousands of prisoners to make room for more. As many as 3,000 
prisoners were executed by the regime, as part of a larger program of 
``prison cleansing.'')
    One of my strongest impressions is that fear of the old regime is 
still pervasive throughout Iraq. But, a smothering blanket of 
apprehension and dread woven by 35 years of repression--where even the 
smallest mistake could bring torture or death--won't be cast off in a 
few weeks' time. Iraqis are understandably cautious. Until they are 
convinced that every remnant of Saddam's old regime is being removed, 
and until a long and ghastly part of their history is put to rest and 
overcome, that fear will remain. That history of atrocities and the 
punishment of those responsible are directly linked to our success in 
helping the Iraqi people build a free, secure and democratic future.
    What happened to the Hussein brothers last week is essential to the 
process of building that future. Their demise is an important step in 
making Iraqis feel more secure that the Baathist tyranny will never 
return, in restoring order and in giving freedom a chance. Even in 
Baghdad, far from the Shi'a and Kurdish areas that we associate with 
Saddam's genocidal murders, enthusiastic and prolonged celebrations 
over the news of their deaths erupted almost at once--suggesting 
something else I observed: Saddam and his sons were equal opportunity 
oppressors.
    It was a significant step forward to get Numbers 2 and 3 on our 
most-wanted list of regime criminals. That same day, we captured Number 
11 on the list, the commander of the Special Republican Guard, the unit 
whose job was to spy on the Republican Guard. But, we've learned in our 
days on the ground that the roots of that regime go deep--burrowing 
into precincts and neighborhoods, like a huge gang of organized 
criminals. So, it is the coalition's intensified focus on mid-level 
Baathists that we think will yield even greater results in apprehending 
the contract killers and dead-enders who now target our soldiers and 
our success. Recently captured functionaries have revealed new and 
helpful information, and we are working to encourage this trend.
    According to Major General Ray Odierno, commander of the 4th 
Infantry Division, tips are on the rise following the deaths of Uday 
and Qusay. But, even before that happened, he said that the number of 
Iraqis providing information to our troops had been increasing in the 
last couple of weeks. He thinks the rise is because they feel confident 
that we will act on the information. Tips have led to the seizure of 
significant weapons caches, as well, to include some 660 surface to air 
missiles. It is important to remember that the people who want the 
return of the old regime are a small fraction of the Iraqi people.
    As Ambassador Bremer pointed out when he was here last week, 
ongoing and aggressive military operations pick up a number of 
detainees every day, following up on information provided by Iraqis. 
They are pursuing Fedayeen Saddam and mid-level Baathists. They are 
arresting them and interrogating them. In fact, during one of our 
briefings, we saw an impressive 4th Infantry Division flow chart that 
goes from the mid-level Baathists through the facilitators down to the 
individual perpetrators.
    And it's important to remember that before the start of military 
operations in Iraq, Saddam released tens of thousands of prisoners who 
have also been part of the violence. In Nasiriyah, for example, Iraqis 
have told us about offers of $200 to attack a power line and $500 to 
attack an American.

                      SUCCESSES, REGION BY REGION

    While many Iraqis may still remain in the grip of fear, our troops, 
our coalition allies and the new national and local Iraqi councils are 
making significant progress in lessening its iron hold. Mr. Chairman, I 
think you and Senators Hagel and Biden can attest to the fact that 
there is far more good news in Iraq than is routinely reported. I'd 
like to give you a snapshot tour of what I saw and heard last week.
    One interesting thing I would note first is that the military 
commanders I talked with who have experience in the Balkans uniformly 
agreed that, in Iraq, we are far ahead of where we were in Bosnia and 
Kosovo at comparable times, and in some cases, we are ahead of where 
those places are today. Lieutenant General Rick Sanchez, the 
outstanding new commander of Joint Task Force 7, is a veteran of 
Kosovo. During one of our briefings, he commented that things are 
happening in Iraq after three months that didn't happen after 12 months 
in Kosovo. I asked him to elaborate, and off the top of his head, he 
jotted down a list of 10 things. I'd like to share General Sanchez's 
list with you.

           1. The judicial system is functioning at a rudimentary 
        level. Investigative judges are working and misdemeanor trials 
        are ongoing with convictions.

           2. The political infrastructure is functioning. 
        Neighborhood, district and city councils have been stood up. 
        Over 90% of major cities have city councils and there is a 
        National Level Interim Governing Council.

           3. The police force is at about 80% of the requirement. 
        Police are conducting joint and unilateral effective 
        operations.

           4. Customs, fixed site security are all well on the way to 
        being stood up. Multiple ports of entry are being operated by 
        the Iraqis.

           5. Schools were immediately stood back up. At all levels the 
        school year was salvaged.

           6. The medical system is operating.

           7. The media, all types, are available across the county.

           8. The local economies are bustling--oil, agriculture and 
        small business.

           9. Public Services--electrical, water, sewage are nearly up 
        to pre war levels.

          10. Recruiting for the New Iraqi Army has started with 
        training to begin within a couple of weeks.

    In fact, the entire south and north are impressively stable, and 
the center is improving day by day. The public food distribution is up 
and running. We planned for a food crisis, but there isn't one. 
Hospitals nation-wide are open. Doctors and nurses are at work. Medical 
supply convoys are escorted to and from the warehouses. We planned for 
a health crisis, but there isn't one. Oil production has continued to 
increase, and for about the last week, has averaged 1.1 million barrels 
per day. We planned for the possibility of massive destruction of this 
resource of the Iraqi people, but our military plan helped preserve the 
oil fields for the Iraqis.
    The school year has been salvaged. Schools nationwide have reopened 
and final exams are complete. There are local town councils in most 
major cities and major districts of Baghdad, and they are functioning 
free of Baathist influence.
    There is no humanitarian crisis. There is no refugee crisis. There 
is no health crisis. There has been minimal war damage to 
infrastructure. There has been no environmental catastrophe, either 
from oil well fires, or from dam breaks.
    However, as I related to this Committee in May, Saddam's legacy of 
destruction and decay is another story entirely.
    South: In the South, the Marines are making wonderful progress. 
Major General Jim Mattis, commander of the First Marine Expeditionary 
Force, told us how effective his battalion commanders--typically 
lieutenant colonels--have been at the hub of activity in the cities. 
They have stressed creating a supportive environment, by parking their 
tanks out of sight, and getting in among the people to win their trust 
and confidence. In one example, the Marines gave out chilled water--a 
precious commodity as you can imagine--to demonstrators at political 
rallies. Whenever the Marines have rebuilt a school--and in Karbala 
alone there are nine such schools--they present a brass bell with the 
inscription: ``To the children of Iraq from the First Marine 
Division.''
    Our Army Civil Affairs teams are equally impressive. They have 
created functioning local governing councils free from Baathist 
influence. The governor of Karbala captured this development best when 
he told me: ``We Shia have theological ties to Iran, but we refuse to 
be followers of any country outside Iraq. I want to stress, we aspire 
to independence and democracy. We want to heal the wounds from the past 
regime's atrocities. We want to build factories, bring in the Internet, 
practice our religious rites in freedom, have good relations with our 
neighbors and the world. The Marines in Karbala--Commanded by LtCol 
Lopez--work day and night with our Governing Council to provide 
security and services.''
    North: Stability in the north is another success story. General 
Dave Patraeus and his troops of the 101st Airborne arrived in Mosul on 
22 April and over the next 30 days they put together this impressive 
list of accomplishments:

  <bullet> Met with community leaders;

  <bullet> Agreed on an election plan;

  <bullet> Established an elected interim city council;

  <bullet> Re-opened hospitals, schools, banks and businesses;

  <bullet> Set up a Civil-Military Operations Center (CMOC);

  <bullet> Repaired the strategic bridge on the Mosul-Irbil road;

  <bullet> Fixed the benzene and propane shortages;

  <bullet> Opened the airport to humanitarian assistance flights;

  <bullet> Signed the Makhmur harvest accords between Kurds and Arabs;

  <bullet> Completed the wheat harvest;

  <bullet> Re-opened the border with Syria so trade could resume;

  <bullet> Set up the new Mosul newspaper;

  <bullet> Paid government workers;

  <bullet> Re-established train service;

  <bullet> Established Task Force Neighborhood and Task Force Graffiti 
        and helped clean up the city; Task Force Pothole employs Iraqis 
        and improves the roads;

  <bullet> Conducted joint police patrols;

  <bullet> Began training a new police force;

  <bullet> Diplomatically removed Peshmerga forces from disputed areas 
        to back above the green line;

  <bullet> Average 300 day, 300 night, and 90 joint sector security 
        patrols (U.S. with local police); and have established air and 
        ground quick reaction forces to respond to Baathist attacks.

  <bullet> They are currently supporting 10 major CPA funded 
        reconstruction projects.

    General Petraeus said they have invested in water, electricity, 
roads, schools, hospitals, banks, agriculture, summer youth leagues, 
community swimming pools, orphanages, and kids amusement park projects. 
He believes there are reasons for continued optimism in the north. They 
include: the quality of interim government leadership; citizen trust 
and confidence in Coalition forces; a good university and school 
system; functioning food and fuel distribution systems; access to trade 
with Turkey and Syria; relatively good infrastructure; natural 
resources (water, oil, farm land); growth of small businesses; 
educated, hard-working, entrepreneurial populace; and as the locals 
have said, there is a ``thirst for democracy.''
    Center (4th Infantry Division): General Ray Odierno has a more 
difficult security challenge in the predominately Sunni areas and in 
areas close to the Iranian border. He understands the nature of the 
Baathist and foreign terrorist threat and how that interacts with and 
affects his civil-military programs. He said they have incredible 
tactical intelligence on the reactionary cells and are making solid 
progress in defeating this threat. He cites Operation Peninsula, 
Operation Sidewinder, and Operation Soda Mountain as effective in 
rooting out these forces. He said as we capture or kill the foot 
soldiers, it is becoming increasingly more difficult for the mid-level 
Baathist financiers to organize, recruit and maintain an effective 
force.
    As he deals more and more effectively with the Baathist forces, he 
too has been able to complete an impressive array of civil-military 
projects in his area of responsibility. As in the north and south, they 
have established Battalion Commander ``safe houses'' throughout Kirkuk 
to more effectively interact with the population. They have stood up 
and are training a police force. An interim Governing Council has been 
established whose members are reportedly working effectively together--
and, like in the north, are multi-ethnic. And three are women. In two 
weeks Council members will be taking phone-in callers on local radio 
shows. Contractors are busy repairing the oil infrastructure in the 
Kirkuk oil fields. And the Badr Corps influence has calmed down 
considerably.
    My meeting with the Kirkuk Interim Governing Council members was 
perhaps the most heartening of all. Many of the 18 members spoke of 
their gratitude to President Bush and our troops for their liberation. 
The word ``liberation'' was used repeatedly by the members. An Arab 
member spoke eloquently of the need to return Kurdish property to their 
rightful owners. ``All Iraqis were victims of the last regime,'' he 
said. Others spoke of American troops working with us ``in a nice way 
to help solve our problems,'' that ``doors are always open to us'' and 
that ``we found out the Americans are our brothers who came as 
liberators not as conquerors.''
    One member said: ``Please tell President Bush thank you for his 
courageous decision to liberate Iraq. Many American soldiers have 
volunteered their lives [for liberation].'' The Turcoman member asked 
that I convey to President Bush the Turcoman communities thanks for 
liberation. Another member commended the ``tireless efforts of General 
Odierno and his army'' in helping the Iraqi people. And finally, a 
member, speaking English, asked me when the U.S. government was going 
to ``confront Arab television for their incitement to kill Americans?'' 
Obviously, he pointed to another challenge we must face.
    Mr. Chairman, you recently said that our victory in Iraq will be 
based on the ``kind of country we leave behind.'' Just 89 days after 
the end of major combat operations, our forces and their coalition 
partners are making significant progress in helping Iraqis build the 
kind of country that will reflect their enormous talents and resources, 
and that they can be proud of one day.

                     RESOURCES TO GET THIS JOB DONE

    Getting rid of the Hussein regime for good is not only in the 
interest of the newly liberated Iraqi people, it enhances the security 
of Americans and of people throughout the Middle East. We will not 
conclude our efforts until the Baathist regime is dead, and the Iraqi 
people have begun to build an Iraq that is, whole, free, and at peace 
with itself and its neighbors. To those who question American resolve 
and determination, I would remind them that we are still playing a 
crucial role in Bosnia eight years after the Dayton Accord, long after 
we predicted we would be gone. And we continue to be the key to 
stability in Kosovo and in Macedonia. But the stakes in Iraq for us are 
even greater than they are in the Balkans.
    And if the stakes are huge in Iraq--and they are, since tyranny 
breeds terror--there is no question that our commitment to secure a 
peaceful Iraq must be at least equal to the stakes--it is related to 
nothing less than our security and the peace of the world. As the Vice 
President said last week, ``a more peaceful, stable Middle East will 
contribute directly to the security of American and our friends.''
    I applaud the determination and dedication of this Committee, Mr. 
Chairman, in helping the American people understand the stakes we have 
in securing success in Iraq.
    Also last week, President Bush said that ``our nation will give 
those who wear its uniform all the tools and support they need to 
complete their mission.'' It is vital that our commanders in the field 
and Ambassador Bremer get what they need. The payoff will be much 
greater than the investments we make now.
    Mr. Chairman, I would add that there is no artificial ceiling on 
the number of troops that we will deploy to Iraq to defeat this enemy. 
Our commanders have been asked repeatedly whether they need more 
troops, and the answer from General Abizaid, as well as his subordinate 
commanders, has repeatedly been, not only don't they need more, they 
don't want more. What they do want more of is this:

  <bullet> Forces from other countries. We're making some substantial 
        progress in that regard. I visited the Polish general who will 
        be commanding the multinational division in southern Iraq. The 
        Polish brigade in that division will have responsibility for 
        the Province of Karbala, one of the most important cities in 
        the Shi'a heartland that many people predicted would be 
        difficult to manage. It has not proven difficult, and the Poles 
        are enthusiastic about taking on the assignment. In that same 
        multinational division, the Spanish brigade will be taking 
        charge of the other major holy Shi'a city, Najaf. Further 
        south, under the British multinational division, an Italian 
        infantry brigade--which will include some 400 carabinieri--will 
        be performing security and stability operations.

  <bullet> The second thing they need more of is actionable 
        intelligence. And the key to getting more intelligence is 
        cooperation from Iraqis, as I mentioned earlier in my 
        statement. That cooperation has been increasing substantially. 
        One product of that cooperation, of course, was the Iraqi who 
        turned in the two miserable brothers who were killed last week. 
        That event itself has led to a large increase in the amount of 
        intelligence that Iraqis are bringing to us,--indeed such a 
        large increase that we now have the challenge of sorting out 
        the wheat from the chaff.

  <bullet> Third and most important, what we need are Iraqis fighting 
        with us. We've begun recruiting and training Iraqis for an 
        Iraqi civilian defense force that would take over some 
        important tasks from our troops such as guarding fixed sites 
        and power lines. There is no reason that Iraqis could not be 
        guarding the hospital from which someone threw a grenade that 
        killed three of our Marines last week. To accelerate this 
        process, we urgently request that you assist the Armed Services 
        Committee to restore in conference the $200 million in 
        authority that we requested from the Congress in our budget 
        this year. It was dropped, apparently because the Congress in 
        its wisdom did not believe that it was necessary. I hope that 
        it is clear now why it is necessary. It is much better to have 
        Iraqis fighting and dying for their country than to have 
        Americans doing the job all by themselves. There is no shortage 
        of Iraqis who are willing to help us. We should not find that 
        we are held back by a shortage of authority and money to give 
        them the proper training and equipment to do the job.

    I urge you and your colleagues on the Armed Services Committee to 
understand that this is an extremely urgent need, and special 
consideration must be given to provide this critical training and 
equipping authority to the Department.
    One reason our commanders don't want more troops is that the 
function of American troops is to go after enemy that have been 
identified through actionable intelligence. When it comes to patrolling 
the streets of Iraqi cities, it is a disadvantage to have American 
troops. It means that our people are colliding with ordinary Iraqis 
trying to go about their day-to-day business. We are trying to get out 
of that posture as quickly as possible. In fact, the 4th Infantry 
Division in the city of Kirkuk has already managed to turn the entire 
policing job over to Iraqi police for that crucial city of mixed ethnic 
population. Where we have to use American troops, we will do so, but no 
one should think that it is the desirable solution.
    As we place our investments into a larger context, we must realize 
that greater stability in this critical region will save our resources 
in the long run. We must not forget that containing Saddam and his 
regime was the goal. According to some estimates, it cost the United 
States slightly over $30 billion to maintain the containment of Saddam 
Hussein for the last 12 years.
    And, of course, it cost us far more than money. It cost us American 
lives--in Khobar Towers, in the USS Cole, for example--and routinely 
put Americans in danger in enforcing the no fly zones.
    And it cost us in an even larger way as well. The American presence 
in the holy land of Saudi Arabia, and the sustained American bombing of 
Iraq as part of that containment policy, were principal grievances 
cited in Osama bin Laden's notorious 1998 fatwa that called for the 
killing of Americans.
    It is also worthwhile to consider what we might spend on 
reconstruction in Iraq against the billions that we've already spent in 
Bosnia and Kosovo. I think most would agree that those investments have 
been a worthwhile expenditure. But, stability in Iraq is vastly more 
important. It is directly related to the future of one of the most 
important regions in the world and to our own security. When we 
completely defeat Saddam's brutal regime, it will be a defeat for 
terrorists globally. The value of that victory is incalculable.
    Iraq is already contributing to its own reconstruction and 
rehabilitation, and Iraq's share will increase as oil production and 
the Iraqi economy recover. At this early stage, it is impossible to 
estimate what recovery in Iraq actually will cost. What we do know is 
that resources will come from a variety of sources. The costs of 
recovery in Iraq will be shared widely. The international community has 
a vital interest in successful recovery in Iraq and must share 
responsibility for it.
    The international community has recognized its responsibility to 
ensure that Iraq can take its place among peace-seeking nations. In 
fact, 19 nations are now providing more than 13,000 troops on the 
ground.
    Coalition support is significant, and it continues to increase. Our 
continued progress will depend on international assistance, including 
that of the United Nations. As we proceed, there should be no 
underestimating the task before us, and there should be no 
underestimating its importance.

                                 TROOPS

    When President Bush spoke in the Rose Garden last week with 
Ambassador Bremer at his side, he encapsulated what I've tried to 
sketch out for you with these simple words. He said, ``our military 
forces are on the offensive.'' Indeed they are. They are doing an 
incredible job. Because they are so aggressively rooting out the dead-
enders who are targeting the successes of the Iraqis and the coalition, 
we must be prepared for more American casualties and possibly even more 
dramatic attacks.
    Our troops understand what they face, and I can tell you that their 
morale is almost uniformly high. They are committed to their mission. 
They know exactly how important it is--to the people of Iraq and to 
America. And their obvious commitment to getting the job done right is 
having a positive effect on the people of Iraq.
    Everywhere I went, I found troops with heartwarming stories about 
the reception they have received from Iraqis, how wonderful it felt for 
them to get that kind of welcome. They expressed some bewilderment 
about the news coverage they see. One person asked, ``don't the folks 
back home get it?'' They understand that helping Iraqis build a free 
and democratic society will help make our children and grandchildren 
safer.
    Our troops are brave when they have to fight--and they still have 
to fight. And they are caring and clever--extraordinarily so--when they 
deal with humanitarian and political and civil military challenges. 
What they do in a day's work is inspiring, and it's a great tribute to 
the superb quality of people who serve this country. They are, quite 
literally, soldiers and statesmen.
    In Mosul, we took a walking tour of the center of town with the 
Army company responsible for that area. As we were passing a line of 
butcher shops, the Company Commander told me a remarkable story about 
how they dealt with a problem involving the town's meat cutters. It 
seems that they were slaughtering the animals on the street and dumping 
the carcasses in front of their shops. To get this rather unsanitary 
problem under control, our soldiers organized an association of the 
butchers, so they would have an authoritative institution they could 
interact with. This was a new development for the butchers, of course. 
In the old regime, organized associations weren't allowed--they simply 
shot people who dumped things in the streets. When I heard their 
solution, I jokingly asked the young captain if they'd taught him that 
at West Point. He said, no. He said, they'd had to figure it out as 
they went along. Of course, that is something our troops are repeating 
throughout Iraq on a daily basis.
    I also met with a group of non-government organizations, who also 
uniformly praised the work of our military. They said the conditions 
created by our military allowed them to get on the ground fast and that 
has helped their programs. The USAID representative said civil-military 
operations are ``smooth as silk.''
    One of the big impressions I came away with is that the Iraqi 
people understand that our people are there to help. I sensed an 
enormous gratitude on their part for what has been done to bring about 
the liberation of the Iraqi people. That gratitude was obvious across 
all the communities we encountered.

                        IRAQI PEOPLE ARE WITH US

    The mayor of Karbala expressed his personal gratitude, telling us 
``they would never forget that America saved us and delivered us from 
the regime.'' He went on to say, ``We want to establish a national 
government and maintain relations with America.''
    The people of Iraq are not only looking ahead to the day when they 
have their own representative government, they are taking active steps 
to make that happen now. There are some who still ask the question: Is 
democracy possible in Iraq? There are even some who doubt that 
democracy could ever take root in the Arab world. But, the people of 
northern Iraq, beyond the reach of Saddam Hussein and his regime for a 
decade, demonstrated an impressive ability to manage longstanding 
differences and develop relatively free and prospering societies.
    My meetings with newly-freed Iraqis tell me that they are looking 
to do the same thing. We attended a meeting of the Mosul city council, 
which was instructive in debunking the myth that Arabs, Kurds, 
Turcomen, Assyrian Christians and Yezidi cannot live and work together. 
The mayor of Mosul--who is a Sunni Arab and former Army commander who 
spent a year in prison and whose brother and cousin were murdered by 
the regime--said life under the regime ``was like living in a prison.'' 
He described the regime as ``a ruthless gang that mistreated all 
Iraqis.'' Investment and jobs, he said, are their top priorities. He 
credited the wisdom of General Patraeus in improving the security 
situation. He added that, jobs and investment will follow.
    When I asked the mayor if ethnic differences will prevent people 
from working together, the Turcoman assistant mayor immediately said: 
``We have never had ethnic problems in the past. Saddam created them. 
We have always considered ourselves members of the same family. It 
never crossed our minds that the next person is different.'' To that, 
the mayor added: ``What caused this great gap was Saddam. Throughout 
our history we have had no problems. This has happened only in our 
recent history. We consider ourselves one garden with many flowers of 
different colors.''
    Even though the enemy targets our success, we will win the peace. 
But, we won't win it alone. We don't need American troops to guard 
every mile of electrical cable. The real center of gravity will come 
from the Iraqi people themselves--they know who and where the criminals 
are. And they have the most at stake--their future.
    When inevitable challenges and controversies arise, we should 
remind ourselves that most of the people of Iraq are deeply grateful 
for what our incredibly brave American and coalition forces have done 
to liberate them from Saddam's Republic of Fear.
    When we've shown Iraqis we mean to stay until the old regime is 
crushed, and its criminals punished--and that we are equally determined 
to give their country back to them--they will know they can truly begin 
to build a society and government of, by and for the Iraqi people.
    In many ways, the people of Iraq are like prisoners who endured 
years of solitary confinement--without light, without peace, without 
much knowledge of the outside world. They have just emerged into the 
bright light of hope and fresh air of freedom. It may take a while for 
them to adjust to this new landscape free of torture trees.
    Last week, the President told us why it is so crucial that we 
succeed in Iraq. He said: ``A free, democratic, peaceful Iraq will not 
threaten America or our friends with illegal weapons. A free Iraq will 
not be a training ground for terrorists, or a funnel of money to 
terrorists, or provide weapons to terrorist who would be willing to use 
them to strike our country or our allies. A free Iraq will not 
destabilize the Middle East. A free Iraq can set a hopeful example to 
the entire region and lead other nations to choose freedom. And as the 
pursuits of freedom replace hatred and resentment and terror in the 
Middle East, the American people will be more secure.''
    Make no mistake: our efforts to help build a peaceful Iraq will be 
equal to the stakes. We look forward to doing our part to work with the 
members of Congress to help make America and her people more secure. 
Thank you.

    The Chairman. Well, thank you very much, Secretary 
Wolfowitz, for a very eloquent and comprehensive statement that 
we requested you to make. You have fulfilled our hopes for you.
    Let me say that we have many members here. We know that we 
are likely to be interrupted by rollcall votes at some time 
that will be inopportune. So I would suggest we try for a 5-
minute limit on a first round. And that may be the only round. 
But we will try to economize time and recognize as many members 
as we can.
    Let me begin my 5 minutes by saying, Secretary Wolfowitz, 
that I think all of us will want to look into the $200 million 
that you have suggested is needed for the training of Iraqis so 
that they can do the patrol duty and fill in on the ways that 
you have suggested. I think that is a very important 
suggestion.
    Likewise, you mentioned that the $30 billion policy to 
contain Saddam was not inexpensive. This could lead to an 
interesting hearing all by itself on the reasons for fighting 
the war and the containment policy and what have you. I will 
not go there, but I noted that in passing.
    Let me ask once again, my quest here is to try to think 
through the next 5 years. If you can, please see in your own 
mind's eye five blank sheets of paper. Now we heard from Mr. 
Hamre roughly that the budget of Iraq, incorporated, the 
government that preceded this, was about $30 billion a year. I 
never heard of that figure before. I do not know if it is 30, 
but you probably could establish it. In other words, $30 
billion per year was the a sum of money, the revenues from all 
sources that Iraq used to pay for its governance.
    Now you could argue that some of that was wasted on troops 
and palaces and so forth. So maybe Iraq does not need $30 
billion to run a government. But in any event, they need some 
sum of money.
    Now Mr. Bolten has filled in some important statistics with 
regard to where revenues come from now. And so did Ambassador 
Bremer. As I look at this, though, it seems to me important 
that it is showing not only our staying power and our vision, 
but also something to which the Iraqi assembly council or the 
evolution of a democratic group of Iraqis may want to make some 
amendments. We would say x number of dollars are going to be 
required for administration of this, this, this, and this, and 
they add up to something.
    On the revenue side, the money is going to come from these 
sources: oil, of course, plus the confiscated assets which may 
turn up. These are going to run out. Mr. Bremer pointed that 
out. They may not run out this year, because they will stretch 
a few assets over to the next year. But that is about it for 
that. At some point this economy of Iraqi must produce some 
revenue from other sources. If it works, it will do so, as most 
governments do. But for a while, it may not.
    There are blanks there that need to be filled: the pledging 
conference, other countries, other humanitarian resources, the 
United Nations. But at the end of the day, probably the United 
States will bear the bulk of the burden. What I am trying to 
draw in terms of public debate is the thought, first of all, of 
staying power, of the confidence you have suggested.
    Second, I hope for a lack of surprises. Down the trail, 
when the enthusiasm that we now have for solving the problem 
lessens--and heaven only knows there may be other problems--I 
hope that we have at least some idea of what is likely to be 
required of the American taxpayer. Failure to achieve this is 
going to lead, I believe, to a lot of partisan haggling and bad 
surprises. Whoever is President will have to come up with 
supplementals to avoid running out of money unexpectedly. This 
was not unexpected. All of this is fully expected.
    I appreciate the difficulty of predictions. Again and 
again, people say, well, this is unknowable. As Senator Biden 
said, of course it is. We do not know in our government 
precisely for the next 5 years what in the world we will spend 
and what kind of revenues will come in. We are surprised every 
day by changes of hundreds of billions of dollars of 
anticipations.
    All I am saying is, with regard to Iraq, perhaps this is 
not quite such a volatile, dynamic situation. At least it 
offers for the fledgling Iraqi government a chance to amend the 
motion, to say that these are not the priorities that we see. 
And as a matter of fact, we think there are some revenues that 
can come from this and that.
    I visited with Dr. Rice at the White House last week on 
this idea. I have mentioned it publicly several times. I am 
hopeful we can begin to fill in the blanks and take seriously 
this thought of a plan that we have some confidence in, and 
that the American people will understand down the trail what we 
are doing.
    I will not burden you with asking for a further comment, 
because my time has expired. I want to pass that along to 
somebody else. I have just taken this 5 minutes to make the 
point. I visited a little bit with Mr. Bolten about this prior 
to the hearing. He knows the regard I have for him and the work 
at OMB. It is so critical that we work with you and the 
Pentagon and the State Department, and the NSC.
    I thank you all for your testimony. And I turn now to my 
distinguished ranking member, Senator Biden.
    Senator Biden. I want to try to ask a couple very specific 
questions, if you would help me by giving as quick an answer as 
you could.
    Mr. Bolten, what are your working assumptions on the cost 
side for the rest of 2003 and for 2004 for Iraq?
    Mr. Bolten. For the rest of 2003, Senator Biden, on the 
cost side are working assumptions are those that Ambassador 
Bremer has brought back to us. He is anticipating expenditures 
in the range for the total of 2003 of about $7.3 billion.
    Senator Biden. How much will you be requesting for the 
remainder of the year, if any, from the U.S. Congress to fund 
that need?
    Mr. Bolten. We do not anticipate requesting anything 
additional for the balance of this year.
    Senator Biden. And what do you anticipate for 2004?
    Mr. Bolten. I do not know the answer to that. Ambassador 
Bremer has laid out a reasonable specific budget for the 
balance of 2003. And I think he had an opportunity to discuss 
that with you. But even that was relatively crude because they 
are just getting a handle on so many of the variables that are 
in play right now.
    Senator Biden. Do you anticipate we will be continuing to 
spend $4 billion a month for our troops in Iraq for 2004?
    Mr. Bolten. That is roughly what we are spending now. 
Looking out over the immediate term, we do not have any reason 
to expect a dramatic change in that number. But I would not 
want to predict beyond the next couple of months, because the 
situation is so variable.
    Senator Biden. Do you not have to? I mean, we are talking 
about the 2004 budget. We are going to be voting on that in the 
next couple of months. What the devil are you going to ask us 
for?
    Mr. Bolten. Well, the--in the 2004 budget--and, Senator, as 
you know, we have been very explicit about it--we have not 
included the incremental costs of our fighting forces in Iraq 
nor the costs of reconstruction. So you----
    Senator Biden. Why?
    Mr. Bolten. Simply because we do not know what they will 
be.
    Senator Biden. Oh, come on now. Does anybody here at the 
table think we are going to be down below 100,000 forces in the 
next calendar year? Raise your hand, any one of you. You know 
it is going to be more than that. So you know at least it is 
going to be $2.5 billion a month. Give me a break, will you? 
When are you guys going to start being honest with us? Come on. 
I mean, this is ridiculous. You are not even----
    Mr. Wolfowitz. Senator, to suggest that this is an issue of 
honesty really is very, very----
    Senator Biden. It is a suggestion of candor.
    Mr. Wolfowitz[continuing]. Misleading.
    Senator Biden. Of candor. Of candor. You know there is 
going to be at least 100,000 American forces there for the next 
calendar year.
    Mr. Wolfowitz. Senator, I do not know----
    Senator Biden. And you are not asking us for any money----
    Mr. Wolfowitz. I do not know what we are going to have 
there.
    Senator Biden. Let me finish, please. Let me finish.
    Mr. Wolfowitz. OK.
    Senator Biden. And you are not asking us for any money in 
next year's budget for those troops. Now what do you call that?
    Mr. Wolfowitz. Senator, there will be a supplemental 
request. There is no question about that. And there will be a 
supplemental request when we think we can make a reasonably 
good estimate of what will get us through the whole year, so 
that we do not have to keep coming up here with one 
supplemental request after another. So I do not sit here and 
say, well, maybe the number is going to be 100,000, and then it 
turns out it is 120,000. Then people accuse us of being 
misleading or dishonest.
    Senator Biden. Oh, I think you are being----
    Mr. Wolfowitz. We know what the number is now. We know what 
we are trying to do in terms of enlisting other countries. We 
do not know whether the Paks are going to come through with a 
division. We do not know whether the Turks are going to come 
through with division. We do not know how rapidly we are going 
to be able to train Iraqis to----
    Senator Biden. Are you suggesting if, in fact, they come 
through with divisions, we are going to reduce American forces?
    Mr. Wolfowitz. If they--I believe that that is exactly the 
purpose of getting foreign troops in. In fact, in southern Iraq 
today we are handing----
    Senator Biden. Reduce American forces.
    Mr. Wolfowitz [continuing]. We are handing responsibility 
for key provinces of Iraq over to the Poles and the Spaniards 
and the Italians. And we are taking marines out. We are not 
replacing them with Americans.
    Senator Biden. So we are going to have a net reduction of 
American forces for the----
    Mr. Wolfowitz. I am not predicting, Senator. I do not know. 
Until we get these Baathist criminals under control, we are 
going to put in whatever it takes to do the job. But we are 
trying to get other people to fill in for us. We are trying to 
get Iraqis to fill in for us. And I think by the end of the 
year, early next year, we will have a much better fix on what 
it takes to get through the year.
    Senator Biden. Do you have any expectation that you are 
going to be able to stand up an Iraqi army of any consequence 
in the next 6 months?
    Mr. Wolfowitz. They are two different things here. And 
thanks for giving me the chance to explain it. We are working 
on training an Iraqi army, which is a 2- to 3-year project, out 
to produce regular units, lots of training, lots of discipline. 
You do not need that kind of an army to guard fixed power 
lines. You do not need that kind of an army to take over for 
marines guarding hospitals. You do not need that kind of an 
army to guard banks.
    Senator Biden. That is a civilian defense force you are 
talking about.
    Mr. Wolfowitz. A civilian defense force.
    Senator Biden. How long do you expect that to----
    Mr. Wolfowitz. We believe we can have thousands of those 
people available within about 45 days. That is----
    Senator Biden. Within 45 days. And how about the police?
    Mr. Wolfowitz. The police we are standing up rapidly. And 
as you noted correctly, at the police academy, they are not all 
equally good. I visited a group down in Basr that still are 
struggling. But up north in Kirkuk, for example, the Iraqi 
police have taken over the whole function of----
    Senator Biden. The Iraqi police have taken over--well, OK. 
I find this kind of incredible. The picture you painted is--are 
there any substantive changes of consequence you are 
recommending to the President or is everything going along as 
planned? You have everything on course here, and everything is 
pretty well in hand? I mean, you told us about how the military 
says we are well ahead of where we were in Bosnia. Are you 
happy with where we are right now?
    Mr. Wolfowitz. Senator, I am not happy with where we are 
right now. And if there is any way to accelerate anything, we 
are looking at it. We are looking at how to accelerate training 
Iraqis. I have talked about that at some length. We are looking 
at emergency ways of accelerating electric power production. 
Some of that is already under way. I believe the reason we are 
able to get the oil production up over a million barrels a day 
was because we brought in portable generators to provide 
electricity. That is the kind of thing----
    Senator Biden. The report called for, what, 5,000 of those? 
Are they up--550 diesel-driven emergency generators to be 
installed, are they up and running?
    Mr. Wolfowitz. I can check that for the record. I do not 
know the detail. But that is an example of where we are looking 
at acceleration. We are looking at acceleration in some non-
military areas. For example, up north one of the big issues is 
so-called de-Arabization. A lot of Kurds and some Turks were 
moved out of their homes in a kind of slow motion ethnic 
cleansing. And Arabs were moved in. The Arabs would be happy to 
leave, but it is going to take some money and some legal 
efforts to do that. We would like to get that started more 
quickly than was originally planned.
    [The following response was subsequently received.]

    Numerous emergency generators were used to accelerate oil 
production in an effort to establish reliable power at pumping stations 
and refineries across Iraq. In early July oil production ranged between 
680,000 gallons and 747,000 gallons per day. Our efforts to increase 
production were impeded by fluctuating power levels. To remedy this, 
the U.S. Army Corps of Engineers Task Force Restore Iraqi Oil (``TF 
RIO''), along with the Ministry of Oil and Power, worked together to 
provide and install two 12.5 MW generators at the Basrah plant. In 
addition, six 1 MW generators were placed at critical oil facilities by 
the Southern Oil Company, Kellogg, Brown & Root. These measures were 
necessary to provide primary power until the electrical grid was 
restored. The combined effect of these emergency generators provided 
reliable power to the critical oil production facilities and allowed 
oil production to surpass one million barrels per day.

    Mr. Wolfowitz. Your point, Senator, which I agree with, is 
there is a window of opportunity here. I cannot measure how 
long it is. But I do believe that the sooner we move within 
that window, the better off we will be further out in the 
future, and that money invested now, even if it is not quite 
efficient, will save us a lot of money in the long run. And 
money invested on the civil side can help bring down that $4 
billion a month that we are currently spending on our troops.
    Senator Biden. My time is up. But I am confused. General 
Myers, the Chairman of the Joint Chiefs, said if we get these 
30,000 additional foreign troops, that it will not be enough 
for us to reduce our military in Iraq for months, possibly 
years. And he said we need more than 30,000. I do not get you 
guys. I mean, Myers says that. You are telling me if we get 
these additional troops, we are going to draw down American 
troops.
    General Keane. Can I respond to that, Senator?
    Senator Biden. Sure.
    General Keane. The two pacing items that involve U.S. troop 
commitment is, one, obviously the level of violence and the 
security situation that we are currently facing. We have to get 
that down.
    And the second thing is the involvement of multinational 
forces and also the Iraqis themselves, the civil defense forces 
that the Deputy Secretary mentioned and also the Iraqi army and 
police forces.
    Those are our pacing items. And General Abizaid, when he 
looks to the future, does not want to look beyond March. But 
even with looking toward March, what he sees is definitely two 
multinational divisions probably by the end of September and 
the possibility of a third that has not been committed yet. But 
the State Department and Defense Department is working with 
that.
    If that does happen, that will reduce U.S. commitment by 
one division and also one brigade. And we are moving very 
quickly, obviously, to get the Iraqis to do more for themselves 
to help defend their own people. And that is in its embryonic 
stages.
    As those two items, the level of violence, multinational 
division participation, and also the Iraqis themselves will see 
us reduce the U.S. troop commitment.
    Senator Biden. These forces are nowhere. And I would be 
interested to see about your civilian force.
    But at any rate, I thank you.
    The Chairman. Thank you, Senator Biden.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Gentlemen, thank you for coming before us today. We 
appreciate very much you taking the time. And also to your 
colleagues, general, to our men and women in uniform around the 
world, our thanks, our gratitude. We are very proud of what 
they have done and what they are doing. And please extend that 
to them. Thank you.
    General Keane. Thank you, Senator.
    Senator Hagel. I would like to stay on this issue of 
manpower force structure and read just a short paragraph from a 
July 16 news conference that General Abizaid gave. And he said 
in that news conference 13 days ago, speaking of troop 
rotation, much of what we are talking about here, in specific 
reference to the 3rd Infantry Division, when they may rotate 
out, he picks it up at this point, he said 13 days ago, ``We 
will bring those troops home by September, certainly out of 
Iraq by September. And they will be moving toward home in 
September. And a lot of it, of course, will depend upon the 
rotational scheme that either the U.S. Army, U.S. Marine Corps, 
or allied coalition forces happen to submit to us in the next 
week. But we will know the specific answers to the questions in 
about a week.''
    Now that was 13 days ago. Do we know what the specific 
answers are?
    General Keane. Yes, sir. The army has put together a 
rotation plan and policy. It is 1 year in length, which means 
that the forces in being in Iraq will stay and do a 12-month 
tour. We have a history with this going back to World War II, 
where we stayed indefinitely. Korea, it was 6 months and 12 
months for combat forces and support forces. Vietnam, it was a 
12-month individual assignment, if you recall.
    And then since that time----
    Senator Hagel. Well, general, may I interrupt just a 
moment? I do not mean to be rude, because my time is short 
here. I understand that part of it. But what about numbers, 
relevant to what you have been hearing here? Are we any closer 
to understanding what is going to be required here in the way 
of American force structure?
    General Keane. Yes. Very specifically, we are essentially 
doing a one-for-one replacement of our forces. The 82nd 
Airborne Division and its headquarters and two brigades will be 
replacing the 3rd Infantry Division. There already is a brigade 
from the 82nd in the theater.
    Senator Hagel. But that is American for American.
    General Keane. That is correct.
    Senator Hagel. And so that would lead me to believe that we 
are going to keep those troops in there for a while, just as 
referenced Senator Biden's comments about General Myers's 
comments here recently, I believe July 24.
    General Keane. Yes. Well, to deal specifically with what 
you are talking about is there is a multinational division that 
is forming right now with a--Poland is going to be the head of 
that division. And that division, as it comes in place, will 
replace the Marine Expeditionary Force, which is there, which 
is essentially a division minus, and will take over their 
sector. And that is expected to take place in the September 
timeframe.
    Senator Hagel. But an American force structure is going to 
be required for some time to come.
    General Keane. Oh, absolutely. No question about it.
    Senator Hagel. And what I am trying to get at, like my 
colleagues have tried to focus on, do we have any idea of what 
that force structure is going to look like, understanding 
completely that these are dynamic issues, and they float and 
they move back and forth, and obviously depending on our 
international assistance?
    General Keane. We have----
    Senator Hagel. Can you help us here, general?
    General Keane. Sure. We have made a release that indicates 
which divisions are going to be replaced and what brigades will 
be replaced on a time schedule that takes us through the 
February/March timeframe, when all of the units that are 
currently in Iraq will be completing a 1-year assignment. And 
all those forces have been notified who they are.
    Senator Hagel. Would you say that American numbers, not 
specific units, but American numbers would remain about the 
same?
    General Keane. About the same. I mean, obviously----
    Senator Hagel. So we are talking 148,000 Americans.
    General Keane [continuing] We are going to have some slight 
reduction when we bring out the marines. That is about 9,000-
plus. And if a third coalition division comes in place, which 
we are working on right now, that will also reduce American 
numbers.
    But by and large, American numbers will remain the same 
with some slight reduction.
    Senator Hagel. Thank you. There is an interesting story in 
yesterday's Wall Street Journal, which I assume the three of 
you have seen, ``New Allies Struggle to Fill Role.'' And it 
does not paint a particularly positive picture about the force 
structure coming from international support, because the focus 
of this story's headline, ``Strains Country's Resources,'' just 
like our force structure, I suspect, is under some strain, when 
you look at 33 combat brigades, 24 of them overseas. And you 
know the numbers better than I do.
    But the point of this story is for us to look at allies to 
come in here, and to some extent rescue our force structure, is 
probably not realistic. I do not have enough time to go over 
this. But if you have not seen this, general and Secretary 
Wolfowitz, you each might want to take a look at this, because 
it is not as positive as we have been led to believe by some of 
our people here in this government.
    One last question to Director Bolten. Is it my 
understanding, Director Bolten, that you will not be coming up 
here with a line item for 2005 for the Iraqi account in the 
fiscal year 2005 budget? You will not be coming up with a 
specific request in that budget next year?
    Mr. Bolten. Well, I cannot say what will be in the budget 
next year. But Secretary Wolfowitz is right. We will be coming 
with a supplemental for 2004.
    Senator Hagel. But not in the--what you intend to do right 
now, not in a fiscal year 2005 budget request that you always 
come up to the Hill early in the year with. You do not intend 
to have that line item in there.
    Mr. Bolten. I do not anticipate that, because I think it 
would be, as it has in the past, be needs above and beyond our 
normal needs for the military, more likely to be handled in a 
supplemental, as we are handling them now.
    Senator Hagel. My time is up. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hagel.
    Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman. And let me 
begin by thanking you, Mr. Chairman, once again for the series 
of these hearings. They have been tremendously helpful and 
worthwhile. And I want to underscore the comments of Senator 
Hagel, as well, general. We have deep appreciation here for the 
tremendous job the U.S. military has done and have great 
appreciation for the tremendous stress that they are facing 
today with the reports almost on a daily basis of some 49, I 
guess, now is the number that have been killed since May 1. And 
we want you to convey to all of your personnel our deep sense 
of gratitude for the tremendous job they have done here.
    General Keane. Thank you, Senator.
    Senator Dodd. Let me, if I can in the time that we have 
available to us, I am interested, Secretary Wolfowitz, about 
what our intentions are regarding a U.N. resolution and 
additional cooperation. I looked at the numbers here of the 
June 28 report of the humanitarian assistance we have received 
from other nations. There are some 29 nations that have pledged 
about a little over $1 billion. About half of that has come 
from the United States, $560 million.
    Looking at the Hamre report, which says, and I agree with 
it, that the next 12 months, in fact the next 3 months, may be 
absolutely crucial, both in terms of the Iraqi population 
beginning to see that we can get a handle on all of this. And I 
think that probably extends to other nations around the globe 
in terms of their willingness to step up and be cooperative and 
be helpful, putting aside the question of whether or not we 
should have sought more cooperation for the coalition before 
going into Iraq initially.
    I wonder if you might respond very specifically to whether 
or not we are going to seek a U.N. resolution for humanitarian 
cooperation. And if so, when will we do that? What is the 
nature of that resolution, if we are going to seek it?
    Mr. Wolfowitz. Senator Dodd, that is something that 
Secretary Powell is exploring right now. And I should not 
comment on--in fact, I do not know exactly the status of all of 
his discussions. We would certainly welcome any resolution that 
would make it easier for countries to contribute peacekeeping 
troops. Some had said that it would make it easier for them.
    I have to note that that is not necessarily the real 
reason. I think it is important to recognize that, again, there 
is a connection between security and peacekeeping. It is much 
easier to bring in a foreign unit in an area that is already 
stable. And as we improve our ability to stabilize the country, 
I think we will get more contributors. The U.N. resolution 
would help.
    Senator Dodd. But is that not the chicken and egg, though? 
Is that not a bit of chicken and egg? Certainly security is 
critically important, but to get security, the notion somehow 
that there is going to be more international cooperation, 
others coming in, other than just taking on this role almost 
exclusively with the obvious exception of the British, does 
that not in effect contribute to more stabilization and 
security, if there are more people involved in helping us----
    Mr. Wolfowitz. Not necessarily.
    Senator Dodd [continuing]. Bring about the kind of 
suggestions that Secretary----
    Mr. Wolfowitz. For the security problem you have to have 
troops that are willing to take real risks and to fight. Our 
troops are. Some of our allies, as the British certainly are. 
And I believe Iraqis would. But if you have troops that really 
think of themselves there as peacekeepers, then you can only 
put them in areas where there is peace.
    The other thing that is really important here----
    Senator Dodd. Well, let me----
    Mr. Wolfowitz [continuing]. We welcome the U.N. role. The 
U.N. has been positive. For example, Sergio de Millo, the 
Secretary General's Special Representative, has played an 
important role. But as Senator Biden said, speed is of the 
essence here. And the U.N. is not always speedy. That is why 
Ambassador Bremer is very anxious to make sure that he 
preserves his authorities to move the process forward as 
rapidly as possible, so that we can transfer authority, not to 
some other international agency, but to the Iraqi people 
themselves.
    Senator Dodd. Right. So my sense, if I had to be sitting 
here and trying to glean from your statements here, you are not 
overly enthusiastic about a U.N. resolution, at least a U.S.-
authored one.
    Mr. Wolfowitz. No. Wrong. I would be very enthusiastic 
about the right kind of resolution and very concerned about the 
wrong kind. And that is why Secretary Powell is engaged in what 
is a difficult discussion.
    Senator Dodd. Well, let me ask you here. As I look through 
the Hamre report, and he starts talking about what needs to be 
done over the next 12 months, the next 3 months, and he talks 
about obviously security is mentioned as No. 1, but he quickly 
moves to Iraqi ownership, a rebuilding process in the country, 
get people back to work as quickly as possible. I listened to 
some reports about what we are doing in terms of private 
enterprise in the region, in the country, the decentralization, 
intense and effective communications.
    You go on down a lot of these functions here, he says they 
are absolutely critical to get moving on immediately. And I 
just question you whether or not, in fact, our emphasis here on 
the security side of this, and not simultaneously moving to 
build the kind of cooperation necessary to bring around the 
political stability, is wise.
    Mr. Wolfowitz. I think you either misunderstood me or 
certainly--let me just say I think Director Bolten stated it 
very clearly. We have a four-part strategy. I think Ambassador 
Bremer briefed it to the full Senate in closed session, of 
which security is just one piece. It is security. It is 
restoring basic services. It is getting the economy going. And 
it is moving forward on governance.
    And what I tried to say by saying you cannot separate 
security from rehabilitation or reconstruction, and you cannot 
separate reconstruction/rehabilitation from security, you have 
to have a strategy that tries to move forward on all those 
fronts at the same time. If you try to just move one of those 
pieces, it is not going to go very far, because the other ones 
are going to hold you back.
    Senator Dodd. I do not disagree with that conclusion. But, 
I mean, look at the Coalition Provisional Authority 
organization and the Coalition Provisional Authority, the 
charts here.\2\ As you are looking down the number of people 
involved, first of all, on the Coalition Provisional Authority 
chart, which was handed out, there are some--the total CPA 
numbers of a little in excess of 1,000, 1,147. There is 
Department of Defense, 332 people who work with that authority. 
The military, 268. Contractors, 300. Other USG personnel--
Department of State is 34 people out of the 1,147 people.
---------------------------------------------------------------------------
    \2\ The charts referred to can be found beginning on page 85.
---------------------------------------------------------------------------
    And then I look at the Coalition Provisional Authority 
organization that runs from the President to the Secretary of 
Defense to Ambassador Bremer and then other subsequent charts 
which talk about this structure over here, nowhere do I see the 
Secretary of State even mentioned here at all. I understand 
simultaneity, that you have to work both, you cannot just have 
security. But you start talking about, though, the 
organizational charts, and the number of personnel involved in 
dealing with what we talk about is absolutely critical 
functions of this country, if you are going to establish the 
kind of stability along with security that you need to have, I 
do not see that reflected at all in the number of personnel 
involved in the coalition or even the presence of the Secretary 
of State in the organizational chart, a flowchart, of where 
authority flows from the President on down.
    Where is he in all of this? How do you do these things? You 
cannot ask the military to do all of this.
    Mr. Wolfowitz. Senator Dodd, the CPA staff is a very 
interagency staff. In fact, many of Ambassador Bremer's key 
people, including his deputy for the whole political governance 
operation, is a senior State Department Ambassador, Ryan 
Crocker.
    There are a large number of USAID people in those numbers. 
I do not know under which category they come. I am a little 
puzzled. I think they must come under contractors. I think 
USAID is the largest single component in the CPA.
    But let me make another point, too. We are not going to run 
Iraq with 1,147 CPA people. The whole goal is to get Iraqis 
running Iraq. And we have been quite successful in a number of 
places. The foreign ministry is a dramatic example where I 
believe two State Department advisors, I think, maybe only one, 
a Rumanian ambassador, and a lot of Iraqis have basically 
cleansed that ministry of some 200 Iraqi intelligence officers, 
because the Foreign Ministry was a hotbed of the Iraqi 
intelligence. They are proudly up and working. It is just--the 
spirit is inspiring. That is how we get it going, is with 
Iraqis.
    So there are--I believe I met more State Department people 
on my visit at CPA than I met people that I recognized from the 
Pentagon. So I----
    Senator Dodd. You understand my concern.
    Mr. Wolfowitz. Ambassador Bremer is getting the people he 
needs.
    Senator Dodd. Well, look at the flowchart for a second 
here. Where is, in all of this, the Coalition Provisional 
Authority organization? President, Secretary of Defense, CPA 
administrator. Where is--is there any role here for the State 
Department. So much of what is talked about here requires 
political structure and organization, understanding language, 
culture, customs. It is unfair, in my view, and wrong to ask 
the military to take on that kind of responsibility. That is 
one of the major concerns here. Where is he in this?
    Mr. Wolfowitz. Let me emphasize there are a great number of 
State Department people in the CPA, including Ryan Crocker and 
other people who are Arabic speakers. And when it comes to 
coordinating the police guidance, it comes from the President, 
who is advised by the National Security Council on which the 
Secretary of State sits.
    But what we have tried to have here is a relatively clean 
line of organization that would allow us to get things done 
efficiently and would allow us to do the crucial job of 
coordinating between the military security tasks, which report 
through General Abizaid to Secretary Rumsfeld, with the 
civilian governance and rehabilitation tasks, which report 
through Ambassador Bremer.
    Both of them go ultimately to the President, who pays close 
attention to these issues. And the Secretary of State has a 
great deal of input, both at the NSC level and at working 
levels. This is a real interagency effort. And the spirit in 
Baghdad is an interagency spirit.
    Senator Dodd. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Dodd.
    Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman. Welcome, 
gentleman.
    As you can see, a lot of the questions here relate to the 
high cost of the war, not only in resources, but in human 
lives, of course. And I would like to get at the key question 
of what we are really doing there. And, of course, in the 
months leading up to the war, it was a steady drumbeat of 
weapons of mass destruction, weapons of mass destruction, 
weapons of mass destruction.
    And Secretary Wolfowitz, in your almost hour-long testimony 
here this morning, once, only once, did you mention weapons of 
mass destruction. And that was an ad lib. I do not think it is 
in any of your written testimony.
    And so we are shifting justifications, I think, for what we 
are doing there. At a hearing in May, I asked Secretary 
Wolfowitz the question. A lot of your answer dealt with that it 
will help with the peace between the Israelis and the 
Palestinians. And now there has been allegations that this will 
help with our war on terrorism. But we just have not seen the 
proof of any linkage between Saddam Hussein and al-Qaeda.
    And now, today, it is the testimony over and over again 
about what a despicable tyrant Saddam Hussein is, who 
brutalized his people. But at the same time, in Liberia, 
Charles Taylor has been indicted. And according to the 
prosecutor, he is responsible for the killing, raping, and 
maiming of 500,000 people. And the arrest warrant issued by the 
U.N.-backed court in Sierra Leone charged Taylor with unlawful 
killing, sexual and physical violence, use of child labor and 
child soldiers, looting, burning, and the murder of U.N. 
peacekeepers.
    And it also alleges that Taylor had a close alliance with 
the notorious murderous Revolutionary United Front in Sierra 
Leone. The RUF was infamous for dismembering its victims, 
having a cut hand unit to chop off limbs, and a burn house unit 
to torch houses of suspected opponents. And Taylor once had his 
13-year-old daughter publicly flogged for misbehaving in 
school.
    At the same time, human rights watch is saying that Charles 
Taylor is one of the single greatest causes of spreading wars 
in West Africa. And so all the testimony this morning, and 
indeed the submission of the op eds, is about what a tyrant 
Saddam Hussein is, who brutalizes his people. But we are doing 
nothing in Liberia.
    So it comes back to the questions of the unified message 
coming from the administration as to what we are doing there 
and why we did not wait for the United Nations Security Council 
to do their inspections. Now we are in this endeavor, huge 
costs, not only in resources, but in lives. So I will ask the 
question, Secretary Wolfowitz, give you a chance: What are we 
doing there?
    Mr. Wolfowitz. Senator Chafee, what we have done there is 
to remove a regime that was a threat to the United States. We 
have said all along, if you go back to Secretary Powell's 
presentation at the United Nations, all three of those concerns 
were stated very clearly. The concern about weapons of mass 
destruction, the concern about Saddam's links to terrorism, 
which are there, not as clear as the case on weapons of mass 
destruction----
    Senator Chafee. Mr. Secretary, can I just interrupt? I am a 
cynic. So when you make these assertions, give some proof. A 
threat to the United States? How?
    Mr. Wolfowitz. I would suggest go back and read--if you 
want to give me an hour, we can have a different kind of 
hearing. But if you go back and read Secretary Powell's 
testimony, it is very clear. And it is the concern that the 
combination of weapons of mass destruction and terrorists poses 
a kind of threat which maybe 10 years ago we thought we could 
live with. And I would have said 10 years ago my whole view 
about Iraq would have been very different. Ten years ago, I 
would have said Iraq, as terrible as it is, is a problem for 
the Iraqi people.
    I said all along I believed we should have given those 
people more help in getting rid of that tyrant. But September 
11 put it in a different light. And taking on that tyrant 
forcefully meant in fact, if anything, that we had to take that 
threat more seriously.
    So all three of those concerns are stated in Secretary 
Powell's testimony. I talked about----
    Senator Chafee. Can I interrupt one more time?
    Mr. Wolfowitz [continuing]. The mistreatment of the 
people--could I-----
    Senator Chafee. Let me interrupt, because my time is 
limited, unfortunately. You just said that this 10 years ago 
you would not have agreed to a regime change. However in 1998, 
you, as a member of the New American Century, sent a letter to 
President Clinton----
    Mr. Wolfowitz. Senator, I said something different. I said 
ten----
    Senator Chafee. Now wait a second. You were saying that we 
are seeing it in the light of September 11. That is just not 
true. You have been advocating for regime change all through 
the late nineties. And in this letter, the----
    Mr. Wolfowitz. Can I explain? There is a very clear 
difference----
    Senator Chafee [continuing]. Strategy should aim, above 
all--this is 1998. ``That strategy should aim, above all, at 
the removal of Saddam Hussein's regime from power.'' You signed 
that letter.
    Mr. Wolfowitz. Senator, there is a very big difference. I 
was very clear. I do not know if it is in that letter, but 
elsewhere, I never thought before September 11 that we should 
use tens of thousands of American troops to do the job for the 
Iraqis. I never thought we should go to Baghdad, even at the 
end of the gulf war, when I thought we should have done some 
other things we did not do.
    I thought up until September 11 that our job was to help 
the Iraqi people. I think the mistake we made in 1991 was they 
rose up against Saddam, and they got no help from us. September 
11 changed the stakes, in my view, for the United States and 
made it a different matter in terms of using American troops.
    The end is the same. But you are not distinguishing the 
means. And the means are absolutely crucial. Putting American 
troops, lives, at stake is something that we do when our 
security is threatened. Our security was threatened. The troops 
out there, I think, understand that it is threatened. I think 
they understand that they are part of fighting the war on 
terrorism as we go on today. And that is important.
    And by the way, I agree with you. Charles Taylor is a 
monster. And we are trying with the United Nations and with 
West African states to get a plan together that will get him 
out of Liberia. We also need to do it in a way that does not 
bring on yet another kind of slaughter. Because the people 
going after Charles Taylor may not be an awful lot better than 
he is. And that is part of our problem there.
    Senator Chafee. Well, I will just finish up by saying I 
really resent when witnesses talk that this is in the light of 
September 11 when the evidence is to the contrary. The steady--
--
    Mr. Wolfowitz. Senator, you are misrepresenting what I said 
in that letter.
    Senator Chafee. Yes. You have over and over again, through 
the late nineties, urged regime change in Iraq.
    Mr. Wolfowitz. Can I try again, then, since I believe you 
are not representing my views properly? It is true I thought 
from the end of the gulf war up until September 11, 2001 that 
it was important for the United States to help Iraqis get rid 
of that regime. And that is a policy of regime change.
    But I did not believe that it was either necessary or 
justified to use large-scale American military forces to do 
that job. At the end of the gulf war, all it would have taken 
was a minimum application of U.S. air power and some of the 
artillery that was sitting on the south bank of the Euphrates 
River.
    September 11 changed the stakes for us, in my view, 
dramatically. And it changed the whole way of looking at an 
uncertain, but still disturbing, threat of the combination of 
weapons of mass destruction and terrorism.
    Senator Chafee. Well, I wish we had more time.
    [The letter Senator Chafee referenced follows:]

                      The Project for New American Century,
                                  Washington, DC, January 26, 1998.

The Honorable William J. Clinton
President of the United States
Washington, DC

    Dear Mr. President:

    We are writing you because we are convinced that current American 
policy toward Iraq is not succeeding, and that we may soon face a 
threat in the Middle East more serious than any we have known since the 
end of the Cold War. In your upcoming State of the Union Address, you 
have an opportunity to chart a clear and determined course for meeting 
this threat. We urge you to seize that opportunity, and to enunciate a 
new strategy that would secure the interests of the U.S. and our 
friends and allies around the world. That strategy should aim, above 
all, at the removal of Saddam Hussein's regime from power. We stand 
ready to offer our full support in this difficult but necessary 
endeavor.
    The policy of ``containment'' of Saddam Hussein has been steadily 
eroding over the past several months. As recent events have 
demonstrated, we can no longer depend on our partners in the Gulf War 
coalition to continue to uphold the sanctions or to punish Saddam when 
he blocks or evades UN inspections. Our ability to ensure that Saddam 
Hussein is not producing weapons of mass destruction, therefore, has 
substantially diminished. Even if full inspections were eventually to 
resume, which now seems highly unlikely, experience has shown that it 
is difficult if not impossible to monitor Iraq's chemical and 
biological weapons production. The lengthy period during which the 
inspectors will have been unable to enter many Iraqi facilities has 
made it even less likely that they will be able to uncover all of 
Saddam's secrets. As a result, in the not-too-distant future we will be 
unable to determine with any reasonable level of confidence whether 
Iraq does or does not possess such weapons.
    Such uncertainty will, by itself, have a seriously destabilizing 
effect on the entire Middle East. It hardly needs to be added that if 
Saddam does acquire the capability to deliver weapons of mass 
destruction, as he is almost certain to do if we continue along the 
present course, the safety of American troops in the region, of our 
friends and allies like Israel and the moderate Arab states, and a 
significant portion of the world's supply of oil will all be put at 
hazard. As you have rightly declared, Mr. President, the security of 
the world in the first part of the 21st century will be determined 
largely by how we handle this threat.
    Given the magnitude of the threat, the current policy, which 
depends for its success upon the steadfastness of our coalition 
partners and upon the cooperation of Saddam Hussein, is dangerously 
inadequate. The only acceptable strategy is one that eliminates the 
possibility that Iraq will be able to use or threaten to use weapons of 
mass destruction. In the near term, this means a willingness to 
undertake military action as diplomacy is clearly failing. In the long 
term, it means removing Saddam Hussein and his regime from power. That 
now needs to become the aim of American foreign policy.
    We urge you to articulate this aim, and to turn your 
Administration's attention to implementing a strategy for removing 
Saddam's regime from power. This will require a full complement of 
diplomatic, political and military efforts. Although we are fully aware 
of the dangers and difficulties in implementing this policy, we believe 
the dangers of failing to do so are far greater. We believe the U.S. 
has the authority under existing UN resolutions to take the necessary 
steps, including military steps, to protect our vital interests in the 
Gulf. In any case, American policy cannot continue to be crippled by a 
misguided insistence on unanimity in the UN Security Council.
    We urge you to act decisively. If you act now to end the threat of 
weapons of mass destruction against the U.S. or its allies, you will be 
acting in the most fundamental national security interests of the 
country. If we accept a course of weakness and drift, we put our 
interests and our future at risk.

            Sincerely,

          Elliott Abrams                      Richard L. Armitage
          William J. Bennett                  Jeffrey Bergner
          John Bolton                         Paula Dobriansky
          Francis Fukuyama                    Robert Kagan
          Zalmay Khalilzad                    William Kristol
          Richard Perle                       Peter W. Rodman
          Donald Rumsfeld                     William Schneider, Jr.
          Vin Weber                           Paul Wolfowitz
          R. James Woolsey                    Robert B. Zoellick

    The Chairman. Thank you very much, Senator Chafee.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    The hearing has focused on the question of resources. And 
that is very important. Because the American people are being 
asked to shoulder a tremendous burden in Iraq. And I do think 
we need more clarity on costs. And we need to be responsible 
about making this a part of the regular budget, not keeping it 
off the books as if it were some kind of surprise. In fact, 
that was my central emphasis on the budget committee and in the 
budget resolution, trying to kick the ball for the first time 
and say, could we at least be honest with the American people, 
that this is going to cost something? And I think that is 
terribly important and the purpose for the hearing.
    But, Mr. Chairman, as I listen to Senator Chafee, I am just 
astonished at our agreement. I started using this phrase 
shifting justifications a year ago, in response to my inability 
to see what was the real purpose of the invasion of Iraq. 
Senator Chafee is right, what he said about Liberia. And there 
is even more to it. There is a heck of a lot of better evidence 
of possible al-Qaeda connections with regard to their financing 
of their operations in Liberia than there ever has been with 
regard to Iraq.
    And I cannot vouch for the absolute validity of that. But 
if you are focused on the war against terrorism, you would 
certainly be focused on Liberia at least as much as Iraq.
    And so I want to be sure that I understand your assertions 
here today. You said in your statement, ``In fact, the battle 
to secure the peace in Iraq is now the central battle in the 
global war on terror.'' Not stabilizing Afghanistan, where we 
know that al-Qaeda still operates.
    Am I to understand that the way to defeat global terrorists 
who use international networks is to have the United States' 
administration act on what you have described in your own 
words, Secretary Wolfowitz, as ``murky intelligence, when this 
action alienates important allies in fighting terror, in places 
that do not appear to have meaningful links to al-Qaeda? That 
seems to be what you are saying.
    I mean, it sounds as if we basically walked through the 
looking glass here. While our brave troops were marching into 
Baghdad, on that very day, some of those responsible for the 
attack on the USS Cole, which you cited as a cost of our Iraq 
policy, were escaping from a prison in Yemen. People with known 
al-Qaeda connections, people who have been subsequently, after 
the escape, indicted. I would ask you, Secretary Wolfowitz, are 
you sure we have our eye on the ball?
    Mr. Wolfowitz. I am absolutely sure we have our eye on the 
ball. And the ball is a global one. As I said in quoting 
General Abizaid at some length, you cannot view this through a 
soda straw. You cannot focus exclusively on Iraq. You cannot 
focus exclusively on Afghanistan. And you cannot focus 
exclusively on those two things.
    Although from a military point of view, those are our two 
principal tasks. As the President has said over and over again, 
fighting this war is going to require all the instruments of 
national power. We are applying them across the board. We have 
made some very big gains in the war on terrorism globally over 
the last few months, including rounding up some of the most 
serious terrorists, one of whom was the mastermind of September 
11, Khalee Sheik Mohammed.
    Does it mean it is a uniform gain? No. You are right that a 
couple people got away in that prison escape in Yemen. We are 
trying to find out why. General Abizaid has just been in the 
Horn of Africa, where we are looking very closely at what is 
going on there and what can be done to stop it. And it is not 
just a military effort.
    But also, let us be clear, it is going to be a long 
struggle. We have made gains, but we are still vulnerable. We 
are vulnerable as a county to some very severe attacks. But 
there is no question in my mind that we will be much more 
secure when we win this battle in Iraq. And we will win it. And 
then we will have a valuable ally in the Arab world instead of 
a country that is a source of instability and sanctuary and 
resources and other things for terrorists.
    And I think the terrorists understand that that is why so 
many of them have come to Iraq to fight. It is interesting, 
when we met with marines who had that eastern flank advance up 
to Baghdad. I asked General Mattis what the opposition was 
like. He said the main people who fought us were the Fedayeen 
Saddam and the foreign terrorists. And I said, ``How do you 
know they were foreigners?'' He said, ``Well, we found a lot of 
passports on the corpses that were from foreign countries. And 
some of them even said in the entry permit the purpose of their 
visit to Iraq was to perform jihad and to kill Americans.''
    It is much better, as General Abizaid has said, to be 
killing those people in Iraq than to have them come here and 
kill Americans.
    Senator Feingold. Well, Mr. Chairman, I would certainly 
suggest, and in fact I think your comments, Mr. Secretary, 
suggest that these people came to Iraq in large because of our 
actions, vis-a-vis Iraq. And at the same time, we are not doing 
so well, in my view, with regard to the war against terrorism 
in places such as East Africa and Afghanistan and even in 
situations such as West Africa. We can only do so much.
    I mean, this hearing is about resources, financial 
resources and others. We also can only accomplish a few things 
well at one time. And in my view, the over emphasis on Iraq has 
caused a serious erosion in our ability to go after the actual 
operatives who are trying to kill us and our children.
    Mr. Wolfowitz. I think that is simply wrong, Senator.
    Senator Feingold. Mr. Bolten, do you--did you want to 
respond to that?
    Mr. Wolfowitz. Well, I disagree with that strongly. I think 
we have maintained pressure across the board, and not just 
military pressure, pressure through the intelligence agencies, 
pressure through law enforcement agencies. And I would also 
emphasize, as I think I said to the chairman, the war on 
terrorism is a two-front war. One front is killing and 
capturing terrorists. The other front requires something more 
positive, something that builds hope in the Muslim world, and 
especially in the Arab world, that can be a counter to the evil 
appeal that bin Laden and his followers hold out.
    And success in Iraq is going to be important in that 
respect. And that is why the terrorists, along with the 
Baathists are targeting our success. They want to bring back a 
terrible regime. And if I spend a lot of time talking about how 
terrible that regime was, it is because I did not come here, 
Senator, to talk about the justifications of the war. I came up 
here to talk about what is needed for reconstruction and 
rehabilitation.
    Frankly, Iraqis do not care----
    Senator Feingold. I am going to interrupt you, Mr. 
Secretary, and say I did not come here planning to discuss this 
whatsoever. This was a hearing about resources. It was only 
when your testimony at length stated that Iraq is the central 
location on the war against terror, it became impossible for me 
to ignore such an extreme interpretation of what is happening 
in the world.
    I think the American people are on to this idea and are 
aware that this administration has grossly exaggerated the 
connection between the war on terrorism and the Iraq situation. 
And I would strongly suggest we focus on the merits of trying 
to deal with the Iraq situation that we have at hand instead of 
constantly trying to pretend that September 11 and Iraq are the 
same issue.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    I thank Chairman Lugar and Senator Biden for holding this important 
hearing, and for all of their work over the past year on structuring a 
series of hearings relating to U.S. policy in Iraq. These hearings have 
proven to be invaluable tools, if not always for getting concrete 
answers, at least for clarifying important questions.
    Today's hearing focuses on the tremendous resource demands that 
confront us as we survey the situation in Iraq, where insecurity 
continues to plague both American troops and Iraqi civilians, where the 
national economy remains largely an abstract concept rather than a 
concrete reality, and where mammoth reconstruction needs stand in the 
way of lasting stability and development. I am glad that we are taking 
a hard look at these issues, because right now they represent an 
immense burden that weighs on the American people. We cannot afford to 
sweep these costs under the rug, or to conjure up rosy but unrealistic 
scenarios to calm the anxiety many feel when they look at the real 
commitment of troops and dollars that the U.S. has made to Iraq.
    In my view it is a bit late to be getting honest information about 
these costs now. I wish that the administration had been more 
forthcoming about these issues before, rather than after, deciding to 
go to war without broad international support. But today, we must deal 
with the facts on the ground.
    I did not think that the go-it-alone mentality served this country 
well in the lead-up to conflict in Iraq, and I do not think that it 
serves us well now as we confront these enormous costs. The rest of the 
world has an interest in Iraq's stability. But they will not come 
forward without some sense that they are participating in an effort 
that is multilateral in its decision-making, not just its billing 
practices. I hope that today we will explore how the administration 
might take some steps that will increase the comfort level of other 
donors and shift some of this burden off of American shoulders.

    The Chairman. Thank you, Senator Feingold.
    Senator Allen.
    Senator Allen. Thank you, Mr. Chairman. Thank you, 
gentlemen. And thank you to all the troops and others in the 
Department of Defense who are working to protect our country.
    From my perspective, these are historic and 
transformational times. The implications are as profound as 
some of the decisions that were being made insofar as the cold 
war is concerned.
    History in Iraq, history in the Middle East, United States 
history, all are being written with the decisions that are 
being made right now and in the next few weeks, months, and 
years. The future of Iraq is being determined step by step by 
every single decision. The larger implications for the Middle 
East are at stake here with the opportunities there may be in 
Iraq.
    But most importantly, I think the future of the United 
States is at stake. No. 1, financially and budgetarially. 
Second, our security. Our success here will have an impact on 
our security. And third, in the larger sense, the reputation 
and the credibility of the United States in the ongoing war on 
terrorism is at stake here. It is the credibility and 
reputation with our friends, as well as our credibility and 
reputation with our foes or potential foes.
    I think we need to persevere. We can carry on endlessly 
about one aspect of minutiae versus the other. But here we are 
in this situation. And I think we need to stick to Ambassador 
Bremer's strategic plan, or our strategic plan, on the economic 
and the political aspects of the reconstruction of Iraq. I 
think it is a good, logical strategic plan on principles, as 
well as the practicalities of it.
    We will have to call audibles. You cannot always determine, 
as Ambassador Bremer said, what is going to arise. But you have 
to be ready to adapt and react to those situations and stick to 
your principles. I believe that we do need to win this peace, 
and we have to do it honorably.
    Secretary Wolfowitz, you talked about how central Iraq was 
in the war on terrorism. I think we will all grant that 
Afghanistan is central. It is not a one-front war. One thing 
that we hear reports on from time to time, and it seems to be 
in the media, is that there are foreign terrorists coming into 
Iraq. And I would hope that you or maybe the general could 
share with this committee information about these reports of 
foreign terrorists coming in to Iraq.
    There is an assertion that the presence of United States 
troops in Iraq act as a magnet for anti-American terrorists 
from throughout the region and throughout the world. In other 
words, they would love to be able to hit us here, but they 
cannot get here as well as they can get to Baghdad or outside 
of Baghdad.
    So could you share with us, Mr. Secretary or general, your 
information and intelligence insofar as are there terrorists 
coming into Iraq as part of these, say, mercenaries or other 
snipers to hit U.S. troops?
    Mr. Wolfowitz. Yes. And if I could take a minute of your 
time to go back to the earlier exchange and emphasize what I 
said, the battle to secure the peace in Iraq is now the central 
battle. We have to approach a long struggle like the war on 
terrorism with some strategic sense. A year ago or 18 months 
ago, I would have said the central battle, at least as far as 
the Defense Department is concerned, is Afghanistan. And I do 
not mean that Afghanistan has gone away. And I do not mean that 
Iraq is the central battle in the whole war. But right now it 
is where it is being fought. And that is why these terrorists 
are coming in there.
    It is true it is an opportunity to kill Americans, but they 
can kill Americans in a lot of other places. They understand 
that killing Americans, if it leads to our defeat and the 
restoration of that evil regime, is a huge victory for them. It 
is not as--that is why for them it is so central.
    We took out a camp in--in western Iraq a few weeks ago. I 
do not think we got anyone that was still alive, but much 
evidence, including passports, that these people were from 
outside, I think, from Syria, Sudan, Egypt.
    At dinner in Baghdad, I was sitting next to an Iraqi woman 
in her early thirties, a doctor. She said she had been moved 
out of her house before the war to make way for Sudanese, 
Egyptians, and Moroccans, who she concluded must have been 
shooting at Americans, because by the time she got back to her 
house, there had been an American tank shell that took it down.
    I mentioned General Mattis saying that many of the corpses 
they found had this kind of evidence of foreign participation. 
And one of the things that is most disturbing----
    Senator Allen. Well, presently, do you see them coming in?
    Mr. Wolfowitz. It is not easy to get in. We are trying to 
shut down the borders. One group, though, that is particularly 
dangerous is this group called Unsar al Islam, which is 
connected to that gentleman, Zurkowi, who was in Baghdad, whom 
Secretary Powell spoke about in his Security Council 
presentation. And these folks seem to be shifting between Iran 
and Iraq. We do not think they are officially supported by the 
Iranians, but they sometimes go across the border. And then 
they come back in. And these folks are particularly deadly.
    I do not know, General Keane, if you want to add to that. 
But the----
    General Keane. The three threats that we are really facing 
certainly deals, one, with the former regime loyalists. And you 
know they are the Baathists, the Fedayeens, the Iraqi 
Intelligence Service, the Special Security Organization, and 
also the Special Republican Guard. They make up the vast 
majority of the threat, although I cannot tell you equivocally 
what those numbers are. They were 100,000-plus, you know, 
before the war started. And they are considerably less in terms 
of what we are dealing with.
    We are also dealing with foreign terrorists, as the Deputy 
Secretary mentioned. We do not know what those numbers are, but 
we have evidence that they are there. And they come from a 
plethora of countries, from Syria, from Saudi Arabia, from 
Egypt, from Sudan, et cetera.
    And the other threat that we are facing is the Unsar al 
Islam, as well. And we did take out a terrorist training camp 
in western Iraq a few weeks, where we killed 75 of them. And 
they fought us tenaciously right down to the last man. And they 
were, for the most part, all foreign terrorists.
    So we know they are there, but we do not know the numbers 
that they are there in, Senator.
    Senator Allen. Thank you, gentleman.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Allen.
    Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman.
    I want to pick up just briefly on what Senator Chafee and 
Senator Feingold were getting at on this war on terrorism and 
your comment that, as I quote you in your speech, ``The central 
battle on terrorism is happening in Iraq.''
    I want to put into the record, Mr. Chairman, a page from 
this document put out by the Bush administration, ``The Network 
of Terrorism.'' It was put out a month after 9/11. And it has 
in the mid-part a page that says, ``Countries Where al Qaeda 
Have Operated.'' Iraq is not listed. This is after 9/11. I want 
to put that in the record.
    The Chairman. It will be placed in the record.
    [The information referred to follows:]2
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Boxer. I would like to talk about your testimony. 
And then I have a question on another matter. You said very 
eloquently that there is a desperate need in Iraq to get the 
economy going, a desperate need for jobs, and basic services, 
such as electricity. Let me assure you that those items are on 
the priority list in my home state. Jobs, getting the economy 
moving, and yes, affordable electricity after what the robber 
barons did to us.
    So I want to tell you that when my people hear what we are 
spending in Iraq right now, $45 billion a year, they are 
starting to ask me questions. And I cannot tell them what the 
outlook is, because you will not tell us. And not only will you 
not tell us that today, sir, you did not tell anybody before 
this war started, Mr. Wolfowitz. And I ask to put in the record 
your exchanges with Chairman Spratt, when you testified on the 
House side, on February 27 and your dancing around that issue 
in a way that was extraordinary. I do not have time to read it 
back to you. I would like to put that in the record.
    The Chairman. It will be placed in the record.
    [The House testimony of Deputy Secretary Wolfowitz 
follows:]

         February 27 Hearing Before the House Budget Committee

    Spratt. Mr. Secretary, yesterday The Washington Post said, 
``Administration officials said the Pentagon's estimate of $60 billion 
to $95 billion for a war and its immediate aftermath was certain to be 
eclipsed when the long-term costs of occupation, reconstruction, 
foreign aid and humanitarian relief were figured in.
    `` `President Bush was briefed on the war cost Tuesday, and is 
scheduled to receive detailed budget scenarios in the next week or 
two,' officials said.''
    Is that an accurate account?
    Wolfowitz. It may be an accurate account of what some anonymous 
administration official said, but I don't he knows what----
    Spratt. Well, that was my next question. Are we looking at the----
    Wolfowitz. I don't think he knows what he's talking--he or she 
knows what they're talking about. I mean, I think the idea that it's 
going to be eclipsed by these monstrous future costs ignores the nature 
of the country we're dealing with.
    It's got already, I believe, on the order of $15 billion to $20 
billion a year in oil exports, which can finally--might finally be 
turned to a good use instead of building Saddam's palaces.
    It has one of the most valuable undeveloped sources of natural 
resources in the world. And let me emphasize, if we liberate Iraq those 
resources will belong to the Iraqi people, that they will be able to 
develop them and borrow against them.
    It is a country that has somewhere between, I believe, over $10 
billion--let me not put a number on it--in an escrow account run by the 
United Nations. It's a country that has $10 billion to $20 billion in 
frozen assets from the Gulf War, and I don't know how many billions 
that are closeted away by Saddam and his henchmen.
    But there's a lot of money there, and to assume that we're going to 
pay for it is just wrong.
    Spratt. The $60 billion to $90 billion cost estimate is consistent 
with what staff on this committee have developed in the past year. It's 
just a bit above what the Congressional Budget Office projected would 
be the cost of such a war based on the costs in 1990.
    Is it in your ball park also?
    Wolfowitz. Congressman Spratt, I would go back to what I said at 
greater length in my opening statement. The ball park is so wide that 
it's almost any number you want to pick out of the air.
    It depends on the assumptions, it depends on how long the war 
lasts, it depends on whether weapons of mass destruction are used, it 
depends very importantly on whether the Iraqi army turns on Saddam 
Hussein--which I think is a distinct possibility--or whether some 
important pieces of it decide to fight. It is so dependent on 
assumptions that picking a number or even a range of numbers is 
precarious.
    Furthermore, in answer to Congressman Gutknecht's question, before 
the Gulf War in 1991 we had the whole world asking us to do the job of 
liberating Kuwait. Because the political situation at the time was 
such, my office initially proposed, ``Let's get some help from our 
allies.'' We organized what became known as Operation Tin Cup.
    We got, as I remember, $12 billion from the Japanese, a comparable 
number from the Germans, huge amounts from the Saudis, from the 
Kuwaitis, from the United Arab Emirates.
    You know the Germans would be difficult people to approach today, 
but, frankly, in the context of the reconstruction of one of the most 
important countries of the Arab world I think we will approach the 
Germans and many other countries.
    Spratt. Well, what happened to the Germans before was they got 
caught in a very, very embarrassing situation. They had exported some 
goods to Iraq that included machinery necessary for the production of 
unconventional weapons. They were very embarrassed by it, and part of 
the expiation for what they had done was about $8 billion.
    That raised the ante for everybody else, the Japanese, for example, 
and as a consequence we were able to raise $60 billion of the $64 
billion out-of-pocket costs of that war.
    It looks like now we're in the reverse situation, whereas before 
the coalition members were paying us money, this time we're having to 
pay the coalition money--substantial amounts.
    Wolfowitz. No, Congressman Spratt, 12 years ago the weaker members 
of the coalition, such as Turkey, were getting assistance from outside. 
The difference, as you point out, the German position is different. But 
believe me when Iraq is liberated I think we're going to find a lot 
more of what you're referring to.
    In fact, Germany is one of the largest exporters to Iraq in the 
world today. Maybe that has something to do with their current 
position, but it will certainly lead to a lot of opportunity for 
expiation later.
    And believe me, from what I heard from the Iraqi-Americans in 
Dearborn, the Iraqi people are going to demand it.
    Spratt. Well, let me ask you this: Was the president briefed on 
Tuesday on the war costs in detail?
    Wolfowitz. I wasn't in the meeting, Congressman.
    Spratt. Do you know if he was? I mean, the question I'm getting 
at----
    Wolfowitz. I know there was a meeting and I know they talked 
about----
    Spratt. You must have formulated some kind of cost. And the reason 
I'm pressing this issue is that we're getting ready to move a budget 
here, and the dollar amounts we're talking about for the likely costs 
of this war are pretty significant.
    That budget will probably contain reconciliation authority for two 
tax cuts that total--revenue reduction totals of $1.3 trillion. It 
might be pertinent to everybody, both sides, to know what the likely 
cost is going to be before we pass a budget resolution, and certainly 
before we undertake tax cuts of that magnitude.
    Shays. Thank you, I'm going to recognize Mr. Thornberry, then we're 
going to go to Mr. Moran, and then we're going to Mr. Hastings.
    Spratt. Normally I get--I'm a ranking member, I get to----
    Shays. You know what? You are the ranking member. And I would----
    Spratt. I got one last question, then.
    Shays. You are the ranking member. If you want to take advantage of 
that, go right ahead.
    Spratt. Yes, I do, I do, I do.
    Shays. Do you want to deprive one of these congressmen here? OK, 
fair enough, fair enough. I don't mean to----
    Spratt. These are good troops.
    Shays. The gentleman may continue.
    Spratt. Is anybody contributing money to us this time? Or do we 
expect to get any mitigation from--in the way of money from our 
coalition allies?
    Wolfowitz. I expect we will get a lot of mitigation, but it'll be 
easier after the fact than before the fact, unlike the last time.
    And let me underscore, too, what I said in that earlier 
intervention. Obviously, the Congress will need to know some numbers 
even though they're going to be estimates, because they're going to be 
dependent on assumptions and whatever we send up here will be based on 
assumptions that probably will turn out, within a couple of weeks, not 
to be correct.
    But all of that is if we go to war. There is still some small 
chance that we won't go to war.
    Wolfowitz. And we're in an extremely delicate point in everything 
that we're doing.
    And let me underscore it again: It's not just at the United 
Nations, we're working hard to try to get the U.N. to stand up to its 
responsibilities, it is also in putting together a coalition and 
getting a number of countries that are quite frightened of their own 
shadows, to put it mildly. And they're stepping up, though quietly, in 
a very bold way. And in some ways, most important of all, we're sending 
messages and signals to people inside Iraq.
    This is part of our public diplomacy. And if you'll forgive us for 
a few weeks, I think it's necessary to preserve some what the diplomats 
call ambiguity about exactly where the numbers are. But obviously, the 
Congress is going to have to know sooner rather than later.

    Senator Boxer. And I will say that I do agree with Senator 
Biden when he says that there is a certain lack of candor and 
honesty here. We know exactly what these things are going to 
cost, based on what we know so far. And when you say, well, it 
had cost us $30 billion over 12 years, in my calculations that 
is $2.5 billion a year, not $45 billion a year, to contain 
Saddam.
    Now when you talk to my people in my state, they want to 
know what are we spending, how does that compare with what we 
spend in this country. Forty-five billion dollars in Iraq. 
Well, we spend $23 billion a year on higher education. We spend 
$6.7 billion on HeadStart. We spend $31 billion on all of our 
highways. And veterans' medical care is $23 billion. And the 
NIH that is going to find the cure for all the diseases that 
plague our families, we spend $27 billion. And that is just to 
give you a clue of why $45 billion a year is more than anyone 
of those items. And my people at home say burden-sharing is 
what we want and what we expect.
    Now I have read books about how the 21st century, we all 
wanted to be the American century. The question is: What form 
does that take? In my mind, to be the American century means we 
are the leader, and other people follow. And other people share 
the burden. And if, Mr. Wolfowitz, you are convinced that this 
has become all about terrorism, then the whole world ought to 
be with us.
    And you talk about the Italians. They have given us 400 
troops. You talk about the Poles, 2,400. So how does that come 
close to what we are seeing? And by the way, the polls are not 
even--we are spending some of the money to support those 
troops.
    So I am very concerned about the direction that we are 
going. And in the end, it seems to me we need to use our 
influence in the world. You know, the President had the chance. 
He landed on the carrier. He declared the war over. Now you 
call the war a low intensity conflict. What is a low intensity 
conflict? I want you to know, when your kid dies, it is not a 
low intensity conflict.
    So we have a lot of problems with this, at least in my 
state. People in California are very edgy and very anxious.
    My question is about a bizarre and morbid new program that 
we are all reading about today in the newspapers, an 
administration activity that I view as profiting on death. It 
is setting up some type of a market for bets on where the next 
terrorist attack is going to take place, the next 
assassination. And people are going to profit on death.
    And that is coming from your Department of Defense. And I 
wonder what you feel about that program.
    Mr. Wolfowitz. My understanding--I learned about it first 
from the newspaper this morning, also. And my understanding is 
that it is going to be terminated. In fact, I think there will 
be an announcement today to terminate it. And we will find out 
exactly how this happened.
    Recognizing, by the way, that the agency that does it is 
brilliantly imaginative in places where we want them to be 
imaginative. It sounds like maybe they got too imaginative in 
this area.
    Senator Boxer. Well, if I could comment
    Mr. Wolfowitz. Let--you said, Senator Boxer----
    Senator Boxer. No, no.
    Mr. Wolfowitz [continuing]. If I might comment----
    Senator Boxer. No. Excuse me, sir. Excuse me, sir. You 
spoke for over an hour. I have like probably no time left, but 
just conclude on this. I do not think we can laugh off that 
DARPA program. There is something very sick about it. And if it 
is going to end, I think you ought to end the careers of 
whoever it was thought that up. Because terrorists, knowing 
they were planning an attack, could have bet on the attack and 
collected a lot of money. It is a sick idea.
    Thank you.
    Mr. Wolfowitz. Senator, I did not laugh at it. And I do not 
like what I have read about it.
    You said that the President declared the war was over. He 
did not do that. He declared the end of major combat 
operations. And he also said--this was on the Lincoln, and I am 
quoting--``We have difficult work to do in Iraq. We are 
bringing order to parts of that country that remain 
dangerous.'' And I agree with you, low intensity conflict is 
not a very good term, because if you are in it, it is not low. 
``We are pursuing and finding leaders of the old regime, who 
will be held to account for their crimes. The transition from 
dictatorship to democracy,'' the President said to the sailors 
on the Lincoln, ``will take time, but it is worth every effort. 
Our coalition will stay until our work is done. And then we 
will leave. And we will leave behind a free Iraq. I think the 
stakes here are enormous. I think our country will be safer 
when we win.''
    Senator Boxer. I think the world ought to get behind us on 
it.
    Mr. Wolfowitz. We are working on that.
    Senator Boxer. Yes. Well, you have to do better.
    The Chairman. Thank you, Senator Boxer.
    Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman. I want to thank 
the panel as well for being here with us today.
    Secretary Wolfowitz, for your putting forward that twin 
policy objective of fighting terrorism and providing hope, I 
chaired the Subcommittee on the Near East and South Asia during 
much of the late nineties as the ranking member, as the chair 
ranking member. And we held a number of hearings about what can 
we do in dealing with this region that had so much problems 
fomenting them and the prior administration really not focusing 
much on what we could do, passed the Iraq Liberation Act, which 
was to work with the outside opposition groups, voted on, 
supported broadly by the Congress, both Houses, signed by 
President Clinton.
    At that point in time, you testified at some of those 
hearings. And I think everybody was pretty consistent on what 
we needed to do was to work with the outside groups and that 
this regime was a horrible regime that had used chemical and 
biological weapons against its own people and against the 
Iranians, that had terrorist operating on its soil.
    And so it seems to me that we went from a very growing 
difficult situation in the late nineties to one where, after 
post-9/11, we had to deal with it, and then a huge bipartisan 
vote in the House and the Senate to support the use of troops 
in this situation in Iraq.
    I thought then, I think now that our most important and 
difficult foreign policy issue over the next 5 to 10 years is 
going to be our relationship within the Islamic region of the 
world and that the key force is going to have to be fighting 
terrorism, fighting those who would use very militant means and 
at the same time providing hope for a future, a different 
future, a future of democracy, a future of hope, a future of 
involvement of all the people. And it seems like you are on 
that course.
    I do not question that mistakes have been made and that 
difficulties lie ahead of us. But it seems like we finally got 
a diagnosis that you can move forward with, as difficult as it 
might be.
    I have three questions that I would like to ask and then 
see if I could get answers from whoever it might be to put 
these forward, one just a very pragmatic one. Have the rewards 
been paid for the tips that got the two sons? It seems to me 
those were a positive aspect on getting some of the tips and 
maybe more for getting Saddam himself.
    A big question I get constantly at home and here is, people 
are deeply concerned about the loss of troops, particularly 
this last week where we had several days of three troops being 
lost. Do we expect some time soon for this spike to subside, or 
is there anything that we can even project in that area? That 
may not be one that is even answerable at this time. But I 
would like to know your best thinking, you or General Keane 
either one.
    And finally, on the Arab Marsh area, which you talked 
about, which we held hearings on as well, that Saddam drained, 
is this going to be--is this in the process of being restored? 
And what could we do to really allow the water to come back in 
the area? As you note, that is the key to reestablishing that 
huge region. And I do not know how difficult it would be, but 
it was one that the opposition groups in the late nineties were 
very focused on at that time, reestablishing and allowing the 
water to flow back into those marshes.
    Mr. Wolfowitz. Thank you for those questions and thank you 
for reminding me. I should have remember when Senator Chafee 
was asking about our letter from 5 years ago, that of course 
both the House and the Senate by very wide margins passed the 
Iraq Liberation Act. And that was the policy that I was talking 
about then, which was helping the Iraqi people liberate 
themselves, not doing the job for them. And that was in fact as 
declared by two Houses of Congress and, I believe, by the 
Clinton administration, the policy of the United States.
    The three questions you asked. We are working very hard to 
provide that reward to the individual who turned in the 
brothers and as quickly as possible the safety of his extended 
family as part of the issue. It is still not safe in Iraq to be 
identified in that way.
    We feel it is very important, not only to be good to our 
word, but to have everyone in Iraq know that we are good to our 
word, so that we continue to get the cooperation both on No. 1 
and on all the others.
    Second, you know, everybody wants us to predict the future. 
And when we refuse to predict the future, then they say somehow 
we are misleading people. The future is not predictable, 
especially not in a war. You can read that in Von Clauswich. 
You can read it anywhere. You can read it in all military 
history.
    What we try to do--so I cannot tell you when attacks on our 
troops will stop. I do believe that we are on the right course, 
that we are making real progress, that we are rounding up the 
killers, we are rounding up the weapons, and that it has got to 
make a difference. Because the second reason, which I believe 
strongly, is that these people do not enjoy deep popular 
support. They are not expanding their recruitment. They are 
having trouble in that respect, I think.
    It is a limited supply, unlike the classic guerrilla war, 
where the enemy blends in with the population because the 
population is really sympathetic to the enemy or to the 
guerrillas. This is inside out. The population really wants to 
be rid of these people. And that is why I talked at so much 
length about getting rid of that blanket of fear that keeps 
people from turning in the people they hate.
    And finally, with respect to the Marsh Arabs, it is a 
question I have come back with a certain sense of urgency 
about. I am a little bit afraid that we may say, well, it took 
12 years and massive engineering works to create this mess. And 
we have to take time and care in restoring it. And I believe in 
time and care. But I would certainly like us to look at those 
things that might be done relatively quickly to at least to 
begin to create some of that back and some hope for those 
people. Because I do not think they will survive too much 
longer, if we do a 10- or 15-year reclamation project.
    Senator Brownback. General Keane.
    General Keane. Yes. I would like to add to that. I welcome 
the opportunity, Senator.
    Certainly in the early phases of the war with Iraq, we were 
fighting the army, and to a lesser degree what limited air 
force they had. We used all the intelligent resources that were 
available to this great country and our coalition powers. And 
we can bring effective combat power to mass very quickly. And 
we all saw that.
    And now we--the character of that war has changed, 
certainly. And we are fighting an opponent who is living in 
among the people. And it disarms our technology rather 
dramatically, to be able to see and understand who they are, 
where they are, and what they are doing.
    The only source to get us the kind of intelligence that we 
need are the very people themselves that they are living among, 
and to be able to build the kind of trust and confidence with 
them to turn in their neighbors, to turn in people who are 
members of the Baath party, despite the enormous stranglehold 
of fear that they have on the people of Iraq.
    And I think--I know myself, I certainly underestimated what 
that stranglehold of fear truly was and how pervasive the Baath 
party was. And it is very similar to the Nazi party in World 
War II Germany. And the Gestapo and the Fedayeen are analogous 
to each other, I believe.
    So that takes time. And we have to have patience. And I 
firmly believe it is an act of desperation on their part, 
because they see the end in sight. They see an Iraqi free 
government coming. They see physical and political 
reconstruction coming. And they know they only have months to 
be able to achieve this. And their objective, frankly, is the 
moral will of the American people.
    It is replete in the Arab press that we can push the 
Americans out, because they will not stay the course. They did 
not stay in Lebanon. And they did not stay in Somalia. They do 
not have the moral and political resolve to stay here and see 
it through. And that is their strategic objective, in my view, 
is the will of our own people.
    So we have to educate the American people in terms of what 
the nature of this part of the conflict is like and why it will 
require patience. And no, we cannot predict when this level of 
violence will end. But I can tell you that our field commanders 
are doing everything reasonable to counter that threat, 
building that trust with the people. And that is why, when the 
Deputy Secretary pointed out that it is really a hand in glove, 
the physical and political reconstruction and the security of 
the country go hand in hand, and that partnership has to take 
place, because one does follow and complement the other.
    I think we are doing the right things. And we are learning 
every day. I mean, we make mistakes, Senator, no doubt about 
it. And we will continue to make. But we are a learning 
organization. And we are a very adaptable and flexible 
organization in dealing with it. And our soldiers are 
tremendous in this. You know, they certainly have the skill to 
defeat an army. And they have displayed that.
    But they also bring the values of the American people to 
this conflict. They understand firmness. They understand 
determination. But they also understand compassion. And those 
values are on display every day as they switch from dealing 
with an enemy and also switch to taking care of a family. And 
it is remarkable to see that played out every single day.
    I know you are proud of them. And we all are very proud of 
them as well. But it will require some patience on all of our 
parts to deal with this phase of the war.
    Senator Brownback. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Brownback.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    I had to leave to attend a meeting and specifically came 
back because I wanted to ask about this group called Policy 
Analysis Market, which I understand Senator Boxer has just 
asked about. But I have a couple of followup questions. And I 
compliment you, Mr. Secretary, for indicating to Senator Boxer 
that you are going to shut down this group.
    The concept overview on the Web is as follows, and I quote, 
``Analysts often use prices from various markets as indicators 
of potential events. The use of petroleum future contract 
prices by analysts of the Middle East is a classic example. The 
Policy Analysis Market, PAM, refines this approach by trading 
future contracts that deal with underlying fundamentals of 
relevance to the Middle East. Initially, PAM will focus on 
economic, civil, and military futures of Egypt, Jordan, Iran, 
Iraq, Israel, Saudi Arabia, Syria, and Turkey, and the impact 
of the U.S. involvement with each.''
    Now that is their description. And then further in the Web 
site is an example. ``Issue A, the overthrow of the Jordanian 
monarchy.'' And people basically bet on this. And presumably, 
according to another one of their Web site pages, they even 
have a target here on the Web site. And it is showing that the 
market method is a greater predictor than other methods of 
polls.
    And I certainly commend you, Mr. Secretary, for shutting it 
down. But I want to know who is behind this. Who would have 
ever brought this up to the point of getting this thing 
established?
    Mr. Wolfowitz. Senator, I would like to know, too. And I 
intend to find out.
    Senator Nelson. Is it Admiral Poindexter?
    Mr. Wolfowitz. Senator, I first learned about it looking at 
the newspaper on the way over to this hearing. So I do not know 
the answer. But I share your shock at this kind of program. I 
will find out about it. But it is being terminated.
    Senator Nelson. Can you tell us how much has already been 
spent setting up this Policy Analysis Market [PAM]?
    Mr. Wolfowitz. I will get you an answer for the record.
    [The following response was subsequently received.]

    The Policy Analysis Market (PAM) project had been funded via SBIR 
contracts with a company called Net Exchange. The contract for PAM was 
cancelled shortly after this hearing. A total of $619,750 was spent on 
PAM.

    Senator Nelson. OK.
    Mr. Chairman, I assume that you would share the outrage 
that some of us have in seeing that foreign policy and defense 
policy of this country would be allowed to be displayed in such 
a way as basically wagering on death and trading on traitors.
    Let me ask you, general, every one of us at this table are 
getting a lot of questions and comments from husbands and wives 
and mommas and daddies and employers of the National Guard and 
reservists. In our case in Florida, fully half of our National 
Guard has been activated and are deployed. And we are very 
proud of them. And I had gone to a number of those ceremonies 
where they were mustering and getting ready to be shipped out.
    And then when I was in Iraq a couple of weeks ago, I had 
the privilege of visiting with a number of Florida soldiers, 
active duty, as well as reservists, as well as Florida Guard. 
And sadly, I arrived just as the blood of a Florida National 
Guardsman was flowing into those part sands, having been the 
target of a premeditated assassination as he was guarding the 
group that was going into the university.
    So my question is a policy question. And perhaps the 
Secretary would want to address this as well. You have a 
certain requirement for troops. And that is going to be there 
for the foreseeable future. We have relied to a large extent on 
reservists and National Guard. But when the requirement is 
extended over a long period of time, suddenly the role of that 
guardsman or that reservist goes beyond what they initially 
thought that they were signing up for.
    And so what are we going to do? Is the policy going to be 
that we are going to increase the active duty roster, so that 
we keep the Guard and Reserve more for what that was intended, 
or are you going to continue to rely on the Guard and activate 
them and activate them for long periods of time?
    General Keane. Senator, thank you for your support of our 
military and in particular for the Guard that you mentioned in 
your state. There is no doubt about it. I mean our force is 
stretched. And that is self-evident. And we rely heavily on the 
Guard.
    To give you a sense of it, since 9/11, 45 days after, the 
Guard has been doing the mission in the Sinai, which we have 
had since 1982. They are also doing completely the mission in 
Bosnia. This month they will take over the mission in Kosovo. 
And they have also been primarily the force that has been 
conducting the mission in Guantanamo Bay, where our detainees 
are.
    And also, on the next rotation of the train of Afghan 
national army in Afghanistan, they will absorb that mission. 
There are seven Guard battalions in Iraq and Kuwait, as we 
speak. And part of the rotation force we envision two enhanced 
separate brigades, one from North Carolina and one from 
Arkansas, will round out the rotation force.
    Now what we will do is we will mobilize Guard and Reserves 
as a matter of policy for a year and try to hold to that. We 
have made some exceptions to that, about 7,000 to 8,000 
primarily military police and people involved with chemical-
biological were extended over a year. But we are attempting to 
hold to that.
    They will not stay in Iraq for a year, the two enhanced 
brigades. They will stay there about 6 or 7 months, because we 
want to mobilize them, train them, and demobilize them all 
within a year.
    As it pertains to the--what are the implications to the 
active force as we look at the global war on terrorism? We are 
looking at that very hard right now. I mean, some facts are 
these. The Congress of the United States has enabled us in the 
United States Army to exceed our end strength by 2 percent. And 
that is about 10,000. And we have been doing that for most of 
the global war on terrorism.
    The steady state, the Reserve components, so that we can do 
our daily business on a global war on terrorism short of Iraq, 
we need another 30,000 just to protect our critical 
infrastructure in the United States and overseas. So that is 
40,000 that we need just to do normal business. That would tell 
you that the active component is being constrained by that 
alone, much less our recent commitment to Iraq.
    So we are taking a hard look at this. We have identified a 
number of spaces that we believe we can convert from military 
to civilian. And we are studying that right now. It is in 
excess of 20,000. Whether it will turn out to be that or not, I 
cannot commit to that. And at some point, we will probably be 
making some recommendations to the Secretary of Defense. To 
assist us in making that conversion, they would have to--as a 
matter of policy, the Congress of the United States and the 
administration would have to permit us obviously to hire 
civilians that heretofore were doing military jobs.
    So it is possible in the future we may make an end strength 
recommendation to the Secretary. We have not determined that 
yet until we finish our analysis. But I agree with you that our 
force is stretched. That is obvious. And we are very dependent 
on the Reserve components, the National Guard and the United 
States Army Reserves to do our business.
    And let me say that their performance has been nothing 
short of magnificent. I mean, when you go look at units in Iraq 
and Afghanistan, you cannot distinguish, in terms of motivation 
and esprit and commitment to the mission and the performance of 
the mission from active to reserve.
    Senator Nelson. Well, I would only point out that you are 
probably going to have a retention problem if the Guard and the 
reservists get the impression that they are going to be 
carrying the water and keep getting extended. And therefore, 
you may be able to give some slack by converting to civilians 
some of the work.
    One of the other things you have to crank into your 
calculations is the fact, what is the role of the Guard? Right 
now, we are in hurricane season. And half our National Guard is 
not there. And if we were ever to get another mega-hurricane, 
like Andrew, that hits in a high-density population area, you 
are looking at $50 billion hurricane, not a $16 billion 
hurricane. That, by the way, is just insurance losses, not the 
total cost of the hurricane.
    And so what is the role of the Guard, your needs there, as 
well as the needs here? And I urge you with the utmost dispatch 
to make those decisions.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Nelson.
    Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.
    Mr. Wolfowitz, I want to tell you that I was very impressed 
with your presentation today. It is very encouraging to me. I 
hope it is encouraging to the people that read your testimony 
and have watched you on television.
    So often in life we accentuate the negative and eliminate 
the positive. We always talk about the glass being half empty 
instead of half full. And I think there are a lot of things 
that you talked about today that we should feel very, very good 
about.
    That being said, I think I agree with the rest of the 
members of this committee, that I think you and Mr. Bolten 
should be more forthright in terms of what the costs are going 
to be, so that we have some idea, and the American people know, 
how long, how much. I know there are some uncertainties, but I 
think you can figure out a conservative number and share it 
with us. And I think it will eliminate some of the problems 
that you are having with some of the members of this committee 
and other Members of Congress.
    I was pleased that you were saying that you are doing 
better than you do in Kosovo. And as you know, that is the area 
that I have concentrated on. I want to tell you, I was very 
disappointed, Mr. Secretary, that when we had a hearing on 
Kosovo, we did not have anybody from the Defense Department 
there to testify about how long you think we are going to be 
there and what our commitment will be. And I would like to know 
that. I would like to get that information.
    I would also like to say that I share Senator Nelson's 
concern about the National Guard and the deployment of Guard 
and Reserve troops. I know that you have clarified for our 
active duty troops when they are coming home. I wonder if we 
have clarified for the Guard and the reservists when they are 
going to come home.
    Also, we need to consider what impact this whole thing is 
going to have on our force structure. Should we reevaluate the 
way we are looking at our responsibilities and the role of the 
National Guard and our reservists in that?
    The other issue that I would like to raise deals with the 
same thing. Secretary Rumsfeld has represented that we are 
going to have a lot more troops from all these countries. I 
know that we have asked India to participate. They indicate 
that they do not want to participate until we have a U.N. 
resolution. I would like to know, are other countries that we 
would like to have, our NATO friends or other allies, taking 
the same position? And if they are, what are we doing about 
going to the United Nations and getting a resolution that will 
eliminate that condition precedent of getting more people 
involved with us in Iraq?
    Mr. Wolfowitz. As I said earlier, Secretary Powell is 
talking to various members of the Security Council about what 
might be possible in the way of a resolution. And we would 
certainly like to see one provided it does not put limitations 
on what Ambassador Bremer and our people can do in Iraq that 
are crucial to speeding up transition to normalcy and stability 
and allow us to hand over power to the Iraqis, which is really 
the key to things.
    We are working. It is harder to try to get some stability 
into the numbers for the Guard and Reserve. I need to say 
especially to Senator Alexander we are deeply grateful 
personally to the magnificent support we got on my trip from 
members of the Tennessee Air National Guard, who flew us around 
Iraq. And I was very unhappy to learn how many months they have 
been on active duty. And I promised them to try to find out at 
least why and possibly to give them some certainty.
    What we hear over and over and over again from both active 
duty and Reserve troops is the hardest thing is not knowing 
when they are coming home or when they are coming off active 
duty. And to give them some certainty, even if it is a 
relatively long period of time, they are prepared to work to. 
And we are trying to put some of that into the system.
    Senator Voinovich. We are getting a lot of letters every 
day from----
    Mr. Wolfowitz. I can imagine you are. We do, too.
    Senator Voinovich [continuing]. Saying when, when, and at 
least tell us what the score is.
    Mr. Wolfowitz. And we are looking at whether we have the 
right mix of active and Reserve forces. Some Reserve units get 
called up too much because we made decisions years ago to put 
certain functions entirely in the Reserves or heavily in the 
Reserves. And then we end up using those people like civil 
affairs people on a very intense scale.
    And we are hoping to get authority from the Congress that 
will allow us to take some of the jobs that are currently done 
by uniform people that could very well be done by civilians. 
The estimates are up to maybe 320,000 that could relieve some 
of the overall stress on the force.
    Senator Voinovich. You know, one of the things, also, if 
the Guard is so involved, General Keane, I have written and 
asked about equipment and training for our National Guard in 
Ohio. We send somebody down to get training for helicopter 
duty. We spend about $200,000 to train them. And then they come 
back to Ohio, we do not have the helicopters that they can fly 
to reinforce the training that they have received.
    And so it seems to me that if the Guard is going to be part 
of the force that we need to rely on, that we ought to give 
them the equipment to make sure that they are trained up and 
ready to go and not have to go through this fumbling around 
that I have been going through for the last several years 
trying to get some attention paid to our units in Ohio.
    I will just finish up on this note. I want you to know that 
I think it is very, very important to the American people that 
you be successful in Iraq, and that we should be willing to 
make the financial commitment and provide the resources to get 
the job done. It is important to those of us that are here 
today. But it is more important to our children and 
grandchildren that we be successful there.
    And I just want you to know this Senator is behind you and 
will do whatever we can to make it possible. I know we have a 
lot of things here in this country, priorities that need to be 
addressed. But we have to have a safe world. And I do not want 
my children and grandchildren living under the cloud that they 
are under right now.
    Mr. Wolfowitz. Thank you, Senator. That is the way I feel. 
And I think it is the way our troops feel.
    General Keane. We agree, Senator. Thank you for your 
support. In reference to the rotation, what we established was 
a year-long rotation as a matter of policy. So all those who 
are currently serving in Iraq obviously are being informed of 
that. And that applies to the National Guard and Reserve units 
that are there as well.
    And while we have worked out the details of all the major 
organizations that will be replaced, in other words what 
divisions and what combat brigades, right now, we will complete 
it this week, the much smaller organizations, some of which do 
come from the National Guard and the Reserves, that will 
replace the combat support and combat service support troops. 
Those are the theater support troops for the combat formations. 
All the details of that are being worked out this week.
    And those organizations who will be going will be notified, 
as well as those organizations in theater in Iraq, who will be 
replacing them and when. And then we will commit to that date.
    Senator Voinovich. Thank you.
    The Chairman. Thank you very much, Senator Voinovich.
    The Chair would just note that we are probably close to a 
rollcall vote. But we are going to have 5 minutes from two 
Senators who have been so patient. And I hope the witnesses can 
remain with us. Senator Biden may have a closing comment, if we 
have an opportunity.
    Senator Corzine. Thank you, Mr. Chairman. And I appreciate 
your holding this hearing.
    I want to premise what I am going to say by echoing what my 
colleagues have said. We are all proud of the American troops. 
It is extraordinary, their courage and commitment. I also want 
to echo what Senator Voinovich said. I think we are all 
committed to winning the peace and making sure that our 
heritage for our children and grandchildren are secure. And I 
doubt if there is anyone on this committee who would stand in 
the way of providing adequate resources to help us finish the 
task that we have taken on.
    I probably will have the glass half empty view with regard 
to some of the information that we are being provided and 
questions that sometimes strike at the credibility of that. And 
I will say that when selective information, framed information, 
some people would call spin, but I would say framing 
information, only in a way that it justifies a case, is very, 
very difficult, makes it very difficult for those of us who are 
interfacing with the American people all the time to try to win 
that case and build that patience and build that trust. The 
same trust that we are trying to build with the Iraqi people we 
need to develop with the American people with regard to the 
case.
    And I will tell you that for one Senator who read the Hamre 
report, which starts with the potential for chaos is becoming 
more real every day, and then goes on with a very detailed 
outlay of what is happening, what I hear today does not match 
with what I am reading with respect to the details of the Hamre 
report.
    Now there is nothing more important in my mind than the 
fact that we continue to lose American men and women on the 
ground in Iraq all the time. It is a cost that we may very well 
need to justify for the American people. But it is very real, 
11 in the last 5 days.
    It is not clear to me, based on reading the Hamre report 
and in any kind of discussion we have had today, whether that 
is Baathists, whether it is outsiders, or it is criminal 
organizations that are organizing themselves for a long haul in 
committing crimes against the Iraqi people and for their own 
purposes.
    The idea that we cannot come up with a baseline--everyone 
knows in budgets that you have baselines and extreme outer 
elements with regard to costs--to not have some idea of where 
we are going with regard to the cost of this to the American 
people so that we can make the judgments about how much we are 
going to have to make sacrifices here at home is just, I think, 
a travesty within the context of how we have to make budget 
decisions here.
    The idea that we talk about weapons of mass destruction 
programs, and we do not relate it in a composite way, the way 
we argued so fully at the start of this hearing, in a context 
of Korea, where we know there are programs of weapons of mass 
destruction, to me seems to be an abrogation of following 
through on the principles of what we talked about.
    So I am very troubled about how the knowledge base that we 
have to form the decisions and try to win over the American 
people and develop that patience and trust is being provided. I 
have a simple question. Do you buy the conclusions of the Hamre 
report? Have you--or do you have a different view? Because what 
I heard today was different. And I can go line by line through 
this report.
    The potential use of force by multiple internal and 
external players, serious security breaches challenge the U.S. 
confidence and undermine U.S. credibility, rising economic 
insecurities.
    You know, this was a hearing about the status and prospects 
for reconstruction and the resources necessary. And in all 
fairness, I am not hearing that. And I think that makes it very 
difficult for us, those of us who are interfacing with the 
American public, to go to them and make the case in a credible 
way.
    Six men and woman in New Jersey have died. I do not feel 
comfortable I have the information to be able to argue that we 
want that patience that I know we need to have for purposes of 
going forward.
    Is the Hamre report an accurate reflection of what is on 
the ground?
    Mr. Wolfowitz. Senator, we commissioned the Hamre report 
because we wanted an independent look. And I think it is 
substantially correct. I tried to emphasize in my testimony 
that we think there is an urgent need to get on with the 
provision of basic services, particularly electricity, and 
dealing with the unemployment problem. And I in no way mean to 
minimize them. I think they are large. I think the security 
problem is large. I hope I did not minimize it.
    And that Americans are getting killed is very bad. That the 
numbers have been going up is very bad. And to some degree 
there is a certain sophistication in the attacks that is in the 
wrong direction. I want to be clear about that.
    At the same time, our commanders also feel that they are 
making substantial inroads in getting at that Baathist 
infrastructure that is responsible in their view for funding 
most of the attacks on us.
    The one thing I would say in answer to your question, it is 
not random violence that is our problem. And in fact, in all 
the incidents that I can think over the last month or so, there 
is only one which was serious, where some British troops were 
killed in a small town, that clearly had a independent local 
cause. Most of it seems to be this pattern of mid-level 
Baathists with money hiring probably either Fedayeen Saddam or 
maybe young men, who are not particularly committed, but just 
want to make some money, to do a hit either on a power line or 
on an American.
    And as I said earlier, it is a most unusual tactic. I do 
not know of it in previous guerrillas war. It is a serious 
problem, but we think we have a strategy to deal with it. If 
that strategy looks like it is not working at some point, we 
will come back and talk about it. But the people dealing in the 
most difficult parts of the country, General Odierno in the 4th 
Infantry Division, General Dempsey in Baghdad itself, and even 
General Blount, who has in many ways, unfortunately, the 3rd 
Infantry Division, which had the toughest fight going north 
also ended up with the toughest area of the country out near 
Faluja. Just the day we met with him, he reported that one of 
the key imams who had been opposing the coalition had come 
over.
    It is a glass half empty, glass half full. And I agree very 
strongly with the emphasis in the Hamre report that we need to 
move quickly. Because if you get to a point where the Iraqi 
people no longer believe that you are going to win, then it 
becomes very difficult to win.
    But I think, you know, the most dramatic evidence of the 
last 10 days was getting those two miserable creatures who did 
so much to that country. And it is not just because it is 
satisfying to be rid of them. It is because it means so much to 
the Iraqi people. And even in the Sunni, predominantly Sunni, 
city of Baghdad, people were shooting off for two-and-a-half 
hours afterwards in celebration.
    Senator Corzine. Mr. Secretary, though, just my read of the 
Hamre report says that there are external sources of violence. 
There are criminal organizations that are independent of the 
Baathist activities. And many of these are the potential for, 
or party to, the violence we are seeing now.
    Mr. Wolfowitz. Senator----
    Senator Corzine. If we only frame it in certain ways, and 
that is why I think it is so--if we only look at it in the 
context of the two brothers, then I am not sure that we are 
looking at it, at least the way I have read and addressed, or 
thought I was addressing, this report.
    Mr. Wolfowitz. OK. Well, let me say, there are multiple 
problems. But criminal elements are not targeting American 
troops. The people who are shooting deliberately at us have a 
strategic agenda. And that agenda is to kill Americans so that 
we will leave, and they can bring back this evil regime. There 
is no question about that.
    There are other problems. There is, and I think someone 
referred to it specifically, there is the danger, if we do not 
deal with the unemployment problem, that organized crime of the 
normal kind will become a big problem of Iraqis killing Iraqis 
more than Iraqis killing Americans. And that is one important 
reason why training an Iraqi police force is so important.
    And yes, I cited Mosul as an example of success. I did not 
mean to suggest that every city in the country is like Mosul. 
But my sense is that where we have success, we are able to 
reinforce it. And where we do not have success, we are able to 
move forward. We have superior force on our side, superior 
resources on our side, and the support of the Iraqi people on 
our side. So where there are problems, we can solve them, and 
where there is success, we can reinforce it. And I would much 
rather be in our position than the people who are trying to 
defeat us.
    Senator Corzine. And make sure we have the ability to speak 
to the American people on this issue.
    The Chairman. Thank you very much, Senator Corzine.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    Thank you for coming and for staying so long. My views are 
these. I think we were right to go to Iraq. The U.S. Senate 
thought so, too, by a big vote. I think the war a lot better 
planned than the peace, and we have talked about that here. And 
we are getting beyond that.
    I am encouraged by what I have heard from Ambassador Bremer 
and what I have heard today about the town councils, about the 
civil defense being developed, about the 65,000 to 75,000 
police being trained, about the battalion of Iraqi soldiers. I 
hope that we will move quickly in some appropriate way to 
involve other nations, if we can. I hope we will move as 
rapidly as we can to put the Iraqi forces out front.
    And as one Senator, I am prepared now that we are there to 
insist that we see it all the way through to the end and that 
we have learned the lesson of Vietnam and Somalia well enough 
to provide that support.
    I have two questions. And I will ask them both at once and 
see if there is any reaction. And they are a little different 
than what we have talked about so far. One has to do with our 
forces, lessons that we have learned. By the way, I think the 
Hamre report is a good example of being straightforward. After 
all, the Secretary of Defense, if I am not mistaken, invited 
them to go to report to him on what they found and then to make 
public to us and to the world what they found. That is an 
example of an America that is very open and straightforward 
with people.
    But here are my questions. One, on forces in the field, we 
invited special forces years ago in our services to deal with 
some different sorts of situations. And they have come in 
awfully handy. And we have now integrated them into our regular 
army and regular forces.
    I know we have civilian affairs people in the Army. But are 
we not learning that we may need some special forces for 
winning the peace? I mean, what the 101st Airborne Division, as 
good as it is, is trained to do is not a lot of what it has 
been doing in the last few weeks. And one of the disciplines of 
the Army, I know, is that we train for what we do. We train and 
we train and we train for what we do. And we are doing some 
things that our forces are not trained for. And should we not 
consider some training for those situations?
    And then my second question, I will ask them both at once, 
has to do with what happens at home. I am glad to hear that you 
are going to be saying when troops are coming home. That is the 
most important thing, is to some certainty, if you can give 
them that. And Senator Chambliss and I have been conducting 
hearings on military parents raising children, and particularly 
in light of the long deployments.
    I hope that the Defense Department will put as a high 
priority a focus on the families at home, such things that we 
do not hear as much about, childcare, which is actually a 
success story in the military, but there are some things that 
need to be done there. The children who transfer when they are 
senior in high school, the length of deployment, jobs for 
spouses, housing issues.
    I think the more we focus on military parents raising 
children, the readier our forces in the field will be. And I 
just wanted to mention that while we are here.
    General Keane. Senator, we completely agree on the use of 
special forces. We are committed right now with a significant 
number of our special forces to Iraq, as they are in 
Afghanistan. And what they are able to do for us is, much of 
the work that needs to be done needs to be done in terms of 
human intelligence, contact with the people. We call it low 
level source networking. And that is literally dealing with 
people on the street. And our special forces have increased 
training capacity to do that. And you are absolutely right.
    So we are using them to the best of our ability. They are 
stretched in terms of the commitments that they are making to 
Afghanistan, to the Philippines, and now to Iraq. But they are 
doing very good work. And we are sending over the 82nd Airborne 
Division to replace the 3rd Infantry Division. And we intend to 
package some special forces with them and have them work 
directly for the commanding general of the 82nd Airborne to get 
at the very issue that you are talking about.
    You put your finger on a capability that is excellent. And 
we need to exploit it as much as we possibly can.
    Infantry forces are what they are. I mean, they are 
designed to fight other infantry forces or other combat 
formations. While they can be used on the streets of the 
cities, and they are, and they can be used in civil military 
operations, which they are, they are not as well trained for 
that as some of our other forces, as our special forces and 
civil affairs.
    The problem we have is those forces numbers are finite. And 
they are smaller in number than the requirements that we have. 
And that is the challenge that we have.
    The other issue dealing with families, again, you put your 
finger on another critical issue. The volunteer force, which I 
personally believe is the most significant military 
transformation since World War II, the enormous success of the 
United States military, I think, is largely attributable to the 
fact that the people are in it because they want to be. And 
they come to us smart, competent, with dedication to serve 
their country.
    And that has literally changed our force. The challenge 
with that is, they come with a family. And administering to the 
needs of a family from education to spiritual development to 
childcare to recreational activities is a challenge that we 
have been facing for a number of years. And we have enjoyed the 
support of the Congress in doing that.
    We put an enormous amount of attention on this issue, not 
just when our forces are deployed, which we are currently 
doing, but every single day. And we work very hard at it. We 
are not perfect at it. There are shortages out there that 
certainly we would like to see filled. But it clearly is a very 
high priority for the United States military; that is, taking 
care of our families.
    And just let me say that the support that our soldiers 
receive from their families is just enormous. They are like 
soldiers themselves in terms of their own sacrifice and 
dedication to their loved one and also to the organizations 
that their loved one is in. And we just have enormous pride at 
how they respond to the challenges that we are asking for the 
United States military.
    Thank you.
    The Chairman. Thank you very much, Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    The Chairman. Senator Biden.
    Senator Biden. Mr. Chairman, if I could just briefly close 
my comments by saying that there is an article in the 
Philadelphia Inquirer on July 11. And it said, ``A small circle 
of civilians in the Defense Department have dominated the 
planning of post-war Iraq, failed to prepare for the setbacks 
that have erupted over the past 2 months.''
    Based on the testimony here today, I think we are making 
the same mistake again. I think you are failing to prepare for 
what is the reality on the ground. I no more agree, just for 
the record, with your assessment that Iraq is the hotbed of 
terror now than I did when your assertions about al-Qaeda 
connections at the front end. And I voted to go into Iraq. And 
I would vote to do it again.
    And it seems to me the failure of Iraq would be a lot worse 
than anything that happened before Iraq. The President, it 
seems to me, has to tell the American people, general, you were 
saying earlier, prepare them for what is expected of them. And 
it is going to be tens of billions of dollars and tens of 
thousands of troops for an extended period of time.
    That window is going to close in Iraq. But it is also going 
to close, as my friend Senator Corzine was implying, in terms 
of American public opinion, if we do not start to level with 
them. Our credibility as a nation is at stake right now. And I 
think you are going to lose the American people, if you do not 
come forward now and tell them what you know, that it is going 
to cost tens of billions of dollars, of American taxpayers' 
dollars, and tens of thousands of American troops for an 
extended period of time.
    They think Johnny and Jane are going to come marching home. 
And I would also point out that you need cops now, you need a 
different mix of troops now. And I did not hear anything today 
to indicate that you are going to get that to happen. I think 
you got it wrong in the first place, in terms of pre-war 
planning. The assumptions, as you said, Mr. Secretary, turned 
out to be an understatement of the problem. I think you are 
understanding the problem again.
    We can do this. We can win this. We can win the peace. But 
you had better start to tell the American people now, or they 
are not going to be around. They are not going to be around. 
They are going to be asking us to bring the men and women home, 
which would be a tragic mistake.
    So level with them, billions of dollars, tens of thousands 
of troops. I will vote for it. I will support it. I will stay 
with you. The President has to tell them now, now, now, now.
    The Chairman. Well, let me thank all the Senators. I thank 
the witnesses especially for their testimony, staying with the 
hearing. We are at the end of the rollcall vote. And this is 
why Senators have disappeared. But we appreciate very, very 
much your being here today. And we look forward to staying 
closely in touch with you.
    Mr. Wolfowitz. And Mr. Chairman, if I might for the record 
submit some refinement on those numbers in CPA that Senator 
Dodd referred to. I believe it is very important, the State 
Department role in this is crucial. I think those numbers do 
not quite portray what the balance is, but I would like to----
    The Chairman. Please supplement the record. And it will be 
included.
    Mr. Wolfowitz. Thank you.
    [The following response was subsequently received.]

    As of October 13, 2003 the Coalition Provisional Authority in Iraq 
was represented by a total of over 1,000 people. The CPA represents a 
diverse compilation of Executive Branch agencies including, but not 
limited to, personnel from the Department of Defense, Department of 
State, USAID and others working together under the direction of 
Ambassador Bremer toward the common objective of a sovereign democratic 
Iraq. Additionally, the agencies have dedicated significant resources 
to the CPA in Washington and Iraq that do not work directly for 
Ambassador Bremer.

    The Chairman. I thank you all very much. The hearing is 
adjourned.
    [Whereupon, at 12:38 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


              Additional Material Submitted for the Record

                  Executive Office of the President
                            Office of Management and Budget
                                      Washington, DC, July 14, 2003

The Honorable Bill C.W. Young*
Chairman
Committee on Appropriations
United States House of Representatives
Washington, DC 20515

    Dear Mr. Chairman:

    On behalf of the President, I am submitting the second in a series 
of reports required under Section 1506 of the Emergency Wartime 
Supplemental Appropriations Act, 2003.
    As noted in the report, we have moved from an emphasis on immediate 
relief operations and are now engaged in a wide variety of 
reconstruction activities including restoration of the electric grid, 
repair of the water and sanitation infrastructure, and assuring the 
delivery of critical health care. We have also resumed the food 
distribution system which is now reaching all Iraqis in need.
    There are a number of key tasks ahead including restoring law, 
order, public safety and self-government, implementing judicial reforms 
and regenerating economic activity and growth. We will look forward to 
working with the Congress as we proceed with this crucial work.
            Sincerely,
                                 Joshua B. Bolten, Director

    *Identical letters sent to: The Honorable David R. Obey, The 
Honorable Ted Stevens, and The Honorable Robert C. Byrd.

                           Report to Congress

    Pursuant to Section 1506 of the Emergency Wartime Supplemental 
                        Appropriations Act, 2003

                          (Public Law 108-11)

     90 Day Update Report on United States Strategy for Relief and 
                         Reconstruction in Iraq

Section 1506(b) of the Emergency Wartime Supplemental Appropriations 
Act, 2003, (117 STAT. 580) provides:

    (b) Subsequent Reports.--Not later than 90 days after the date of 
enactment of this Act, and every 90 days thereafter until September 30, 
2004, the President shall submit to the Committees on Appropriations a 
report that contains:

          (1) A list of significant United States Government-funded 
        activities related to reconstruction in Iraq that, during the 
        90-day period ending 15 days prior to the date the report is 
        submitted to the Committees on Appropriations--

                  (A) were initiated; or

                  (B) were completed.

          (2) A list of the significant activities related to 
        reconstruction in Iraq that the President anticipates 
        initiating during the 90-day period beginning on the date the 
        report is submitted to the Committees on Appropriations, 
        including:

                  (A) Cost estimates for carrying out the proposed 
                activities.

                  (B) The source of the funds that will be used to pay 
                such costs.

          (3) Updated strategies, if changes are proposed regarding 
        matters included in the reports required under subsection (a).

          (4) An updated list of the financial pledges and 
        contributions made by foreign governments or international 
        organizations to fund activities related to humanitarian, 
        governance, and reconstruction assistance in Iraq.

    The report that follows has four sections that correspond to the 
four specified categories listed in section 1506(b).
    On June 2, 2003, the Administration submitted the initial report 
required by Section 1506 of the Emergency Wartime Supplemental 
Appropriations Act, 2003. As noted in this initial report on U.S. 
strategy for relief and reconstruction in Iraq, U.S. policy goals for 
the recovery of Iraq remain to:

  <bullet> Establish a secure environment for the Iraqi people and the 
        conduct of relief and recovery activities;

  <bullet> Achieve measurable improvement in the lives of the Iraqi 
        people;

  <bullet> Maximize contributions from other countries and 
        organizations;

  <bullet> Prepare the Iraqis for self-government.

    Security continues to be the top Coalition priority. Security is 
the foundation for success of reconstruction efforts in Iraq and a 
fundamental task in our administration of Iraq. We have made 
significant progress since the collapse of the Iraqi regime, but 
substantial challenges remain.
    The security situation in Iraq is complex. In some areas, the 
security environment is generally permissive--there is reasonable 
freedom of movement, recovery activities proceed without significant 
hindrance, and Coalition forces are engaged in stability operations. In 
other areas, the environment is less permissive and Coalition forces 
are engaged in combat operations against remnants of the Baathist 
regime.
    The Coalition's approach to establishing security in Iraq is 
multifaceted, but a key component is engaging Iraqis to assist in 
providing for the security of their own country. The Coalition has 
moved to establish Iraqi police forces and shortly will begin 
recruiting, vetting, and training the first members of a new Iraqi 
Army. Security forces for ministries and for other purposes--for 
example, port security--are being screened, hired, and trained. These 
significant activities are described further in this report.

1.  A list of significant United States Government-funded activities 
        related to reconstruction in Iraq that, during the 90-day 
        period ending 15 days prior to the date the report is submitted 
        to the Committees on Appropriations--

    (A) were initiated; or

    (B) were completed.

    Significant activities. The initial phase of relief and recovery 
activities to improve the lives of Iraqis has focused on providing 
basic services, delivering utilities, and reestablishing law and order. 
It is important to note that, thus far, there have been no humanitarian 
disasters of the type that had been predicted. There is no food crisis, 
no refugee crisis, and no crisis in public health.
    Since the creation of the Coalition Provisional Authority (CPA), 
the Administrator of the CPA has had the primary responsibility for 
identifying requirements for relief and reconstruction in Iraq, and for 
overseeing, directing, and coordinating all U.S. Government programs 
and activities in Iraq, except those under the command of the 
Commander, U.S. Central Command. Significant activities during this 
first phase, by sector, include:
    Food. The near-term focus has been on food distribution. Over one 
million metric tons of food (much of it U.S. purchased or donated) has 
been delivered to Iraq since the war. Another 2.2 million metric tons 
will reach Iraq by the end of October. In June, the CPA, working with 
the UN World Food Program, successfully restarted the public food 
distribution system. This system will now reach all Iraqis--even those 
excluded under the Saddam regime. These activities will continue until 
Iraq becomes more self-sufficient and transitions to a more market-
based system. As an important step, the CPA, working with the Iraqi 
Trade Ministry, the World Food Program, and the Food and Agricultural 
Organization, has bought Iraqi harvests at a fair price, and so far has 
purchased about 150,000 metric tons of wheat and 20,000 metric tons of 
barley.
    Health. The immediate focus in this area has been on rapid return 
to at least pre-war healthcare levels throughout Iraq. Pre-war health 
conditions were poor and the medical infrastructure was degraded by 
looting in the immediate aftermath of conflict. The public health 
situation is improving throughout the country and there are no 
significant health crises. The CPA activities have focused on working 
with the Ministry of Health to ensure that basic healthcare services 
are available to all Iraqis. Today, nearly all of Iraq's 240 hospitals, 
10 specialty centers, and more than 1,200 clinics are open and 
receiving patients. Services at these facilities are at approximately 
90 percent of their pre-war levels in the Kurdistan regions, 80 percent 
of pre-war levels in the South, and 70-75 percent of pre-war services 
in Baghdad. Preventive services also have been initiated, beginning 
with National Immunization Day on June 22. This program will be 
continued every month, providing protection against disease to all 
children of Iraq.
    Iraq's pharmaceutical and medical supply distribution system, known 
as Kimadia, is functional again under the auspices of the Ministry of 
Health, and over 1,500 tons of supplies have flowed to hospitals, 
clinics, and warehouses throughout the country. An Iraqi International 
Medical Assistance Committee (IMAC) is established and coordinating 
incoming offers of assistance and supplies from non-governmental 
organizations throughout the world. This Committee ensures that 
donations are carefully vetted and targeted to existing needs. However, 
extensive looting and a decade of governmental neglect have caused 
major infrastructurc challenges that must be addressed. Facilities and 
basic medical equipment are in need of maintenance and repair. In 
Baghdad, the CPA has purchased new generators for hospitals and has 
begun renovation of the Ministry of Health headquarters. The Senior 
Advisor for the Ministry of Health is coordinating an overall 
assessment of health care needs throughout the country and is focusing 
all available resources on the pressing infrastructure needs.
    Power. The CPA efforts have aimed at rapidly achieving pre-war 
power levels throughout Iraq. Pre-war planning limited damage to the 
electrical system during the conflict, but restoring electricity has 
been challenging because the pre-war power infrastructure was a 
dilapidated, fragile, patch-work system. This system has become even 
more unstable due to the continuing, targeted sabotage of power lines 
and stations and looting of spare parts and computers. Much of Iraq is 
now at or above pre-war power availability, with Baghdad the notable 
exception. Power availability in Baghdad has averaged about 1,000 
megawatts per day over the last several weeks, up from 300 megawatts at 
the end of major combat, but well below the approximately 2,500 
megawatts per day pre-war. Outages in specific areas also have ripple 
effects in other sectors such as water and oil. The CPA is working 
through a USAID contract and with the Iraq Electricity Commission to 
improve power generation in the short term and repair the power 
infrastructure for the longer term.
    Water and Sanitation. The focus of activities has been on 
increasing water supplies to pre-war levels and restoring sewage 
treatment plants to operation. Much of Iraq is at or near pre-war water 
availability, and there are no critical water shortages. Baghdad water 
supply levels have plateaued at about 1,600 million liters per day, 
less than the pre-war level of 2,000 million liters, but adequate to 
avoid critical shortages. The CPA is working through a USAID contract 
to increase water supply to East Baghdad by 45 percent (increasing 
water supply to Baghdad by 15 percent overall) and to rehabilitate 
water treatment facilities supplying Basra. The CPA and several 
international organizations have also funded sewer and sewage treatment 
repairs.
    Oil and Fuels. Activities have aimed to restore Iraqi oil 
production as rapidly as possible. Limited Iraqi oil exports resumed on 
June 22, 2003, when oil stored at Ceyhan, Turkey, was loaded on 
tankers. This freed up storage space removed one limiting factor on 
production. Crude oil production was about 750,000 barrels per day in 
late June and is expected to exceed 1 million barrels per day by late 
summer--but this production level will depend on many variables, 
including security of the oil infrastructure. While oil production is 
coming on line, CPA activities have also focused on ensuring adequate 
supplies of fuels for the Iraqi people such as gasoline and liquid 
petroleum gas (LPG). Daily gasoline supply fluctuates between 50-100 
percent of pre-war consumption, and is expected to equal or exceed pre-
war consumption by late July. The LPG supplies are expected to reach 
about 95 percent of pre-war levels via increased imports by late July.
    Public Safety/Law and Order. The CPA activity has focused on 
vetting, hiring, training and deploying Iraqi police forces and other 
security forces to assist in establishing a secure and permissive 
environment. The CPA has recalled to duty over 30,000 police officers, 
is refurbishing police academies in Baghdad and Basra, is equipping 26 
police stations in Baghdad, and in May began joint Iraqi-Coalition 
patrols. After extensive looting, CPA has had to provide virtually all 
equipment, uniforms and office supplies to stand up the police 
capability. In Baghdad, 33 police stations and 3 police divisions are 
now operating 24 hours a day resulting in a dramatic increase in daily 
patrols. The CPA and Coalition forces created an armed port security 
force for Um Qasr port, and are beginning to create security forces for 
various ministries. Rebuilding Iraqi police forces has been a challenge 
because the existing force was poorly trained, ineffective, and widely 
distrusted. But the creation and training of responsible public safety 
forces are indispensable to long-term progress in Iraq. To address the 
police situation, former New York City Police Commissioner Bernard 
Kerik was appointed to serve as CPA's Senior Policy Advisor overseeing 
the police, fire, borders, customs, and immigration organizations. Mr. 
Kerik's team recently completed a study that recommended the creation 
of a 50-80,000 member Iraqi police force. This force would be trained 
and supervised by international police advisors.
    Justice Reform. The CPA has undertaken a number of initiatives 
directed towards instituting the rule of law in Iraq and building 
public confidence in the legal system. On June 9, 2003, the CPA 
suspended certain criminal laws that violated fundamental human rights, 
such as the offense of insulting a public official.
    On June 18, 2003, the CPA issued procedures for applying criminal 
law in Iraq. These procedures used the Iraqi Law on Criminal 
Proceedings of 1971, as amended by CPA, as its basis. These criminal 
procedures recognized that the effective administration of justice must 
consider:

          (a) the rehabilitation of the Iraqi investigative and trial 
        capability;

          (b) the continuing involvement of Coalition forces in 
        providing critical support to many functional aspects of the 
        administration of justice;

          (c) the need to transition from this dependency on military 
        support;

          (d) the need to modify aspects of Iraqi law that violate 
        fundamental standards of human rights;

          (e) the ongoing process of security internee management as 
        provided for by the Fourth Geneva Convention; and

          (f) the possibility of the exercise of jurisdiction by 
        Coalition authorities regarding the commission of war crimes 
        against Coalition forces.

    The new procedures established certain fundamental legal rights, 
including that confessions extracted by torture will be inadmissible as 
inculpatory evidence under any circumstances; previously, such 
confessions were admissible if corroborated by other evidence, even if 
that other evidence was obtained through torture.
    The Administrator has also established a Judicial Review Committee 
to examine all judges and prosecutors nationwide for complicity in the 
crimes of the former regime, corruption, or other malfeasance and to 
remove all offenders. These problems were endemic under the former 
regime and eradicating them is crucial to public faith in the justice 
system. A Central Criminal Court of Iraq has been created as a model of 
procedural fairness and judicial integrity. Repairs and rehabilitation 
are underway or complete on many court and prison facilities severely 
damaged by looting, war damage, or neglect by the prior regime.
    Restoring Economic Activity. Moving beyond the initial phase of 
relief and recovery activities, economic regeneration is the key driver 
in the overall process of rebuilding Iraq and will provide the most 
tangible evidence of progress made by the CPA and the Interim 
Administration. Iraq's assets--its physical resources and its skilled, 
energetic people--create opportunities for Iraq as a nation. The 
potential benefits to the Iraqi people are huge. The CPA's priority 
will be to encourage rapid transition to an economy guided by free 
market principles. These have been shown, in case after case, to offer 
the quickest way to generate efficient and job-creating economic 
activity. The Coalition must also make the ease for the role of foreign 
investment in the development of Iraq. At the same time, it will be 
essential to put in place an adequate social safety net to protect 
those disadvantaged by rapid change.
    During the past 30 days, the Administrator of the CPA announced a 
$100 million Construction Program initiative as a means to rejuvenate 
the construction industry and leverage the effects of the jobs it 
creates to get the economy moving forward. This Construction program, 
the Division/Brigade Commander and Regional Director Emergency Response 
Programs, the salary and pension payments program, other critical 
infrastructure reconstruction programs, and Ministry operations and 
capital expenditure programs--all underpinned by the CPA and Coalition 
Joint Task Force 7 (CJTF-7) efforts to help ensure security--are 
contributing to economic restoration.
    Sources of funds. Through the end of June, the U.S. Government has 
allocated approximately $2.7 billion of funds (U.S.-appropriated and 
Iraqi seized and vested) for relief and reconstruction activities in 
Iraq, including the significant activities noted above. The $2.7 
billion allocation covers the following activities. A more detailed 
table is attached.

  <bullet> $730 million for relief efforts to reestablish food 
        distribution, provide medical supplies, purchase fuels, and 
        provide other humanitarian efforts.

  <bullet> $400 million for emergency payments and salaries for civil 
        servants and other workers in various sectors and for 
        pensioners.

  <bullet> $1.37 billion for reconstruction activities including 
        reestablishing critical services (water and sanitation 
        services, electricity), ministries, oil production, and 
        security forces.

  <bullet> $200 million for activities that support operation of the 
        Coalition Provisional Authority.

    Sources of the $2.7 billion for these activities include:

  <bullet> Iraqi state assets--both vested and seized--totaling about 
        $750 million as of June 30th. The Iraqi assets are being used 
        to finance the salaries of Iraqi civil servants, regular 
        payments for Iraqi pensioners, construction program projects, 
        and other critical relief and reconstruction activities in 
        direct support of the Iraqi people.

  <bullet> U.S.-appropriated funds totaling about $2.0 billion for 
        relief and reconstruction efforts. Thus far, the U.S. Agency 
        for International Development (USAID) and the Department of 
        Defense have been the channels for the majority of this U.S. 
        financial support.

    Appropriated funds are contributing to the relief and 
reconstruction efforts in the following ways:

  <bullet> USAID has allocated approximately $1.4 billion. $740 million 
        was drawn from the $2.475 billion appropriated in the Iraq 
        Relief and Reconstruction Fund. The balance was drawn from the 
        Emerson Trust and borrowing from USAID accounts before the war. 
        All planned reimbursements have now been made. USAID has used 
        these funds to restore economically critical infrastructure in 
        Iraq including establishing emergency telecommunications, 
        water, sanitation, and electricity services, food distribution, 
        and transportation capability.

  <bullet> The Department of Defense has allocated approximately $460 
        million for reconstruction efforts in Iraq, which includes 
        repairing damaged oil facilities and related infrastructure and 
        preserving the oil distribution capability in Iraq, contracting 
        for trainers for the New Iraqi Army, and providing direct 
        support to the Administrator and CPA staff overseeing the 
        reconstruction of Iraq.

  <bullet> Of the $66 million for the Department of State, over $40 
        million has been allocated for relief efforts of the UN, 
        International Organization for Migration, and International 
        Committee of the Red Cross. Additional funds will follow to 
        support ongoing humanitarian efforts of the UN and the ICRC as 
        well as the return and reintegration of displaced Iraqis.

  <bullet> The Department of the Treasury has provided $2.2 million for 
        activities within its field of expertise.

    At the end of June, the balance in the Development Fund for Iraq 
(DFI) account was approximately $1.071 billion, consisting of the 
transfer from the United Nations of $1 billion from the Oil for Food 
escrow account, $1 million of earned interest, and $70 million of 
proceeds from the sale of wheat. The Administrator of the CPA intends 
to deposit into the DFI: (1) 95 percent of the proceeds from the sale 
of petroleum, petroleum products, and natural gas; (2) any returned 
Iraqi assets provided by UN member states; and (3) funds attached to 
Oil for Food contracts that are not prioritized or executed by November 
21 and for which letters of credit have expired. Foreign governments 
have frozen approximately $2.9 billion in Iraqi assets to date, but 
none of these funds have been deposited in the DFI. To date, no funds 
have been expended from the DFI.
    The projected estimate of revenue from the sale of Iraqi oil 
through September 2003 is approximately $1 billion, based on the 
current market price. As stated in the initial report, all DFI 
resources will be used for the humanitarian needs of the Iraqi people, 
for economic reconstruction and repair of Iraq's infrastructure, for 
continued disarmament of Iraq, for the costs of an Iraq civilian 
administration, and other purposes benefiting the people of Iraq.
    On June 25, 2003, the United States and the United Kingdom, with 
participation by the CPA staff from Baghdad via telephone, met in 
Washington with representatives from the United Nations, the World 
Bank, the International Monetary Fund, and the Arab Fund for Social and 
Economic Development to discuss terms of reference for the 
International Advisory and Monitoring Board (IAMB). The practice will 
be to have the IAMB approve independent public accountants to audit the 
DFI and export sales of petroleum, petroleum products and natural gas 
in support of the objective of ensuring that the DFI is used in a 
transparent manner and that such export sales are made consistent with 
prevailing international market best practices.
    Efforts continue to authenticate and make available the Iraqi state 
and regime-owned assets brought under control in Iraq by U.S. forces. 
On June 25, 2003, the United States provided three machines to 
authenticate the approximately $800 million in U.S. dollars that were 
found in Iraq. A total of $799,728,061.47 has been verified as 
legitimate and taken into account. Eight hundred and five individual 
$100 banknotes ($80,500) are awaiting further examination by the U.S. 
Secret Service. An additional $7,100,300 could not be authenticated 
because the notes were wet and damaged. These notes were hand counted 
and still must be authenticated. The Department of Defense is 
coordinating with the U.S. Federal Reserve to exchange these damaged 
notes for quality notes that can be utilized.
    An additional 1,100 gold-colored metal bars were recovered in Iraq. 
They are being secured in Iraq while a random sample is being brought 
to Kuwait to assay. Analysis of the initial sampling of ingots revealed 
they were comprised of approximately 64 percent copper and 34 percent 
zinc. Consultation with metallurgists indicates the bars analyzed to 
date are most likely melted-down shell casings. The total number of 
metal bars recovered is now 4,450. All the bars currently located at 
Camp Arifjan are being sent to Baghdad, where they most likely will be 
stored within one of the Ministry of Industry and Materials facilities 
until their final disposition is determined.

2.   A list of the significant activities related to reconstruction in 
        Iraq that the President anticipates initiating during the 90-
        day period beginning on the date the report is submitted to the 
        Committees on Appropriations, including:

    (A) Cost estimates for carrying out the proposed activities.

    (B) The source of the funds that will be used to pay such costs.

    The Administrator of the Coalition Provisional Authority has the 
challenging task of managing the recovery of Iraq not only from war but 
also from 30 years of mismanagement and systematic oppression by the 
former regime. The Administrator is developing a strategic plan for 
reconstructing Iraq and is coordinating and developing numerous 
proposed projects through the CPA organization that he has established 
and continues to build. The CPA includes representatives from Coalition 
partners and all U.S. Government Federal agencies involved in the in-
theater operations. During the next 90 days, the CPA will continue to 
focus on activities that include the following. A more detailed table 
is attached.
    Continuing to improve relief and recovery activities begun in the 
first phase of reconstruction in Iraq. These include the near-term 
priorities of providing relief (food, health services) and 
reestablishing critical services (power, water, sanitation) for the 
Iraqi people. The CPA will continue to pay civil servants and 
pensioners; to provide further improvements in the water, sanitation, 
electricity, communications, medical and health, education, justice, 
police, prison and firefighting services; to continue repairs to the 
transportation services including roads, railroads, and airports; and 
to continue reconstruction of the oil infrastructure and preservation 
of oil distribution capability so oil proceeds can be used to finance 
critical requirements of the Iraqi people.
    Restoring economic activity. The CPA will continue to execute the 
$100 million Construction Program, the Division/Brigade Commander and 
Regional Director Emergency Response Programs, salary and pension 
payments programs, and other critical reconstruction projects. High 
priority efforts are underway to prepare facilities to recruit, equip, 
sustain, and train the New Iraqi Army. Also, on July 15, 2003, the CPA 
will initiate monthly stipend payments to former members of the Iraqi 
Army. The CPA will also complete coordination and vetting of the 
national police plan mentioned earlier in this report. Coordinated 
execution of the recruiting, training, and employment of facilities 
security guards will also continue as a high priority. The CPA has 
formally reestablished the Central Bank of Iraq and will continue to 
establish additional branches of the Rafidain and Rasheed banks. The 
Administrator has made the Central Bank independent of the Ministry of 
Finance.
    Expanding security. One of the CPA's major initiatives is to 
establish a New Iraqi Army that will help provide for the military 
defense of the country and, as units become operational, will assume 
military security duties now being performed by Coalition forces. The 
old Iraqi military forces disintegrated with the collapse of organized 
military resistance; virtually all installations and equipments that 
were not destroyed in the fighting were looted or stolen. The CPA 
formally disbanded the former Iraqi military and security services and 
is currently working on the creation of a New Iraqi Army. The current 
plan is to build a force of about 40,000 members (roughly 3 divisions) 
over 2 years as the nucleus of the national armed forces of the new 
Iraq. The first battalion will begin training this month. A U.S. 
company will conduct the day-to-day training under the supervision of a 
coalition military assistance training team, which will be commanded by 
a U.S. major general and will include officers from the United Kingdom, 
Spain, and other coalition countries. This team is leading the effort, 
including finalizing recruiting, vetting, and training activities. 
Former Iraqi military personnel are also being hired as police, 
security guards, and workers to support engineering and construction 
activities, and some are being hired in the private sector. During an 
interim period, and subject to a decision by the future Iraqi 
government, the CPA will provide monthly stipends to most former career 
military personnel. These stipends will be paid from Iraqi funds. 
Former members of the Special Republican Guard and the intelligence and 
internal security services will not be eligible for these payments.

3.   Updated strategies, if changes are proposed regarding matters 
        included in the reports required under subsection (a).

    The strategy to achieve U.S. policy goals in Iraq continues to 
focus on a coordinated interagency effort in the United States and on 
the ground in Iraq that is integrated with Coalition and other 
international efforts. In Iraq, the CPA is the focal point for 
interagency and international coordination to determine requirements 
for reconstruction and to oversee resulting activities.
    Coalition Provisional Authority. The duties and responsibilities of 
the Administrator of the CPA described in section 1 of the initial 
report have not changed. Since that report, the Administrator has 
continued to build up the CPA organization and hone its structure and 
responsibilities (the latest CPA organization chart is attached). In 
addition to those mentioned above, CPA has established and promulgated 
regulations for two major initiatives, the Program Review Board and the 
Council for International Coordination.
    The Program Review Board (PRB) was established on June 15, 2003, 
and is responsible for recommending expenditures of resources from the 
Development Fund for Iraq and other resources such as seized and vested 
Iraqi state or regime funds and U.S. appropriated funds. In making its 
recommendations, the PRB is responsible for reviewing all the 
identified requirements, prioritizing these requirements, and 
integrating the prioritized requirements into an overall funding plan. 
The PRB reports directly to the Administrator of the CPA. The Board is 
comprised of voting and non-voting members. Voting members include the 
Chairman (appointed by the Administrator of the CPA), the heads of 
specific CPA directorates (Economic Policy, Civil Affairs Policy, 
Agency for International Development Iraq mission, Operations, and 
Security) as well as authorized representatives of the Commander of 
Coalition Forces, Iraqi Ministry of Finance, United Kingdom, Australia, 
and the Chairman of the Council for International Coordination. Non-
voting members include the CPA Comptroller as well as representatives 
from the U.S. Office of the Secretary of Defense, the International 
Monetary Fund, the World Bank, and the UN Special Representative of the 
Secretary General for Iraq.
    The Council for International Coordination (CIC) was established on 
June 17, 2003 as an organization to work on behalf of the CPA to 
support, encourage, and facilitate international participation in the 
relief, recovery and development efforts in Iraq. The responsibilities 
of the CIC (referred to as the International Coordination Council in 
the initial report pursuant to Section 1506 of the Emergency Wartime 
Supplemental Appropriations Act, 2003) include coordinating 
international assistance from states and international and non-
governmental organizations and making recommendations to the PRB on 
international assistance efforts in Iraq; and identifying international 
expertise--as well as recommendations for using this expertise--to the 
Administrator. The Council is not responsible for security matters such 
as the establishment of Iraqi police capacity or the New Iraqi Army. 
The CIC reports directly to the CPA Administrator and is comprised of 
representatives from coalition members and other countries that support 
CPA goals and possess expertise or other resources that will assist in 
furthering the purposes of the Council. The current Chairman of the CIC 
is Former Deputy Prime Minister Marek Belka of Poland.
    International Military Contributions and Participation. Section 2 
of the initial Section 1506 report described the roles and 
responsibilities of foreign governments and non-governmental 
organizations in post-conflict Iraq. It also detailed some of the major 
military and humanitarian contributions that countries were providing. 
Since the initial report, coalition military forces have continued to 
plan, coordinate, and execute the deployment of international military 
forces into Iraq. Multinational divisions under the lead of the United 
Kingdom and Poland are being established at present. Numerous 
countries, including Spain, Italy, the Netherlands, Slovakia, Denmark, 
Ukraine, Hungary, Honduras, El Salvador, and the Dominican Republic, 
have offered to send forces to help populate these divisions. Numerous 
countries are considering making force contributions, but the types of 
units and numbers of personnel are matters that remain to be worked 
out. Others have provided liaison officers to the Coalition military 
forces in Iraq. The international humanitarian, financial, or other 
contributions to post-conflict Iraq are discussed in Section 4 of this 
report.
    U.S. Interagency and International Coordination. Section 3 of the 
initial Section 1506 report described the strategy for coordinating 
post-conflict activities in Iraq among the U.S. Government, foreign 
governments and international organizations. The strategy to achieve 
U.S. policy goals in Iraq continues to focus on a coordinated 
interagency effort in the United States and on the ground in Iraq that 
is integrated with Coalition and other international efforts. In the 
United States, department and agency representatives coordinate daily 
on Iraq issues. There is close coordination among the Department of 
State, the Department of Defense, including the Joint Staff, the 
National Security Council staff, the Department of the Treasury, the 
Department of Justice, USAID, the Central Intelligence Agency, OMB, and 
the Coalition Provisional Authority. In addition, the DoD leadership is 
establishing an office to give greater capacity for the CPA to reach 
back to Washington for some assistance or capability that it needs in 
country.
    In Iraq, the CPA is the focal point for interagency and 
international coordination to determine requirements for reconstruction 
and oversee resulting activities. The CPA staff is entirely interagency 
in character with representatives from the Departments of State, 
Treasury, Justice and Defense, and at least 13 other executive branch 
agencies providing support. The relationship between the CPA and non-
U.S. Coalition governments on assistance issues is handled through the 
Council for International Cooperation. As discussed previously, this 
Council is the principal vehicle to coordinate coalition assistance 
support to the CPA. There are numerous embedded Coalition personnel in 
the CPA staff. The Deputy Director for Security Affairs is Spanish, for 
example, and there are a number of British, Canadian, Australian, and 
other personnel serving on the CPA staff.
    One additional and extremely important change since the initial 
Section 1506 report is the level of coordination between the CPA and 
Coalition Joint Task Force 7 (CJTF-7), the military force in Iraq. The 
CPA and the headquarters of CJTF-7 are now co-located in Baghdad. This 
proximity is critical for daily interactions and coordination on 
security issues. There are also a number of military liaisons on the 
CPA staff. This high level of civil-military coordination will have a 
significant positive impact on coalition efforts to stabilize the 
country and improve the quality of peoples' lives in Iraq.

4.   An updated list of the financial pledges and contributions made by 
        foreign governments or international organizations to fund 
        activities related to humanitarian, governance, and 
        reconstruction assistance in Iraq.

    The United Nations, other international institutions, the United 
States, and other leading donors continue to urge all nations to 
contribute to fulfill the needs of the Iraqi people in any way they 
can. This has garnered a strong response from the international 
community, with over 70 countries coming forward to offer either cash 
or in-kind assistance for humanitarian, stabilization or reconstruction 
efforts. At the time of the initial Section 1506 report, offers of cash 
and in-kind assistance from the international community exceeded $1.9 
billion. About $790 million of that amount was in response to a Flash 
Appeal for $2.2 billion made by the United Nations in March 2003 to 
meet urgent humanitarian requirements in Iraq. The remaining $1.1 
billion in assistance had been offered outside of the March Flash 
Appeal.
    On June 24, representatives of 52 donor states, the CPA, UN 
agencies and the international financial institutions (IFIs) gathered 
in New York for the UN-hosted ``Technical Consultations on 
Reconstruction Needs for Iraq.'' The meeting was the first major 
international meeting following the liberation of Iraq to focus on how 
the global community--governments, IFIs and the UN--can help Iraqis 
rebuild their country. The consultations, which included strong lraqi 
participation with the CPA delegation, demonstrated international 
support for Iraq's democratic and economic transformation, helped 
reconnect Iraq to the world community, and launched the process for an 
international donors' conference. Attendees agreed to convene a donors' 
pledging conference in October, to complete a needs assessment prior to 
that, and to create a steering group of the US, European Union, Japan 
and the United Arab Emirates to work with the UN, World Bank and IMF in 
organizing the conference. They also agreed to form a liaison group of 
a larger group of donor countries that are interested in contributing 
to the rebuilding of Iraq.
    As of June 28, 2003, contributions have increased by $400 million 
to $2.3 billion in total offers of assistance. Of that amount, $2.0 
billion in humanitarian assistance has been offered/donated in response 
to the March UN Flash Appeal, meeting 90 percent of the total $2.2 
billion Appeal. On June 23, 2003, the United Nations issued another 
flash appeal for an additional $259 million in immediate humanitarian 
assistance, bringing the total appeal for the Iraqi people to $2.459 
billion.
    As anticipated, the passage of UNSCR 1483 provided an important 
international signal that fostered more contributions from both public 
and private donors. Since the initial Section 1506 report submitted in 
early June, there have been both increases in the total contributions 
and shifts in the patterns of contributions. The most notable change is 
the increase in contributions from private sources, non-governmental 
organizations, and international organizations. These contributions now 
total over $1.1 billion in assistance, which is primarily within the UN 
appeal. For bilateral donors there have been increases as well. In all, 
29 countries have made pledges or contributions within the UN appeal, 
and additional countries have made pledges or contributions outside of 
the UN appeal.
    The initial report included examples of the international pledges 
and contributions. The following are the top 10 public bilateral 
pledges and contributions (plus the European Commission) to date (June 
28, 2003):


----------------------------------------------------------------------------------------------------------------
                                                                                   (Dollars in Millions) Pledge/
                               Country/Organization                                         Contribution
----------------------------------------------------------------------------------------------------------------
United States                                                                                        \1\ $565.3
United Kingdom                                                                                           $177.1
Japan                                                                                                    $101.8
Australia                                                                                                 $60.5
United Arab Emirates                                                                                      $47.6
Canada                                                                                                    $41.2
Saudi Arabia                                                                                              $36.6
Spain                                                                                                     $32.3
Kuwait                                                                                                    $27.5
The European Commission                                                                                   $26.3
Italy                                                                                                     $22.4
----------------------------------------------------------------------------------------------------------------
\1\ Humanitarian assistance pledge


    Over the course of the summer, new offers of humanitarian 
assistance will begin to ebb as the emphasis shifts away from strictly 
humanitarian assistance to medium to longer-term development. Critical 
to that evolution will be more sophisticated needs assessments prepared 
by the United Nations and the World Bank, with significant input from 
the Coalition Provisional Authority. Specifically, the CPA will be 
working over the next several months to develop an operating budget for 
Iraq that will identify funding gaps requiring international support. 
That guidance will be critical to the conference for donors scheduled 
for the fall of 2003. Usually there is a surge in contributions 
following scheduled conferences for donors.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

             [The Washington Times--Monday, July 28, 2003]

                    Roots Of Hope In a Realm Of Fear

                            [Paul Wolfowitz]

    Behind the police academy in Baghdad stands the forked trunk of a 
dead tree, unusual for the fact that on each branch the bark is 
permanently marked by two sets of ropes--one high enough to tie up a 
man, the other, a woman. Near the tree is a row of small cells where 
special prisoners were held.
    Our guide, the newly appointed Sunni superintendent of the academy 
(who had spent a year in jail for having made a disparaging comment 
about Saddarn Hussein to his best friend) told us of unspeakable things 
that once happened to men and women tied to that tree and held in those 
cells. Beyond the torture tree, a small gate leads to the Olympic 
Committee Headquarters, run by Uday Hussein, who would often slip 
through the back gate at night to torture and abuse prisoners.
    Traveling throughout Iraq last week, I heard many more accounts of 
unspeakable brutality--on a scale unimaginable for Americans. While we 
were in the north, one commander told us workers had temporarily 
stopped the excavation of a newly discovered mass grave-site, after 
unearthing the remains of 80 women and children--some still with little 
dresses and toys.
    In the south, we met other remnants of the regime's horrific 
brutality, the Marsh Arabs, for whom liberation came just in time to 
save a fragment of this ancient civilization. But for the Marsh Arabs, 
the marshes are no more. Where there was once a lush landscape of 
productive, freshwater marshes, there is now a vast, nearly lifeless 
void. The children there greeted us with loud applause and cheers of 
``Salaam Bush'' and ``Down with Saddam.'' Their first request was not 
for candy or toys. It was, instead, a single word: ``Water?''
    One of my strongest impressions is that fear of the old regime is 
still pervasive. A smothering blanket of apprehension and dread woven 
by 35 years of repression--where even the smallest mistake could bring 
torture or death--won't be cast off in a few weeks' time. Iraqis are 
understandably cautious. Until they are convinced that every remnant of 
Hussein's old regime is removed, and until a long and ghastly part of 
their history is overcome, that fear will remain. That history of 
atrocities and the punishment of those responsible are directly linked 
to our success in helping the Iraqi people build a free, secure and 
democratic future.
    What happened to Uday and Qusay Hussein last week is essential to 
the process of building that future. Their demise is an important step 
in making Iraqis feel more secure that the Baathist tyranny will never 
return, in restoring order and in giving freedom a chance. Even in 
Baghdad, far from the Shi'a and Kurdish areas that we associate with 
Hussein's genocidal murders, enthusiastic and prolonged celebrations 
over the news of their deaths erupted almost at once--suggesting 
something else I observed: Hussein and his sons were equal-opportunity 
oppressors.
    It was a significant step forward to get Nos. 2 and 3 on our most-
wanted list of regime criminals. That same day we captured the 
commander of the Special Republican Guard. But we've learned in our 
days on the ground that the roots of that regime go deep--burrowing 
into precincts and neighborhoods, like a huge gang of organized 
criminals. So it is the coalition's intensified focus on mid-level 
Baathists that we think will yield even greater results in apprehending 
the contract killers and deadenders who now target our soldiers and our 
success. Recently captured functionaries have revealed new and helpful 
information, and we are working to encourage this trend.
    Even though the enemy targets our success, we will win the peace. 
But we won't win it alone. We don't need American troops to guard every 
mile of electrical cable. The real center of gravity will come from the 
Iraqi people themselves--they know who and where the criminals are. And 
they have the most at stake--their future.
    While Iraqis may remain in the grip of fear, our troops, our 
coalition, allies and the new Iraqi national and local Iraqi councils 
are making significant progress in lessening its iron hold. When 
inevitable challenges and controversies arise, we should remember that 
most of the people of Iraq are deeply grateful for what our incredibly 
brave American and coalition forces have done to liberate them from 
Hussein's republic of fear.
    When we've convinced Iraqis that we mean to stay until the old 
regime is crushed and its criminals are punished--and that we are 
equally determined to give their country back to them--they will know 
they can truly begin to build a government and society of, by and for 
the Iraqi people.
    In many ways, the people of Iraq are like prisoners who endured 
years of solitary confinement--without light, without peace, without 
much knowledge of the outside world. They have just emerged into the 
bright light of hope and fresh air of freedom. It may take a while for 
them to adjust to this new landscape free of torture trees.

                                 ______
                                 

              [The Washington Post--Monday, July 20, 2003]

                       Getting to Know the Iraqis

                             (Jim Hoagland)

    Al Turabah, lraq.--Lionized by conservatives and denounced by 
liberals as the architect of the second Gulf War, Paul Wolfowitz sits 
cross-legged in the blowing dust of a hall made of reeds and perspires 
visibly as a tribal sheik pleads for support. Wolfowitz's blue blazer 
and red tie add to his discomfort; but the U.S. deputy defense 
secretary insists on showing respect to a people he has almost 
certainly helped save from extinction.
    Watching him in the fiery 115-degree heat and the blinding glare of 
a parched wasteland that stretches far beyond the horizon, you know 
that there is nowhere else in the world Wolfowitz would rather be.
    We have flown by helicopter 100 miles northeast of Basrah and 
descended into a man-made inferno on the eastern edge of what once were 
Iraq's lush and productive marsh lands.
    Today, that territory is a salinated desert, the product of Saddam 
Hussein's wrath against the half-million people known as Marsh Arabs.
    For more than a decade, the Iraqi tyrant drained and diverted water 
from their lands. His genocidal campaign here was even more devastating 
than his serial wars on the Kurds in northern Iraq. An estimated 
300,000 Marsh Arabs perished. Forcibly resettled in what is as close to 
Hell as I ever want to experience, the survivors here have re-created a 
traditional gathering hall that Wolfowitz is visiting.
    On this five-day fact-finding trip that began in Baghdad Thursday, 
Wolfowitz has made a point of putting Hussein's victims rather than 
himself in the spotlight. Also on his schedule is a visit to a mass 
grave in the Shiite heartland and a stop in Kurdistan. At each station, 
he talks repeatedly--his critics might say obsessively--about the 
Baathist regime's crimes against humanity.
    Isn't he concerned, I ask later, that he seems to be dwelling on 
the past when Iraq needs to secure its future? Is he seeking to justify 
a regime change he pursued relentlessly for two decades by raking up 
deeds that are monstrous but overtaken by the vast new problems of 
liberated Iraq?
    For once, Wolfowitz does not pause to reflect judiciously before 
responding to a question. Trained as a professor of international 
relations, he has become passionate about the need for and 
possibilities of change in Iraq and the Arab world at large. That 
passion today drives much of the Bush administration's policy in the 
greater Middle East,
    ``It is important to offer firsthand testimony about things I have 
only read in books until now,'' the 59-year-old defense intellectual 
says.
    ``That part of history I am observing--the destruction, the fear 
and trembling that the old regime induced in its subjects--is still 
alive in the minds of many Iraqis. We have to be aware that things 
could go backwards here if we do not put to rest that part of their 
history?
    Wolfowitz continues: ``I plead guilty to optimism--but not 
excessive optimism--that these are remarkable people who can achieve a 
change in their lives that will also mean much for the whole region, 
even if there is more unease than I would have hoped to see at this 
stage?
    This grueling trip has confirmed rather than shaken the long-
distance vision of Iraq that Wolfowitz began to develop in 1979 when, 
as a junior policy analyst at the Pentagon, he identified Iraq as a 
regional challenge for the United States. This was, he recalls, ``when 
others pooh-poohed'' the idea.
    ``You can be elated that these people are free but still remember 
how much they suffered and how much of that suffering was unnecessarily 
prolonged,'' Wolfowitz says, referring indirectly to the premature 
ending of the Gulf war in 1991 by the first Bush administration.
    ``At least there was still a Marsh Arab civilization capable of 
being preserved. They would not have lasted another 12 years.''
    Critics who cast him as the leader of a neo-conservative, pro-
Israeli cabal that has seized control of the administration's Middle 
East policy deride him as Wolfowitz of Arabia. But such critics ignore 
Wolfowitz's deep intellectual interest in Arab society and his firm 
belief that it can reform itself, especially if given encouragement 
from outside.
    In his spare time, Wolfowitz reads Arab writers such as Egypt's 
Alifa Rifaat, whose collection of short stories, ``Distant View of a 
Minaret,'' graphically portrays the frustration of women in purdah and 
other restrictions they face.
    ``It is important for Iraqis to show what Arabs can do when they 
live in freedom,'' he says to the local leaders gathered here. He has 
arranged to meet them in the company of Britain's Baroness Emma 
Nicholson, the redoubtable human rights campaigner who has championed 
the Marsh Arabs in the European Parliament.
    ``What we are seeing'' Wolfowitz tells me later, ``eliminates any 
moral doubt about whether this was a war against Iraq, or a war for 
Iraq. This was a war for Iraq.''

                                 ______
                                 

            [From the New York Times--Sunday, July 20, 2003]

                             southern iraq

Wolfowitz Visits Mass Graveyard of Hussein's Victims and Promises Help 
                           in Hunting Killers

                           (By Eric Schmitt)

    HILLA, lraq, July 19.--For a solid month, nine trucks a day pulled 
up to a field off a dirt road here and unloaded their human cargo. Men, 
women and children were herded into a freshly dug pit where Saddam 
Hussein's henchmen gunned them down and buried them, sometimes while 
they were still alive.
    Now, 12 years later, the killing field of Hilla is just one of 62 
mass graveyards that American and allied investigators have discovered 
in southern Iraq since the end of the war.
    About 3,000 bodies have been unearthed here, but townspeople say 
thousands more probably decomposed in the shallow water table over the 
last decade. Relatives have exhumed about 1,000 sets of the remains. 
The rest are wrapped in white plastic bags and spread out over the 
neatly leveled soil, in silent testimony to the horrors of Mr. 
Hussein's three-decade rule.
    ``Obviously, for those people, liberation didn't come in time,'' 
Deputy Defense Secretary Paul D. Wolfowitz said today, visiting here as 
part of a five-day trip throughout Iraq.
    No one knows for sure how many people died in Mr. Hussein's purges 
aimed at terrorizing and suppressing political opponents and religious 
rivals, including the Shiite Muslim majority in this part of lraq. 
American and Iraqi officials here today said the total probably ran 
into the hundreds of thousands.
    Mr. Wolfowitz called those who executed the villagers here 
``monsters,'' and promised a group of local Iraqis who joined him today 
that the occupying forces would lend whatever aid necessary to help 
track down the killers. A team of British forensic experts was just 
here, and there are plans to help start an Iraqi bureau of missing 
persons.
    The United States marines who occupy this part of south-central 
Iraq have already started case files on many of the killings.
    ``I look at this like an organized-crime case,'' said Maj. Al 
Schmidt, a Marine reservist in charge of mass-grave survey work, who is 
an F.B.I. agent in civilian life. ``Saddam Hussein is the head, and 
these are all the tentacles.''
    Local lraqis, while grateful to the Americans for driving Mr. 
Hussein from power, nonetheless said they felt that the United States 
could be doing more to hunt down the killers. ``We want human rights 
for the Iraqi people,'' said Dr. Rafid al-Hussuni, the Hillah grave-
site coordinator.
    The Iraqis said American forces had squandered opportunities to 
capture suspected executioners. The military recently arrested Muhammad 
Juwad Anayfas, a tribal sheik who officials said owned this field and 
took part in the killings. But his American jailers mistakenly set him 
free in a paperwork debacle that dealt the military a major 
embarrassment.
    ``We will get him,'' vowed Lt. Gen. James T. Conway, commander of 
the First Marine Expeditionary Force.
    Traveling through this town, as well as the holy cities of Karbala 
and Najaf, Mr. Wolfowitz today heard from Iraqis as well as General 
Conway and his officers, that the region was relatively free of the 
security problems and deadly attacks against Americans in and around 
Baghdad.
    ln Baghdad today, an American serviceman was killed before dawn 
while guarding a bank on the out-skirts. Four other G.I.'s were wounded 
In Baghdad when their vehicle was struck by a homemade bomb.
    The soldier who was killed was assigned to the army's First Armored 
Division. He was attacked at 1:30 a.m, with small-arms fire and a 
rocket-propelled grenade while guarding the Rasheed Bank, said 
Specialist Brian Sharkey, a military spokesman. The soldier, whose 
identity was not released, was taken to a military aid station, where 
he died.
    The country's new Governing Council, after six days in session, 
failed to elect a president, the Associated Press reported. Instead, 
leadership will be shared by three of the 25 members, the report said.
    Mr. Wolfowitz was greeted enthusiastically by people in the town, 
where the marines say they have worked closely with civic and religious 
leaders in what American military officials call the Shiite heartland. 
There are still fuel, electricity and water shortages, but the main 
streets of Karbala and Najaf bustled with activity.
    In Najaf, Mr. Wolfowltz joined two dozen members of a fledgling 
town council at one of their meetings, and gave an impromptu lesson in 
American-style civics.
    ``I don't think you can have a free country without a free media,'' 
he said. ``I'd be very, very careful about anything that prevents 
people from expressing their views.''
    It was clear that after only 48 hours in Iraq, Mr. Wolfowitz was 
beginning to grow weary of the laundry list, and perhaps the tone, of 
requests for services and aid from lraqis officials he has met.
    ``The American people are committed to a successful lraq,'' he said 
when asked if United States troops would pull out if someone other than 
President Bush was elected in November 2004, ``so long as they believe 
you are committed to success.''

                                 ______
                                 

            [The Wall Street Journal--Monday, July 28, 2003]

                    ``This Was a Good Thing to Do''

                           (By Paul A. Gigot)

    NAJAF, Iraq.--Toppling a statue is easier than killing a dictator. 
Not the man himself, but the idea of his despotism, the legacy of his 
torture and the fear of his return. This kind of reconstruction takes 
time. Just ask the 20-some members of the new city council in this holy 
city of Shiite Islam. Their chairs are arrayed in a circle to hear from 
Paul Wolfowitz, the deputy secretary of defense, who invites questions. 
The first man to speak wants to know two things: There's a U.S. 
election next year, and if President Bush loses will the Americans go 
home? And second, are you secretly holding Saddam Hussein in custody as 
a way to intimidate us with the fear that he might return? Mr. 
Wolfowitz replies no to both points, with more conviction on the second 
than the first. But the question reveals the complicated anxiety of the 
post-Saddam Iraqi mind.
    Most reporting from Iraq suggests that the U.S. ``occupation'' 
isn't welcome here. But following Mr. Wolfowitz around the country I 
found precisely the opposite to be true. The majority aren't worried 
that we'll stay too long; they're petrified we'll leave too soon. 
Traumatized by 35 years of Saddam's terror, they fear we'll lose our 
nerve as casualties mount and leave them once again to the Baath 
Party's merciless revenge.
    That is certainly true in Najaf, which the press predicted in April 
would be the center of a pro-Iranian Shiite revolt. Only a week ago 
Sunday, Washington Post reporter Pamela Constable made Section A with a 
story titled ``Rumors Spark Iraqi Protests As Pentagon Official Stops 
By.'' Interesting, if true.
    But Ms. Constable hung her tale on the rant of a single Shiite 
cleric who wasn't chosen for the Najaf city council. Even granting that 
her details were accurate--there was a protest by this Shiite faction, 
though not when Mr. Wolfowitz was around--the story still gave a false 
impression of overall life in Najaf. On the same day, I saw Mr. 
Wolfowitz's caravan welcomed here and in nearby Karbala with waves and 
shouts of ``Thank you, Bush.''
    The new Najaf council represents the city's ethnic mosaic, and its 
chairman is a Shiite cleric. Things improved dramatically once the 
Marines deposed a corrupt mayor who'd been installed by the CIA. Those 
same Marines have rebuilt schools and fired 80% of the police force. 
The city is now largely attack-free and Marines patrol without heavy 
armor and often without flak jackets. The entire south-central region 
is calm enough that the Marines will be turning over duty to Polish and 
Italian troops.
    This is the larger story I saw in Iraq, the slow rebuilding and 
political progress that is occurring even amid the daily guerrilla 
attacks in Baghdad and the Sunni north. Admittedly we were in, or near, 
the Wolfowitz bubble. But reporters elsewhere are also in a bubble, one 
created by the inevitable limits of travel, sourcing and access. In 
five days we visited eight cities, and I spoke to hundreds of soldiers 
and Iraqis.
    The Bush administration has made mistakes here since Saddam's 
statue fell on April 9. President Bush declared the war over much too 
soon, leaving Americans unprepared for the Baathist guerrilla campaign. 
(The Pentagon had to fight to get the word ``major'' inserted before 
``combat operations in Iraq have ended'' in that famous May 1 ``Mission 
Accomplished'' speech.) But U.S. leaders, civilian and military, are 
learning from mistakes and making tangible progress.
    One error was underestimating Saddam's damage, both physical and 
psychic. The degradation of this oil-rich country is astonishing to 
behold. Like the Soviets, the dictator put more than a third of his GDP 
into his military--and his own palaces. ``The scale of military 
infrastructure here is staggering,'' says Maj. Gen. David Petraeus of 
the 101st Airborne. His troops found one new Iraqi base that is large 
enough to hold his entire 18,500-man division.
    Everything else looks like it hasn't been replaced in at least 30 
years. The General Electric turbine at one power plant hails from 1965, 
the boiler at one factory from 1952. Textile looms are vintage 1930s. 
Peter McPherson, the top U.S. economic adviser here, estimates that 
rebuilding infrastructure will cost $150 billion over 10 years.
    All of this makes the reconstruction effort vulnerable to even 
small acts of sabotage. The night before we visited Basra, someone had 
blown up electrical transmission pylons, shutting down power to much of 
the city. That in turn triggered long gas lines on the mere rumor that 
the pumps wouldn't work.
    Rebuilding all of this will take longer than anyone thought.
    Iraq's mental scars are even deeper. Nearly every Iraqi can tell a 
story about some Baath Party depredation. The dean of the new police 
academy in Baghdad spent a year in jail because his best friend turned 
him in when he'd said privately that ``Saddam is no good.'' A ``torture 
tree'' behind that same academy contains the eerie indentations from 
rope marks where victims were tied. The new governor of Basra, a judge, 
was jailed for refusing to ignore corruption. Basra's white-and-blue 
secret police headquarters is called ``the white lion,'' because Iraqis 
say it ate everyone who went inside.
    ``You have to understand it was a Stalinist state,'' says Iaian 
Pickard, one of the Brits helping to run Basra. ``The structure of 
civic life has collapsed. It was run by the Baath Party and it simply 
went away. We're having to rebuild it from scratch.''
    This legacy is why the early U.S. failure to purge all ranking 
Baathists was a nearly fatal blunder. Officials at CIA and the State 
Department had advocated a strategy of political decapitation, purging 
only those closest to Saddam. State's Robin Raphel had even called de-
Baathification ``fascistic,'' a macabre irony to Iraqis who had to 
endure genuine fascism.
    Muhyi AlKateeb is a slim, elegant Iraqi-American who fled the Iraqi 
foreign service in 1979 when Saddam took total control. (In the 
American way, he then bought a gas station in Northern Virginia.) But 
when he returned in May to rebuild the Foreign Ministry, ``I saw all of 
the Baathists sitting in front of me. I couldn't stay if they did.'' He 
protested to U.S. officials, who only changed course after L. Paul 
Bremer arrived as the new administrator.
    Mr. AlKateeb has since helped to purge the Foreign Ministry of 309 
secret police members, and 151 Baathist diplomats. ``It's an example of 
success,'' he says now, though he still believes ``we are too nice. 
Iraqis have to see the agents of Saddam in handcuffs, on TV and 
humiliated, so people will know that Saddam really is gone.'' This is a 
theme one hears over and over: You Americans don't understand how 
ruthless the Baathists are. They'll fight to the death. You have to do 
the same, and let us help you do it.
    Which brings up the other large American mistake: The failure to 
enlist Iraqi allies into the fight from the very start. Pentagon 
officials had wanted to do this for months, but they were trumped by 
the CIA, State and former Centcom chief Tommy Franks. The result has 
been too many GIs doing jobs they shouldn't have to do, such as 
guarding banks, and making easier targets for the Baathist-jihadi 
insurgency.
    The new Centcom boss, Gen. John Abizaid, is now correcting that 
mistake by recruiting a 14,000-man Iraqi security force. He's helped by 
division commanders who are adapting their own tactics in order to win 
local support and eventually be able to turn power back over to Iraqis.
    In Mosul in the north, Gen. Petraeus of the 101st Airborne runs the 
equivalent of a large Fortune 500 company. He's having to supply 
electricity, buy up the local wheat crop (everything here was bought 
by, or supplied by, Saddam's government), form a city council, as well 
as put down an insurgency. He's even run a Task Force Pothole to fix 
the local roads. It's no accident that an Iraqi turned the whereabouts 
of Uday and Qusay into the 101st Airborne. Like the Marines in Najaf, 
Gen. Petraeus's troops have made an effort to mingle with the 
population and develop intelligence sources.
    In Kirkuk, Maj. Gen. Raymond Odierno's 4th Infantry Division has 
had similar success tapping Iraqi informers to map what he calls the 
``network of mid-level Baathists'' who are running the insurgency. Late 
last week they raided a house near Tikrit after an Iraqi tip and 
captured several Saddam loyalists, including at least five of his 
personal bodyguards. Some have been reluctant to talk, but Gen. Odierno 
observes that, ``When you mention Guantanamo, they become a lot more 
compliant.''
    The U.S. media have focused on grumbling troops who want to go 
home, especially the 3rd Infantry Division near Baghdad. And having 
been in the region for some 260 days, the 3rd ID deserves a break. But 
among the troops I saw, morale remains remarkably high. To a soldier, 
they say the Iraqis want us here. They also explain their mission in a 
way that the American pundit class could stand to hear.
    ``I tell my troops every day that what we're doing is every bit as 
important as World War II,'' says one colonel, a brigade commander, in 
the 101st. ``The chance to create a stable Iraq could help our security 
for the next 40 or 50 years.'' A one-star general in the same unit 
explains that his father served three tours in Vietnam and ultimately 
turned against that war. But what the 101st is doing ``is a classic 
anti-insurgency campaign'' to prevent something similar here.
    These men are part of a younger Army officer corps that isn't 
traumatized by Vietnam or wedded to the Powell Doctrine. They 
understand what they are doing is vital to the success of the war on 
terror. They are candid in saying the hit-and-run attacks are likely to 
continue for months, but they are just as confident that they will 
inevitably break the Baathist network.
    The struggle for Iraq will be difficult, but the coalition is 
winning. It has the support of most Iraqis, a creative, flexible 
military, and the resources to improve daily lives. The main question 
is whether America's politicians have the same patience and fortitude 
as its soldiers.
    The one word I almost never heard in Iraq was ``WMD.'' That isn't 
because the U.S. military doesn't want, or expect, to find it. The 
reason, I slowly began to understand, is that Iraqis and the Americans 
who are here don't think it matters all that much to their mission. The 
liberation of this country from Saddam's terror is justification enough 
for what they are doing, and the main chance now isn't refighting the 
case for war but making sure we win on the ground.
    ``So I see they're giving Bush a hard time about the WMD,'' 
volunteers a Marine colonel, at the breakfast mess in Hilla one 
morning. ``They ought to come here and see what we do, and what Saddam 
did to these people. This was a good thing to do.''

                                 ______
                                 

            [The Weekly Standard--August 4-August 11, 2003]

                         Of Prisons and Palaces

                       notes from liberated iraq.

                         (By Stephen F. Hayes)

    Abu Gharib Prison, Iraq.--I may be the first person in history to 
have been happy to be inside Abu Gharib prison. The facility, just west 
of Baghdad, was the heart of Saddam Hussein's torture apparatus. On 
this day, however, the temperature had reached above 120 degrees, and 
the sun was relentless. The prison at least provided some shade.
    I came as one of six reporters accompanying a small delegation led 
by Deputy Defense Secretary Paul Wolfowitz. We were halfway through a 
four-day tour of Iraq. With our base in Baghdad, we raced from city to 
village in a sweeping arc from the Shiite south to the Kurdish north. 
We returned most nights to the capital and slept in an outlying 
building on the grounds of one of Saddam Hussein's opulent palaces--
also named Abu Gbarib.
    The palace was built in 1999, as U.N. sanctions were bringing 
economic devastation to most of Iraq. The grounds extend for miles--it 
takes us 13 minutes to drive from the main palace to the exit--and 
feature several manmade lakes filled with water that looks artificially 
blue. Handrails lead down into the water from a patio overlooking the 
lakes. Outdoor showers are available in small stalls adjacent to the 
patio--or were. The palace today is without running water, a casualty 
of a stray American bomb. One building just down the road from the main 
palace was hit hard. There was intelligence that Uday Hussein had been 
hiding there, we're told--a report that at first sounds plausible but 
becomes less believable each time I hear it over the course of the 
trip. It seems every building damaged during the war was thought to 
have held Uday Hussein. But physical evidence of the war here is 
generally scarce.
    Hanging from the ceiling in the foyer of the main palace is a 
massive chandelier, maybe 100 feet in diameter. The floors and most of 
the walls are marble. Most of the furnishings are gold or are painted 
to look like gold. One soldier calls the style ``Saudi gaudy.''
    There could hardly he a greater contrast than with the prison of 
the same name. It sits surrounded by the vast and dry nothingness that 
is the terrain outside of Baghdad. The ground around the prison is 
littered with soda cans, plastic wrappings, pieces of paper, and razor 
wire.
    The inside smells like fresh paint. American soldiers living and 
working here are repainting the walls of one wing. Although many 
coalition officials favored shutting the place down--the mere mention 
of its name can induce physical sickness among Iraqis--the country 
lacks another high-security detention center. So it's expected to 
operate for the next three years at least.
    The soldiers have done a good job. But just down the hall from the 
wing they have fixed up are several stark reminders of the atrocities 
committed here. The two coalition officials guiding us through the 
facility take us first to one of its execution chambers. On the ceiling 
are two well-secured handles that look like the grips from a pommel 
horse. The rope is tied to these.
    Twelve feet below, two large square holes have been cut into the 
cement floor. And in a basement below, there is a wide berth for the 
vehicles used to remove the bodies.
    Bill Irvine is one of those in charge of the prison. He is a 
slight, balding man with a pink complexion. His sing-song Irish accent 
seems incompatible with his words. ``One of the former guards that I 
interviewed in recent weeks told me that on one particular day there 
were as many as 66 persons executed in this chamber. They had 
refrigeration and cooling rooms for 80 bodies at a time. And they 
carried out the executions on a Wednesday and a Sunday--very regularly 
on both those days. It was very seldom that there were no executions 
here.''
    The assembly-line killing that took place within these walls 
accounts for a far lower death toll than the 300,000 estimated to lie 
in the mass graves now being dug up at scores of sites around the 
country. Still, ``as many as 30,000 were executed here in this 
prison,'' Irvine explains. ``There are reports--unsubstantiated 
reports--but there are reports of at least 100,000 people killed in 
this prison.''
    The killing continued as the regime was on its way to extinction. 
``Even three days before the prison closed,'' Irvine says, ``I am told 
that there were executions here.''
    The prison closed on October 10, 2002. Saddam Hussein issued a 
decree freeing nearly all of the common criminals--some 70,000 from Abu 
Ghirab alone--and some of his political prisoners. There are many 
things that might explain postwar looting and security problems. This 
is one of them.
    ``Many of those prisoners were charged and imprisoned for very, 
very serious crimes,'' Irvine continues. ``Especially in Baghdad, the 
military forces have been arresting people who were actually released 
here. So we believe that a high percentage of the people who were 
released are actually involved in criminality now in Baghdad.'' Many 
Iraqis who survived their sentences here have returned since their 
country was liberated on April 9.
    As we walk down the hall towards the dining facility, now a 
makeshift sleeping room for hundreds of American soldiers, one Iraqi 
walking with us stops me and another American. We are not quite sure 
what he's doing with the group--perhaps he's a contractor or a former 
guard. He grabs the electrical wires hanging from the wall of one cell, 
applies them to his body, and shakes violently, as if being shocked.
    The walls of the cafeteria are decorated with pictures and tributes 
to Saddam Hussein. Our interpreter translates: ``All love and faith to 
our leader, Saddam Hussein.'' ``Say yes, yes to leader Saddam 
Hussein.'' ``There's no life without the sun, and no dignity without 
Saddam.''
    On one wall, accompanied by a 15-foot mural of Saddam wearing 1970s 
retro-porn sunglasses, is a mock prison identification card for Iraq.

Father: Saddam Hussein
Mother: Arab Nation
Title: Leader of Victory and Peace
Date of Birth: 17th of July
Type of Blood: Arab milk
Place of Birth: Under the Shade of a Palm Tree
Distinguishing Marks: The tattoo of sincerity
Profession: Knight of the Arab nation
Address: From the Gulf to the Ocean
Place of Birth: In the heart of every Arab citizen
Ideology: Socialist Bath Arab Party
Writer of this ID: The Arab nation

    ``The horror of this place and the kinds of things that went on 
here I think can help you understand why the fear of Saddam Hussein 
hasn't left this country, especially because people are convinced that 
he's still alive,'' said Wolfowitz after the tour.
    Bill Irvine says plans are in place to make most of the prison a 
memorial. ``It'll be a reminder for many, many years of what happened 
here.''
    One might expect a visit to Abu Ghirab would stir reflections on 
the most profound matters--the nature of evil, the existence of God. 
Instead, I could not shake words I'd read in the Washington Post of 
July 15, 2003, the day before I'd left for Iraq. Reporting on the 
likelihood of stepped-up attacks on coalition forces on July 17, a 
national holiday under the previous regime, Kevin Sullivan wrote: 
``Although Iraq's new Governing Council's first official action was to 
abolish Hussein-era holidays, July 17 still stands for Saddam in a 
country deeply unsure if the military occupation is better than his 
dictatorship.''
    A country deeply unsure if the military occupation is better than 
his dictatorship. Could this be true? What about the question put so 
well in a headline over a column by Michael Kelly in that same 
newspaper just weeks before his untimely death: ``Who Would Choose 
Tyranny?'' Could it be that Iraqis might actually prefer despotism to 
freedom, so long as the despot was one of their own?
    Judging from dozens of interviews with Iraqis, U.S. soldiers, and 
representatives of humanitarian and aid groups over the course of our 
trip, the answer is no. Most Iraqis are overjoyed about their 
liberation. The American troops I spoke with, even those from units 
that have suffered postwar casualties, said they have received a warm 
welcome from their hosts. But most surprising were the strong words of 
praise for postwar Iraq from NGO leaders. If even some of what this 
delegation heard is true, the reconstruction of Iraq is going much 
better than reports in the American media suggest.
    ln Najaf on July 19, Wolfowitz met with the new city council. In 
this Shiite holy city, as elsewhere throughout the country, Iraqis had 
a two-part message. ``You have done tremendous things for Iraq,'' said 
Haydar al Mayalli, the interim governor. ``You still have a heavy 
responsibility towards our country. You have commitments that must be 
filled to the Iraqi people. And we are grateful that you have opened 
the door to democracy and freedom.''
    A local sheikh spoke next. ``By destroying the instruments of 
terrorism and the Baath party, the people of Najaf breathe in relief,'' 
he said. He listed infrastructure, electricity, water, and security as 
Najaf's most pressing needs, before reminding Wolfowitz of the stakes. 
``The world is watching you to see what you do.''
    Wolfowitz acknowledged the importance of the transition and 
complimented those on the council for their participation. ``We know 
that the people of the south--particularly this city--have suffered 
more than others. For their memory, we have an obligation to succeed in 
the tasks you described. The great cities for Shia Islam are setting a 
model for democratic Iraq.''
    The council in Najaf had been in existence for just two weeks. Its 
22 members were elected from a larger group assembled from leaders of 
the brand new professional associations and civic organizations that 
are springing up, alongside new political parties, unions, and 
religious groups. It is an encouraging first step.
    Similar councils exist in most major cities in Iraq, including 
Basra, Karbala, Baghdad, Mosul, and Kirkuk. In Kirkuk, an oil-rich city 
in the north, coalition officials brought together a delegation of 300 
local leaders representing each of the religious and ethnic groups in 
the city. That group then elected an interim council of 30 members, 
which in turn picked a mayor, a deputy mayor, and three assistant 
mayors. That was two months ago. Wolfowitz met with the council on July 
21.
    ``I would like to express my thanks to you and George Bush for 
taking this courageous decision,'' said Kamal Kirkuki, a Kurdish 
assistant mayor, ``even though some other nations objected and the 
United Nations did nothing to liberate us from this tyrant.''
    Here, too, Wolfowitz was greeted with a mix of gratitude and pleas 
for help. Asked Dr. Amed Nasser Azzo, a council member, ``When is it 
possible to establish media in Iraq to compete with Arab satellite 
television that agitates for instability in Iraq?''
    Earlier Monday, Wolfowitz met in Mosul with representatives of 
various nongovernmental and humanitarian organizations working in Iraq. 
Much of the meeting, which featured groups like the United Nations and 
Save the Children, was made near incomprehensible by a blizzard of 
acronyms. The comments I could understand were striking. One 
representative of the U.N. office of humanitarian assistance said, ``We 
have gotten fantastic cooperation from the U.S. military's civil 
affairs teams.'' An Iraqi man from Suleimaniya, now working for the 
Mines Action Group, offered similar praise, and so did an American, a 
recent Johns Hopkins graduate working for the Research Triangle 
Institute. Interestingly, not one of the dozen or so humanitarian 
workers in the room used the word ``occupation.'' All of them referred 
to the intervention as ``the liberation.''
    America's challenges in free Iraq are significant. Those of us 
traveling with Wolfowitz heard about them in detail. Power is 
intermittent and unpredictable. Water isn't yet available at prewar 
levels. Jobs are scarce. Conspiracy theories about American motives are 
rampant. And security on the streets of Iraq is woefully lacking.
    But most of those problems are solvable. Meanwhile, most doomsday 
predictions haven't come true. Few oil fields were set on fire. Iraq's 
majority Shiite population has resisted meddling from Iran. The Shiites 
didn't commit revenge killings against the Sunnis. There is no move by 
the Kurds to secede. There was no humanitarian crisis. There was no 
mass starvation. The ``Arab street'' was quiet. And ``friendly'' Arab 
governments never fell.
    The 12 years of containment between the two Gulf wars were costly 
for the Iraqis. Counting only the mass graves and the executions at Abu 
Gharib, several hundred thousand at least lost their lives while Saddam 
Hussein was ``kept in his box.''
    ``If you'd say, `Go through another 12 years of containment,' after 
seeing what we saw,'' says Wolfowitz, ``I mean, that's impossible to 
argue.'' He added, ``Some people say war is intrinsically immoral. This 
one wasn't.''

                                 ______
                                 

     Prepared Statement of the American Association of Engineering 
                  Societies, Paul J. Kostek, Chairman

                          iraq reconstruction
    The American Association of Engineering Societies (AAES), its 24 
member societies and the over one million U.S. engineers it represents, 
wish to thank Chairman Lugar and Ranking Member Biden for the 
opportunity to submit testimony for the record on the topic of 
Reconstruction in Iraq.
    The engineering community understands and believes the most 
pressing task in Iraq is to establish secure and stable conditions 
throughout the country, and we believe that the Coalition forces are 
well on their way to doing just that. Key to the establishment of 
secure and stable conditions is the reconstruction and building efforts 
to improve the country's infrastructure, which are currently underway. 
Since the President declared an end to major combat operations on May 
1, 2003, building and reconstruction efforts have focused on critical 
areas of infrastructure that will each contribute to substantial 
improvements in the lives of the Iraqi people. They are water, 
sanitation, health, education, electricity, ports, airports, and local 
governance.
    The U.S. engineering community believes that one of the most 
important actions to occur during the building and reconstruction 
process must be the engagement of the Iraqi people in all aspects of 
the process, especially the Iraqi engineering community. It is an 
accepted fact that the Coalition forces will be a strong presence in 
Iraq for years to come, but at the same time it is also understood that 
the Iraqi people will be responsible for their own community once the 
Coalition forces have decreased and withdrawn.
    In conjunction with the World Federation of Engineering 
Organizations (WFEO), the U.S. Army Corps of Engineers and others, the 
U.S. engineering community has begun to work directly with the Iraqi 
engineering community during the building and reconstruction process. 
Through regular video conference calls, e-mail exchanges, meetings and 
the like, the U.S. engineering community has come together to help its 
colleagues in Iraq. Some examples of that assistance include providing 
technical journals and literature in an effort to update existing 
engineering skills and technology; providing volunteer U.S. engineers 
willing to travel to Iraq to help their colleagues; and providing 
contacts within the technical community for general assistance in all 
manner of issues. At this critical time, we appreciate the efforts made 
by the U.S. Army Corps of Engineers and other federal agencies to help 
facilitate our outreach to the Iraqi engineering community.
    Our outreach to the Iraqi engineering community is an example of 
how the U.S. engineering community is working to create a sustainable 
world that provides a safe, secure, healthy life for all peoples. The 
U.S. engineering community is increasing its focus on sharing and 
disseminating information, knowledge and technology that provides 
access to minerals, materials, energy, water, food and public health 
while addressing basic human needs. Engineers must deliver solutions 
that are technically viable, commercially feasible, and environmentally 
and socially sustainable.
    The reconstruction of Iraq, and indeed the survival of our planet 
and its people requires the collaboration of all professions in both 
developed and developing countries to sustain future generations. The 
goal of improving the social and economic well being of all peoples in 
the developed and lesser-developed countries is a pre-requisite for 
creating a stable, sustainable world. Although achieving this goal will 
require a broad coalition of well-crafted policies, it will only be 
realized through the application of engineering principles and a 
commitment to public/private partnerships involving professionals from 
all fields including the social sciences, engineering and medicine. It 
will also require collaboration for development, acceptance and 
dissemination of innovative solutions and better use of existing 
technologies.
    Today's world is increasingly complex, and the need for U.S. 
assistance in building and reconstruction more common. The U.S. 
engineering community stands at the ready to provide any manner of 
assistance to help in the creation of a sustainable world.


</pre></body></html>
